No. ______
IN THE

_______________
CHARLES M. HALLINAN,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.
________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Third Circuit
________________
PETITION FOR A WRIT OF CERTIORARI
________________

MICHAEL M. ROSENSAFT
Counsel of Record
KATTEN MUCHIN ROSENMAN LLP

575 Madison Avenue
New York, NY 10022
michael.rosensaft@kattenlaw.com
212-940-6631
Counsel for Petitioner

i
QUESTIONS PRESENTED

Under 18 U.S.C. § 1962(c) and (d) anyone “employed by or associated with any enterprise” is prohibited from conspiring to “conduct or participate,
directly or indirectly, in the conduct of such enterprise’s affairs through . . . collection of unlawful
debt.”
The questions presented are:
1. Whether a person violates 18 U.S.C. § 1962(c)
by simply knowing an enterprise is collecting a debt
that is separately determined to be unlawful, as
found by the Third Circuit Court of Appeals, or
whether the statute requires a defendant to know
that the debt is unlawful and acted willfully to violate that law, as determined by the Second, Fifth,
and Eleventh Circuit Courts of Appeals.
2. Whether a litigant who makes a false statement during a civil proceeding commits wire fraud by
“defrauding” the counter party out of a right to sue
when this Court has limited wire fraud to “traditionally recognized money or property.”

ii
TABLE OF CONTENTS
QUESTIONS PRESENTED ............................................I
TABLE OF AUTHORITIES............................................ V
PETITION FOR A WRIT OF CERTIORARI .................. 1
OPINIONS BELOW........................................................ 1
JURISDICTION.............................................................. 1
STATUTORY PROVISIONS INVOLVED...................... 1
INTRODUCTION ........................................................... 2
STATEMENT .................................................................. 4
REASONS FOR GRANTING THE PETITION .............. 9

I.

It Is Imperative to Rectify the Third Circuit’s
Holding that the Collection of an Unlawful
Debt has No Scienter Element ............................. 9
A. The District Court Turned the Collection
of an Unlawful Debt into a Strict Liability Offense .................................................... 10
B. The Third Circuit’s Decision Departs
from this Court’s Jurisprudence and the
Accepted and Usual Course of Judicial
Proceedings .................................................. 13
C. The Third Circuit’s Holding Conflicts
with Every Other Court that has Addressed What Scienter Applies to RICO’s
Unlawful Debt Collection Prohibition......... 19
D. The Third Circuit’s Holding Will Criminalize Otherwise Innocent Conduct ............ 22

II. The Government’s Wire Fraud Theory is Unprecedented and Fosters Overreach................... 25

iii
A. The Third Circuit’s Decision Departs
Significantly from this Court’s Jurisprudence Limiting Wire Fraud to Traditionally Recognized Money or Property ............. 26
B. This Court Should Grant the Petition
Because the Implications of the Government’s Wire Fraud Theory are FarReaching and Extremely Troubling ............ 30
CONCLUSION.............................................................. 32
APPENDIX A:
OPINION OF THE COURT OF APPEALS
(SEPT. 6, 2019) .......................................................... 1A
APPENDIX B:
JUDGMENT OF THE EASTERN DISTRICT OF
PENNSYLVANIA
(JULY 6, 2018)......................................................... 26A
APPENDIX C:
SUPERSEDING INDICTMENT (DEC. 1, 2017) .............. 47A
APPENDIX D:
ORDER OF THE COURT OF APPEALS DENYING
PETITION FOR REHEARING EN BANC (NOV. 5,
2019) .................................................................... 105A
APPENDIX E:
UNITED STATES CODE, CRIMES AND CRIMINAL
PROCEDURE, 18 U.S.C. § 1341 .............................. 107A
APPENDIX F:
UNITED STATES CODE, CRIMES AND CRIMINAL
PROCEDURE, 18 U.S.C. § 1343 .............................. 109A
APPENDIX G:
UNITED STATES CODE, CRIMES AND CRIMINAL
PROCEDURE, 18 U.S.C. § 1962(D) ......................... 110A

iv
APPENDIX H:
EXCERPT OF TRIAL TRANSCRIPT (NOV. 10, 2017)... 112A
APPENDIX I:
EXCERPT OF JURY CHARGE OF COURT
(NOV. 20, 2017)..................................................... 119A
APPENDIX J:
AFFIDAVIT OF RICHARD BATEZEL
(APR. 2, 2018) ....................................................... 127A

v
TABLE OF AUTHORITIES
FEDERAL CASES:
Bd. Of Regents of State Colleges v. Roth,
408 U.S. 564 (1972) .............................................. 29
Bowers v. Whitman,
671 F.3d 905 (9th Cir. 2012) ................................ 29
California v. Cabazon Band of Mission
Indians,
480 U.S. 202 (1987) ................................................ 5
Carpenter v. United States,
484 U.S. 19 (1987) ................................................ 27
Carter v. United States,
530 U.S. 255 (2000) ................................................ 9
Cleveland v. United States,
531 U.S. 12 (2000) .......................................... 27, 28
Duke Power Co. v. Carolina Envt’l
Study Grp.,
438 U.S. 59 (1978) ................................................ 29
Egana v. Blair’s Bail Bonds, Inc.,
2019 WL 1111465, No. 17-5899 (E.D.
La. Mar. 11, 2019) ................................................ 21
Elonis v. United States,
575 U.S. 723 (2015) .............................................. 18
Flores-Figueroa v. United States,
556 U.S. 646 (2009) .............................................. 17

vi
In re Kane,
628 F.3d 631 (3d Cir. 2010) ................................. 29
Kelley v. United States,
139 S.Ct. 2777, No. 18-1059 ................................ 25
Kiowa Tribe of Oklahoma v. Mfg.
Technologies, Inc.,
523 U.S. 751 (1998) ................................................ 5
Liparota v. United States,
471 U.S. 419 (1985) ...................................... passim
Logan v. Zimmerman Brush Co.,
455 U.S. 422 (1982) .......................................... 9, 30
McBoyle v. United States,
283 U.S. 25 (1931) ........................................ 2, 4, 24
McNally v. United States,
483 U.S. 350 (1987) .................................... 4, 27, 28
Michigan v. Bay Mills Indian Cmty.,
572 U.S. 782 (2014) (J. Thomas,
dissenting) .............................................................. 6
Morissette v. United States,
342 U.S. 246 (1952) ...................................... passim
Pasquantino v. United States,
544 U.S. 349 (2005) .......................................... 9, 27
Pincus v. Starbucks Corp.,
1:16-cv-04705, 2016 WL 8202286
(N.D. Ill. May 31, 2016) ....................................... 31

vii
Rehaif v. United States,
139 S. Ct. 2191 (2019) .................................... 15, 18
Rewis v. United States,
401 U.S. 808 (1971) .............................................. 27
Schneidler v. Nat’l Org. for Women, Inc.,
537 U.S. 393 (2003) .............................................. 28
Sekhar v. United States,
570 U.S. 729 (2013) ........................................ 27, 28
Staples v. United States,
511 U.S. 600 (1994) ...................................... passim
United States v. Aucoin,
964 F.2d 1492 (5th Cir. 1992) .............................. 22
United States v. Baker,
63 F.3d 1478 (9th Cir. 1995) ................................ 13
United States v. Biasucci,
786 F.2d 504 (2d Cir. 1986) ........................... 13, 19
United States v. Enmons,
410 U.S. 396 (1973) .............................................. 28
United States v. Gjeli,
No. 2-13-cr-000421 (E.D. Pa.), Dkt.
266 ........................................................................ 22
United States v. Hill,
55 F.3d 1197 (6th Cir. 1995) ................................ 13
United States v. King,
2014 WL 12623415, No. CR-13-063-F
(W.D. Okla. Dec. 1, 2014)..................................... 21

viii
United States v. McLain,
701 F. Supp. 1544 (M.D. Fla. 1988)..................... 21
United States v. McMonagle,
437 F. Supp. 721 (E.D. Pa. 1977) ........................ 22
United States v. Neff,
787 Fed. App’x 89 (3d. Cir. Sep. 6,
2019) ................................................................... 1, 8
United States v. Olano,
507 U.S. 725 (1993) .............................................. 26
United States v. Pepe,
747 F.2d 632 (11th Cir. 1984) ........................ 13, 21
United States v. Tucker,
1:16-cr-00091-PKC, 2017 WL
3610587 (S.D.N.Y. 2017) ...................................... 20
United States v. Tucker,
No. 18-1802 (2d Cir. June 15, 2018) .................... 20
United States v. X-Citement Video, Inc.,
513 U.S. 64 (1994) ........................................ passim
Wiborg v. United States,
163 U.S. 632 (1896) .............................................. 26
Williams v. Big Picture Loans, LLC,
929 F.3d 170 (4th Cir. 2019) .................................. 2
STATE CASES:
Dikeou v. Dikeou,
928 P.2d 1286 (Colo. 1996) .................................. 14

ix
Lucario v. State,
677 S.W.2d 693 (Tex. App. 1984)......................... 14
Overton v. Anheuser-Busch,
205 Mich. App. 259 (Mich. Ct. App.
1994) ..................................................................... 31
Polakoff v. State,
586 So. 2d 385 (Fla. Dist. Ct. App.
1991) ..................................................................... 14
State v. Hughes,
No. 90-CA-54, 1992 WL 52473 (Ohio
Ct. App. 2d Dist. March 13, 1992) ....................... 14
State v. Young,
62 Ohio St. 2d 370 (Ohio 1980) ............................ 14

FEDERAL STATUTES:
7 U.S.C. § 2024(b) ................................................ 16, 17
18 U.S.C. § 641 .......................................................... 15
18 U.S.C. § 1341 .......................................................... 1
18 U.S.C. § 1343 ...................................................... 1, 7
18 U.S.C. § 1961(6) .................................................... 13
18 U.S.C. § 1962(c) .............................................. 13, 21
18 U.S.C. § 1962(d) ............................................ passim
26 U.S.C. §§ 5861(d), 5845(a)(6), 5845 (b) ................ 17

x
28 U.S.C. § 1254(1) ...................................................... 1

1
PETITION FOR A WRIT OF CERTIORARI
Charles Hallinan respectfully petitions this Court
for a writ of certiorari to review the judgment entered in this case by the United States Court of Appeals for the Third Circuit following his criminal
conviction.
OPINIONS BELOW
The Third Circuit’s decision affirming Petitioner’s
counts of conviction (Pet. App. 1a-25a) is reported at
United States v. Neff, 787 Fed. App’x 89 (3d. Cir. Sep.
6, 2019). The Third Circuit’s en banc decision denying Petitioner’s motion for rehearing is not reported.
Pet. App. 105a-106a.
JURISDICTION
The Third Circuit issued its opinion and entered
judgment on September 6, 2019, and denied a timely
motion for rehearing on November 5, 2019. See Pet.
App. 105a-106a. On January 7, 2020 Justice Alito
extended the time to file a petition for a writ of certiorari to and including March 4, 2020. The jurisdiction of this Court is invoked under 28 U.S.C.
§ 1254(1).
STATUTORY PROVISIONS INVOLVED
The relevant statutory provisions (18 U.S.C.
§ 1341, 18 U.S.C. § 1343, and 18 U.S.C. § 1962(d))
are reproduced in the appendix to this petition. See
Pet. App. 107a-111.

2
INTRODUCTION
Petitioner, a seventy-nine-year old man diagnosed
with prostate and bladder cancer, is serving a fourteen-year sentence for purported crimes that the
government has never before prosecuted, and which
conflict with this Court’s jurisprudence and every
other Circuit Court of Appeals that has addressed
the issues herein. The Government’s unprecedented
and aggressive prosecution falls far short from its
requirement to prove the “concurrence of an evilmeaning mind with an evil-doing hand,” Morissette v.
United States, 342 U.S. 246 (1952), and its responsibility to sound a “fair warning . . . in language that
the common world will understand, of what the law
intends to do if a certain line is passed.” McBoyle v.
United States, 283 U.S. 25, 27 (1931) (Holmes, J).
First, the government convicted Petitioner of participating in the affairs of an enterprise “through collection of unlawful debt,” in violation of 18 U.S.C.
§1962(d), but the District Court completely removed
scienter from the “crucial element separating legal
innocence from wrongful conduct.” United States v.
X-Citement Video, Inc., 513 U.S. 64, 72-73 (1994). In
sum, Petitioner was convicted of participating in a
lending business that offered short term, high interest rate loans to borrowers. Petitioner partnered
with Native American Tribes, believing that Tribal
law would govern the interest rates on the loans as
opposed to state usury provisions. The so-called
“Tribal Model” of lending was touted by prominent
law firms, practiced for nearly a decade, and its legality continues to be litigated today. See, e.g., Williams v. Big Picture Loans, LLC, 929 F.3d 170 (4th

3
Cir. 2019). However, without notice, in one of the
first-ever prosecutions involving the Tribal Model
(the first of which was announced just two months
earlier), the government suddenly charged Petitioner
with a RICO violation that carried a maximum sentence of twenty years’ imprisonment.
Worse, the District Court completely preempted
Petitioner’s defense: that he did not know the loans
were unlawful and did not act willfully to violate the
law. Instead, it instructed the jury that Petitioner’s
knowledge of state usury rates was irrelevant and it
refused to give a willfulness instruction. This resulted in an effective directed verdict as the jury was only asked if Petitioner knew loans were being made at
all – which was conceded. By holding that a person
violates § 1962(d) if he or she simply knows a debt is
being collected - whether or not the individual knows
it is unlawful - the Third Circuit’s holding conflicts
with the Second, Fifth, and Eleventh Circuit Courts
of Appeals who have all determined a willfulness instruction is appropriate.
Petitioner was also convicted of the first-ever
prosecution that is premised on the conjecture that
any false statement made during civil litigation constitutes wire fraud because it deprives the counterparty out of their cause of action. This prosecutorial
theory lacks any limiting principle. It does not matter what type of lawsuit it is, whether the lawsuit is
frivolous, or whether the statement had any effect on
the outcome of the case. If a false statement is made
in an interrogatory, deposition, or even amongst
counsel, it is wire fraud. Despite this Court’s warnings throughout the years that the wire fraud statute

4
is strictly constrained to fraud whose object is the
deprivation of traditionally recognized money or
property, see, e.g., McNally v. United States, 483 U.S.
350 (1987), the government has aggressively
stretched the statute beyond its bounds to encompass
the deprivation of a nebulous right to litigate.
Petitioner was convicted of one crime where the
Third Circuit has deemed his mental state irrelevant, and a second crime that depends on a fanciful
prosecutorial theory that is squarely at odds with
this Court’s jurisprudence. Thus, to resolve conflicts
amongst the Court of Appeals, rein in prosecutorial
overreach, and ensure that these criminal statutes
are constrained to their statutory text and provide
“fair warning . . . of what the law intends to do if a
certain line is passed,” McBoyle, 283 U.S. at 27, this
Court should grant review.
STATEMENT
This case arises out of Petitioner’s participation
in a Tribal payday loan business. Payday loans are
short term loans typically made to individuals who
cannot secure such loans from banks. The loans are
usually a few hundred dollars and meant to allow an
individual to pay bills that are immediately due
without having to wait until their next “payday.” Id.
Most banks and other financial institutions do not
offer payday loans for a number of reasons: (1) the
default rate is extremely high; (2) collecting on any
default is near impossible; and (3) even if collection
was possible, the cost of collecting on such a modest
debt would be much more expensive than the value
of the loan itself.

5
The cost of obtaining a payday loan for a borrower
is typically set in fixed dollar amounts identified as
fees. States have wildly different laws regarding the
legality of payday lending. Some states view it as
predatory, others as a benefit to those with bad credit, and still other states feel that banning the loans
outright is too paternalistic. See The Alliance Between Payday Lenders and Tribes: Are Both Tribal
Sovereignty and Consumer Protection at Risk?, 69
Wash. Lee. L. Rev. 751, 754 (2012) (“An active debate
rages about whether these loans do more harm than
good. Consumer groups claim these loans create a
debt trap. Lender groups, perhaps with some justification, point out that people of lesser means have no
place else to go when they really need cash.”). This
ongoing policy debate has led 17 states to prohibit
payday lending entirely; 27 states to permit payday
loans under certain circumstances; and 6 states to
allow payday lending without restriction. See Pet.
App. 130a.
One way in which payday lenders navigated the
heterogeneous nature of state lending laws was to
partner with Native American Tribes under the theory that if the Tribe was the lender then tribal law
would apply rather than state usury laws. The socalled “Tribal Model” flowed from this Court’s seminal decision in California v. Cabazon Band of Mission Indians, 480 U.S. 202, 209 (1987) (holding that
California gaming laws did not apply on tribal land),
which was later extended to commercial activities of
a tribe “whether they were made on or off a reservation.” Kiowa Tribe of Oklahoma v. Mfg. Technologies, Inc., 523 U.S. 751 (1998). Although this Court
has never considered whether Tribal sovereign im-

6
munity can preempt state usury laws, Justice Thomas, in a dissenting opinion, recognized the employment of the Tribal Model as flowing from this Court’s
tribal immunity jurisprudence. See also Michigan v.
Bay Mills Indian Cmty., 572 U.S. 782, 814 (2014) (J.
Thomas, dissenting).
Petitioner, adhering to the Tribal Model, partnered with Native American Tribes to offer and collect on payday loans. The government, believing the
Tribal Model to be illegal, charged Petitioner with
conspiring to participate in the affairs of a racketeering enterprise through the collection of an unlawful
debt under 18 U.S.C. § 1962(d). The basic facts at
trial were mostly undisputed. Petitioner admitted
that he partnered with Native American Tribes to
offer payday loans at high interest rates. Pet. App.
3a. However, Petitioner argued that he was not acting with corrupt intent and held a good faith belief
that the loans were lawful because they were issued
by sovereign Tribes. Pet. App. 10a-13a. Petitioner
introduced evidence demonstrating that prominent
United States law firms had given opinion letters as
to the legality of this arrangement. Pet. App. 12a.
Petitioner’s trial was held from September 26,
2017 to November 27, 2017. At the charge conference, Petitioner requested a jury instruction on willfulness for the RICO count – i.e. that Petitioner must
have intentionally acted to do something the law forbids while generally aware of its unlawful nature,
but the District Court refused to provide that instruction. Instead, the District Court construed the
collection of an unlawful debt under RICO as a strict
liability offense on the crucial element of the charge

7
– the unlawfulness of the debt - and instructed the
jury in sum and substance that if Petitioner knowingly and intentionally participated in collecting a
debt, then Petitioner was guilty regardless of his
knowledge that the debt was unlawful and notwithstanding his lawful intent. See infra, at pp. 16-20.
This vitiated the defense, which wholly depended on
defendant’s good faith beliefs.
The government also charged Petitioner with
wire fraud in violation of 18 U.S.C. § 1343 for his
conduct in a lawsuit in Indiana (the “Indiana Action”). The Indiana plaintiffs received payday loans
from a company called Apex 1 Processing. Pet. App.
3a. Although Plaintiffs believed that Petitioner
owned Apex, he testified in a deposition that it was
owned by a Native American Tribe. Pet. App. 3a-5a.
Sometime thereafter the class action settled and
Plaintiffs were paid $260,000. Pet. App. 5a.
The government alleged that Petitioner had lied
during that deposition and it was Petitioner who
owned Apex 1 Processing. The government argued
that by lying during his deposition, Petitioner defrauded the Plaintiffs out of their cause of action because Plaintiffs might have not accepted a settlement had they had proof that Petitioner was the
owner.
The jury returned a verdict of guilty on all counts.
On appeal, Defendant raised various arguments
pertaining to the counts of conviction, sentencing,
and forfeiture. As relevant to this Petition, Defendant argued that the District Court’s refusal to instruct the jury that it needed to find that defendant

8
acted willfully and knew the debt was unlawful, inappropriately transformed RICO into a strict liability
offense as to the crucial element of that crime. Citing this Court’s decisions in Liparota v. United
States, 471 U.S. 419 (1985), and Staples v. United
States, 511 U.S. 600 (1994), among others, Defendant
argued that the critical element of the crime of collecting an unlawful debt is not the collection of the
debt, but the fact that the debt is unlawful. A scienter instruction was therefore imperative on the “crucial element” of the crime. See United States v. XCitement Video, 513 U.S. 64, 72 (1994). The Third
Circuit rejected Defendant’s argument, reasoning
that “collecting an unlawful debt, like forceful taking, necessarily falls outside the realm of otherwise
innocent [conduct].” United States v. Neff, 787 Fed.
App’x 81, 89 (3d Cir. 2019) (citing Carter v. United
States, 530 U.S. 255, 270 (2000)). The Third Circuit
then made the circular argument that “[r]easonable
people would know that collecting unlawful debt is
unlawful.” Neff, 787 Fed. App’x. at 89. Finally, it
argued that debt collectors had a higher obligation to
“be aware of the laws that apply to them, particularly laws determining an aspect as essential as how
much interest they can charge.” Id.
As to the wire fraud count, Defendant argued that
the object of a wire fraud scheme must be traditionally recognized money or property, and the government’s theory that Defendant defrauded the Indiana
plaintiffs out of their cause of action was not cognizable. The Third Circuit rejected that argument as
well, finding that a legal cause of action was akin to
the “right to be paid money,” which it argued this
Court has recognized as property for purposes of wire

9
fraud. Id. at 91 (citing Pasquantino v. United States,
544 U.S. 349, 356 (2005)). In addition, it found support for the proposition that a cause of action is traditionally recognized money or property within the
wire fraud statute in this Court’s Fourteenth
Amendment jurisprudence finding violations of due
process when a state procedure deprives an individual of his entitlement to bring a cause of action. See,
e.g., Logan v. Zimmerman Brush Co., 455 U.S. 422,
428 (1982).
Petitioner filed for rehearing or rehearing en
banc, which was denied on November 5, 2019. This
Petition timely followed.
REASONS FOR GRANTING THE PETITION
I. It is Imperative to Rectify the Third Circuit’s Holding that the Collection of an Unlawful Debt has No Scienter Element.
It is well-settled that “offenses that require no
mens rea generally are disfavored” and “some indication of congressional intent, express or implied, is required to dispense with mens rea as an element of a
crime.” Staples, 511 U.S. 600, 605-06 (1994) (internal citations omitted). This is even more so with
statutes that carry stiff criminal penalties such as
RICO. Id. at 616 (“Historically, the penalty imposed
under a statute has been a significant consideration
in determining whether the statute should be construed as dispensing with mens rea.”). Here, Petitioner received a sentence of imprisonment of fourteen years and a forfeiture in excess of sixty-four million, clearly a considerable penalty.

10
The District Court below failed to adhere to this
Court’s jurisprudence and stripped scienter from the
criminal violation. It refused to instruct the jury that
it must find that the Defendant knew the debt was
unlawful and acted willfully to do something the law
forbids. In effect, the jury was told it need only find
that Petitioner was not confused or mistaken when
he participated in collecting a debt regardless of his
knowledge of its unlawful nature or good faith intentions.
This Court should grant this Petition because:
(1) the Third Circuit’s decision departs from this
Court’s precedents and the accepted and usual
course of judicial proceedings; (2) the Third Circuit’s
decision conflicts with other courts of appeals who
have examined the same issue; and (3) allowing the
Third Circuit’s decision to stand would criminalize
otherwise innocent conduct.
A. The District Court Turned the Collection
of an Unlawful Debt Into a Strict Liability Offense.
By refusing to provide a scienter requirement to
the unlawfulness of the debt, the District Court
turned the collection of an unlawful debt into a strict
liability offense as to the crucial element of the
crime. At the charge conference below, the District
Court initially included a willful charge in its instructions. Pet. App. 112a-118a. The government objected, leading the District Court to remove the willfulness instruction from the ultimate charge:

11
In short, to find [Petitioner] guilty of either RICO conspiracies . . . you must
find that the Government proved beyond a reasonable doubt that the Defendant joined in an agreement or conspiracy with another person or persons
knowing that the objective of purpose
was to conduct or to participate, directly
or indirectly, in the conduct of the affairs of an enterprise through the collection of unlawful debt, and intended to
join with other person or persons to
achieve that objective.
Pet. App. 22a.
The District Court then instructed the jury that
the government need only prove that the Defendant
knowingly agreed to collect a debt from Pennsylvania
borrowers and that the debt surpassed state interest
rates. However, the jury need not find that Petitioner
knew the loans were unlawful or otherwise acted
willfully to do something the law forbids:
However, the evidence must establish
that the defendant knowingly agreed to
facilitate or further a scheme, which, if
completed, would include the collection
of unlawful debt committed by at least
one other conspirator. Therefore, if you
believe the Government has presented
evidence demonstrating that the Defendants agreed to collect debt from
loans to borrowers living in Pennsylvania with loans at interest rates that exceeded twice the enforceable rate of in-

12
terest, you may consider such evidence
as evidence that the Defendant agreed
to collect unenforceable debt.
Pet. App. 121a-123a.
Finally, the District Court gave an ignorance of
law instruction, further cementing in the jury’s mind
that it made no difference if Defendant knew the
loans were illicit and intended to act lawfully:
To prove a defendant guilty of conspiracy to collect unlawful debt, the Government is not required to prove that a defendant knew that the usury rates were
in the states where the borrowers lived.
For example, in the case of Pennsylvania, the Government does not need to
prove that the Defendant Charles M.
Hallinan or [codefendant] knew that the
criminal usury rate was 25 percent or
that the enforceable rate of interest was
six percent for a licensed lender, nor
does the Government have to prove that
the Defendant knew the usury laws or
the enforceable rates of interest in any
other state.
Pet. App. 126a.
These instructions thwarted Appellant’s sole defense, which depended on his good faith belief that
his actions were lawful and resulted in a directed
verdict. The only pertinent question for the jury became whether Petitioner knew a loan was made –
which was conceded

13
B. The Third Circuit’s Decision Departs
From This Court’s Jurisprudence and the
Accepted and Usual Course of Judicial
Proceedings.
In deeming the collection of an unlawful debt a
strict liability offense, the Third Circuit sharply deviated from this Court’s rulings requiring that scienter be read into statutes that are otherwise silent as
to the mens rea required.
Whether the collection of an unlawful debt under
RICO requires proof that a defendant knew the loans
exceeded state usury rates and acted willfully is initially a question of statutory construction. See Staples, 511 U.S. at 604 (1994) (citing Liparota, 471 U.S.
at 419 (1985)). Under 18 U.S.C. § 1962(c), “it shall
be unlawful for any person employed with or associated with any enterprise . . . to conduct or participate, directly or indirectly, in the conduct of such enterprise’s affairs through a pattern of racketeering
activity or collection of unlawful debt.” Unlawful
debt is defined in relevant part as a debt incurred in
connection with “the business of lending money or a
thing of value at a rate usurious under State or Federal law, where the usurious rate is at least twice the
enforceable rate.” 18 U.S.C. § 1961(6).
On its face, RICO does not contain any mens rea
requirement, but courts have been uniform in finding
that mens rea should be found in the predicate
crimes. See, e.g., United States v. Baker, 63 F.3d
1478, 1492-93 (9th Cir. 1995); United States v. Hill,
55 F.3d 1197, 1203-04 (6th Cir. 1995); United States
v. Biasucci, 786 F.2d 504, 512-13 (2d Cir. 1986);
United States v. Pepe, 747 F.2d 632, 675-76 (11th

14
Cir. 1984); see also Concerning RICO Legislation,
Hearing on H.R. 2517 and H.R. 2943, Before the
Subcomm. on Criminal Justice, Committee on the
Judiciary (Sept. 28, 1985) (statement of John C.
Keeney, Deputy Asst. Attorney General):
Although the substantive provisions of
the statute currently contain no scienter
requirement, this does not mean – as
some have suggested – that it imposes
strict liability. Rather, the requisite
criminal state of mind for conviction is
derived from the mens rea requirements
of the underlying acts of racketeering
activity that must be proved to establish
a RICO violation.
The collection of an unlawful debt under RICO,
however, has no predicate acts to guide the scienter
analysis. Instead it refers to state usury rates.
However, if state law is seen as the de facto predicate
act used to supply the mens rea, it would be a procedural and constitutional nightmare. For example,
under Florida law, criminal usury requires a showing of corrupt intent, Polakoff v. State, 586 So. 2d
385, 388-89 (Fla. Dist. Ct. App. 1991); Ohio’s first
usury statute was declared unconstitutional for lack
of mens rea, and its second required only proof of
reckless intent (State v. Young, 62 Ohio St.2d 370
(Ohio 1980), State v. Hughes, 1992 WL 52473 at *4
(Ohio Ct. App. 2d Dist. 1992); Colorado only requires
that the usurious loan be made knowingly (Dikeou v.
Dikeou, 928 P.2d 1286, 1294 (Colo. 1996); and in
Texas, the government must prove both knowledge
and intent (Lucario v. State, 677 S.W.2d 693, 698-99

15
(Tex. App. 1984). Of course, in six states, there are
no usury restrictions at all. Pet. App. 130a.
Despite Congress’s vision of a statute addressing
usurious lending that could work in harmony with
state law, conditioning RICO on state usury law
would further confuse the issues of scienter.
This Court has read scienter into criminal statutes that are otherwise silent as to the mental state
numerous times. See Rehaif v. United States, 139 S.
Ct. 2191, 2196 (2019) (citing the “legion” of cases
where scienter is read into a statute to separate
wrongful act from innocent acts). Key to these cases
is applying scienter to the “crucial element separating legal innocence from wrongful conduct.” United
States v. X-Citement Video, Inc., 513 U.S. 64, 72-73
(1994).
For example, in Morissette v. United States, 342
U.S. 246 (1952), the defendant was convicted of violating 18 U.S.C. § 641, which makes it a crime to
steal property belonging to the United States.
Morissette had taken bomb casings from an air force
bombing range, but testified that he believed the casings had been abandoned. Id. at 248. The district
judge instructed the jury that it was “no defense to
claim that [the property] was abandoned . . . [and]
[t]he question on intent is whether or not he intended to take the property.” Id. at 249. On appeal, this
Court noted that crime “generally constituted only
from concurrence of an evil-meaning mind with an
evil-doing hand,” and the absence of scienter in
common law “merely recognized that intent was so
inherent in the idea of the offense that it required no
statutory affirmation.” Id. at 252. The district court

16
had only applied a scienter element to the act of taking the property, but not that “crucial element separating legal innocence from wrongful conduct,” namely that Morissette knew it was the government’s
property. See X-Citement Video Inc., 513 U.S. at 7273. This Court found that answering the question
“Did he intend to take the property?” fell far short
from an “adequate basis on which the jury should
find the criminal intent to steal.” Morissette, 342
U.S. at 275-76.
Years later in Liparota v. United States, 471 U.S.
419 (1985), this Court construed a statute that made
it illegal to knowingly use or possess government
benefits such as food stamps “in any way contrary to
this chapter or the regulations issued under this
chapter.” Id. at 420 (citing 7 U.S.C. § 2024(b)). Liparota had purchased food stamps from an undercover
officer for less than face value. The District Court
charged the jury that it need only find that Liparota
knowingly and intentionally bought the food stamps,
but need not find that Liparota acted willfully or
knew of the regulations that criminalized such a
purchase. Id. at 422-23. Thus, just as in Morissette,
the District Court only asked the jury to determine
“did Liparota transfer food stamps?”, rather than focusing on the crucial element – that the transfer was
“not authorized by law.” 7 U.S.C. § 2024(b). This
Court vacated Liparota’s conviction, explaining that
a scienter element is a “background assumption of
our criminal law,” Liparota, 471 U.S. at 441. This
was especially appropriate when the statute would
otherwise criminalize “a broad range of apparently
innocent conduct.” Id. at 419. The Court held that
to violate 7 U.S.C. § 2024(b), one must act willfully,

17
i.e. know that the transfer was “not authorized by
law.” Id.
Similarly, in Staples v. United States, 511 U.S.
600 (1994), this Court returned to the same subject
and considered the necessary scienter of the National
Firearms Act, which criminalized the possession of
an unregistered “firearm.” 26 U.S.C. §§ 5861(d),
5845(a)(6), 5845 (b). Staples possessed an automatic
weapon, which qualified as a firearm under the statute. Staples, 511 U.S. at 604. The District Court
had charged the jury that it need only find that the
defendant knowingly and intentionally possessed a
firearm, but need not know that the gun qualified as
a “firearm” under federal law. Id. at 604. Again, like
in Morissette and Liparota, the question “did Staples
possess a firearm,” fell far short of the crucial question as to whether Staples knew that his weapon fell
under the definition of firearm and willfully acted
contrary to law. Of note, the government argued
that “dangerous and regulated items place their
owners under an obligation to inquire at their peril
into compliance with regulations,” but the Court
quickly rejected the premise that owning a gun requires some heightened obligation to learn the surrounding regulations. Id. at 614.
This Court has consistently determined that the
jury must find scienter on the “crucial element” that
makes conduct unlawful.
Asking if Morissette
picked up shell casings, Liparota transferred food
stamps, or Staples owned a firearm did nothing to
“separate legal innocence from wrongful conduct.”
Morissette, 342 U.S. at 271; see also Flores-Figueroa
v. United States, 556 U.S. 646 (2009) (finding that to

18
commit aggravated identify theft, the defendant
must not merely possess the identification of another, but must know it is the identification of another);
United States v. X-Citement Video, Inc., 513 U.S. 64
(1994) (determining that in a prosecution for the
transportation of sexually explicit conduct involving
a minor, the defendant must know that the individual is a minor); Elonis v. United States, 575 U.S. 723,
2011 (2015) (vacating conviction for the transmission
of threatening communications because it was not
enough that Elonis intended to send the communication but “the crucial element separating legal innocence from wrongful conduct is the threatening nature of the communication”); Rehaif v. United States,
139 S.Ct. 2191 (2019) (finding that in a prosecution
under § 922 (g) and § 924 (a)(2), the Government
must prove both that the defendant knew he possessed a firearm and belonged to a class of people
prohibited from possessing a firearm).
Here, Petitioner was convicted of conspiring to
participate in an enterprise whose object was the collection of an unlawful debt. 18 U.S.C. § 1962(d). The
jury was essentially asked “did Petitioner participate
in collecting a debt,” but that question falls far short
of the critical question that separates legal innocence
from wrongful conduct. The “crucial element” of a
violation of 18 U.S.C. § 1962(d) is not the collection of
a debt, but the fact that the debt is “unlawful.” And
on this crucial element, the district court failed to
provide any scienter. It refused to give a willfulness
instruction and compounded this deficiency by affirmatively instructing the jury that the government
need not prove that Petitioner knew what the usury
rates were. Pet. App. 126a. In one fell swoop the

19
district court defeated Petitioner’s defense and left
the jury with an inconsequential and conceded question as to whether Petitioner knew that the enterprise collected debt at all.
C. The Third Circuit’s Holding Conflicts
With Every Other Court That Has Addressed What Scienter Applies To RICO’s
Unlawful Debt Collection Prohibition.
The Third Circuit’s holding that the fact the debt
was unlawful requires no scienter contradicts every
court that has opined on the necessary mens rea for
the collection of an unlawful debt. Specifically, the
Second, Fifth, and Eleventh Circuits, and at least
one lower court in the Tenth Circuit have all found
that a willfulness charge is required.
First, the Second Circuit sanctioned a willfulness
instruction in United States v. Biasucci, 786 F.2d
504, 513 (2d Cir. 1986). There, the court made clear
that one element of 18 U.S.C. § 1962(d) is that the
defendant act willfully:
By its terms, all that RICO requires is
proof that a debt existed, that it was
unenforceable under New York's usury
laws, that it was incurred in connection
with the business of lending money at
more than twice the legal rate, that the
defendant aided collection of the debt in
some manner, and that the defendant
acted knowingly, willfully and unlawfully.

20
Id. at 512. Most recently, a district court in the
Southern District of New York followed that guidance in a parallel criminal action to this case. In
United States v. Tucker, 1:16-cr-00091-PKC, 2017
WL 3610587 at *2 (S.D.N.Y. 2017), Scott Tucker, a
former business partner of Petitioner, was charged
with entering into transactions with Native American Tribes to subvert state usury laws for his payday
lending business. The district court charged the jury
that to be guilty Tucker must have acted willfully in
the collection of an unlawful debt. Id.; Transcript of
Proceedings as to Scott Tucker, Dkt. No. 308, at
3287-88 (S.D.N.Y. Oct. 27, 2017) (“[T]he government
must prove beyond a reasonable doubt that the defendant knowingly and willfully joined the conspiracy for the purpose of furthering its unlawful object,
which is the collection of an unlawful debt.”).1 Tucker and Petitioner’s case are two actions with many
overlapping facts, the same relevant charges, and yet
diametrically opposite as to the governing scienter
element highlighting this Circuit split.
Second, the Fifth Circuit recognized that willfulness was required in United States v. Aucoin, 964
F.2d 1492 (5th Cir. 1992), cert denied 504 U.S. 1023
(1992). Aucoin argued that the crime of collection of
an unlawful debt was void for vagueness because it
did not allow for the defense that defendants did not
believe they were violating RICO. Id. at 1498. The
Fifth Circuit rejected Appellant’s arguments because
Tucker appealed his conviction and has argued in the Second
Circuit that even the district court’s willfulness charge was not
sufficient. His appeal is pending. United States v. Tucker, No.
18-1802 (2d Cir. June 15, 2018).
1

21
the jury was charged that it must find the defendant
“did knowingly and willfully conduct and participate,
directly and indirectly in the conduct of the affairs of
the enterprise through the collection of an unlawful
debt,” that the “Government must prove beyond a
reasonable doubt that the defendant knowingly and
willfully conducted or participated in the conduct of
the affairs of the enterprise through the collection of
an unlawful debt,” and that the “charge require[d]
proof of specific intent . . . .” Id.; see also Egana v.
Blair’s Bail Bonds, Inc., 2019 WL 1111465, No. 175899 (E.D. La. Mar. 11, 2019) (“The parties agree
that in order to succeed on a RICO claim based on
the collection of unlawful debt, Plaintiffs must show
that the Defendants acted knowingly, willfully, and
unlawfully.”).
Third, the Eleventh Circuit in United States v.
Pepe, 747 F.2d 632 (11th Cir. 1984) followed suit and
held that the District Court “properly instructed the
jury as to the mental state required for a RICO conviction” when it told the jury that it must find that
the defendant “knowingly or willfully collect[ed] an
unlawful debt.” Id. at 676; see also United States v.
McLain, 701 F. Supp. 1544, 1546 (M.D. Fla. 1988)
(explaining that one of the essential elements of 18
U.S.C. § 1962(c) is that the defendant “knowingly
and willfully participated in the collection of an ‘unlawful debt’”).
And although the Tenth Circuit has not spoken
on the issue, a district court within that Circuit also
acknowledged that the collection of an unlawful debt
requires a finding of willfulness. See United States v.
King, 2014 WL 12623415 at *5, No. CR-13-063-F

22
(W.D. Okla. Dec. 1, 2014) (admitting co-conspirator
statements that demonstrated defendant “willfully
participated in the conspiracy and intended to advance the purposes of the conspiracy [to collect an
unlawful debt]).”2
The Third Circuit’s holding is at odds with every
other Circuit’s determination that a willfulness instruction is required for an unlawful debt collection
conviction under 18 U.S.C. § 1962(d). Petitioner was
convicted without the jury ever considering his sole
defense – that he did not act willfully or know that
the debt was unlawful. Simply put, the trial court
removed the issue from the jury, directed a verdict
against Petitioner, and sentenced him to fourteen
years of imprisonment.
D. The Third Circuit’s Holding Will Criminalize Otherwise Innocent Conduct.
Turning the collection of an unlawful debt into a
strict liability offense – where the jury need only find
that a defendant participate in collecting a loan that
separately is determined to be usurious – criminalizes otherwise “innocent conduct.” See Morissette, 342
U.S. 246. “The contention that an injury can amount
Even the United States Attorney’s Office for the Eastern District of Pennsylvania, which prosecuted Petitioner, has been
inconsistent in its approach to this issue. See United States v.
Gjeli, No. 2-13-cr-000421 (E.D. Pa.), Dkt. 266, at 108 (proposed
jury instructions from the government recommending that the
Court give a willfulness charge in an unlawful debt case); United States v. McMonagle, 437 F. Supp. 721, 722 n.6 (E.D. Pa.
1977) (noting that the indictment charged that the defendants
willfully participated in the enterprise through the collection of
an unlawful debt).
2

23
to a crime only when inflicted by intention is no provincial or transient notion. It is as universal and persistent in mature systems of law as belief in freedom
of the human will and a consequent ability and duty
of the normal individual to choose between good and
evil.” Id. at 250; see also 4 WILLIAM BLACKSTONE
COMMENTARIES at *21 (observing that a “vicious will”
is necessary to commit a crime). As such, “[t]he purpose and obvious effect of doing away with the requirement of a guilty intent is to ease the prosecution’s path to conviction, [and] to strip the defendant
of such benefit as he derived at common law from innocence of evil purpose.” Morissette, 342 U.S. at 263.
Failing to include a scienter requirement for the
essential element of the collection of an unlawful
debt creates uncertainty as to what is unlawful due
in part to idiosyncratic and constantly changing state
usury laws. When considering the house bill that ultimately became the Racketeering Influenced and
Corrupt Organizations Act, some in Congress raised
these very concerns:
This provision, by employing the words
“a state,” raises both very difficult jurisdictional problems, and substantive
problems arising from the creation of a
federal law of gambling and of usury.
For example, a transaction may have
connections with two or more states: in
one, it is legal, in another not. Innocent
action in one state will be the premise
for establishing the collection of an “unlawful debt” in another state under Title I. Which state’s laws are to govern?

24
S. 30, and related proposals, RELATING TO THE
CONTROL OF ORGANIZED CRIME IN THE UNITED
STATES: Hearing Before the Subcomm. No. 5 of the
Comm. on the Judiciary, 91st Cong. (1970) (statement of Rep. John Conyers, Jr., Member, Abner
Mikva, Member and William F. Ryan, Member,
Commentary on the Judiciary, H.R. Rep. 91-1549).
It is manifest that scienter requirement as to the
unlawfulness of the loan is necessary to provide a
“fair warning” of what constitutes a violation of 18
U.S.C. § 1962(d). See McBoyle v. United States, 283
U.S. 25, 27 (1931). Consider a loan being made from
a lender in Utah with no usury laws to a Connecticut
resident where payday lending is completely disallowed. Is the loan de facto usurious or does it depend
on some kind of choice of law analysis? Or consider a
lender in Florida who follows all state payday lending regulations who makes a loan to a borrower in
California, which just instituted a new regulatory
requirement. Under the district court’s jury instructions it would not matter that the Florida lender
completely adhered to Florida’s regulations and tried
to follow both states’ laws but did not know about the
new legislation. Even worse, take a payday loan
made from a lender in Nevada to a borrower in Delaware, both of which have no usury laws, but whose
bank wire travels through payday-loan-unfriendly
New Jersey. Can the government prosecute the lender under RICO based on New Jerseys’ usury laws?
More specifically in this case, consider a 78 yearold man who has led an otherwise law-abiding life
who partners with Native American tribes, knowing
he is fully adherent to all of the regulations of the

25
Tribe’s loan program and believing it is the Tribe
that has “jurisdiction,” but whose loans are made to
individuals in a variety of states with inconsistent
usury laws. Under the District Court’s jury instructions neither his lawful intent nor his lack of
knowledge of state usury laws matter. Within this
massively complex regulatory and statutory framework, a willfulness requirement must be an element
of RICO usury to connect the “evil-meaning mind
with an evil-doing hand.” Morissette, 342 U.S. at
251.
II. The Government’s Wire Fraud Theory is
Unprecedented and Fosters Overreach.
The Government has doggedly pursued an exorbitantly expansive wire fraud theory that is unmoored
from the statutory text and lacks any limiting principle. According to the Government’s theory, any
false statement made in a civil case is wire fraud because it defrauds the counter party out of the cause
of action. The Third Circuit’s opinion approving of
this theory: (1) conflicts with this Court’s jurisprudence limiting wire fraud to traditionally recognized
money or property; and (2) has disturbing implications on civil litigation as it lacks any limiting principle.3
Appellant did not raise this argument before the
district court. Where a party has failed to make a
contemporaneous objection, the federal rules recogThe Court is currently considering the breadth of the wire
fraud statute in Kelley v. United States, 139 S.Ct. 2777, No. 181059 (U.S. June 28, 2019, petition for cert. granted, which may
bear on the issues presented herein.
3

26
nize a limited right to appeal. Fed. R. Crim. P. 52(b)
(“A plain error that affects substantial rights may be
considered even though it was not brought to the
court’s attention.”). The court may review an error
under Rule 52(b) if (1) there was an error, (2) the error is clear or obvious, (3) the error materially prejudiced the substantial rights of the defendant, and (4)
the error seriously affects the fairness, integrity or
public reputation of judicial proceedings. United
States v. Olano, 507 U.S. 725, 732 (1993). Convicting
a defendant for a crime that does not exist must easily satisfy plain error. Olano, 507 U,S, at 736 (“The
court of appeals should no doubt correct a plain forfeited error that causes the conviction or sentencing
of an actually innocent defendant, see, e.g., Wiborg v.
United States, 163 U.S. 632, 16 S.Ct. 1127, 41 L.Ed.
289 (1896), but we have never held that a Rule 52(b)
remedy is only warranted in cases of actual innocence.”).
A. The Third Circuit’s Decision Departs
Significantly
From
This
Court’s
Jurisprudence Limiting Wire Fraud To
Traditionally Recognized Money Or
Property.
The Government’s unprecedented wire fraud theory – that a cause of action is “traditionally recognized money or property” has no basis in the wire
fraud statute and runs contrary to this Court’s holdings. Wire fraud requires the government to prove
two elements: that the defendant engaged in a
scheme or artifice to defraud and that the “object of
the fraud . . . be money or property in the victim’s
hands.” Pasquantino v. United States, 544 U.S. at

27
355 (citation omitted). The statute is “limited in
scope to the protection of property rights.” McNally
v. United States, 483 U.S. 350, 360 (1987). A property right under the mail and wire fraud statutes may
be intangible, but only if the property has “long been
recognized.” Carpenter v. United States, 484 U.S. 19,
25-26 (1987). Moreover, any ambiguities about the
statutes’ coverage “should be resolved in favor of lenity.” Cleveland v. United States, 531 U.S. 12, 24-25
(2000) (quoting Rewis v. United States, 401 U.S. 808,
812 (1971)).
A cause of action that has not been reduced to a
final judgment has never been considered traditionally recognized money or property. Indeed, counsel
is aware of no other case where the government has
even taken the view in the wire fraud context that a
mere right of action is traditionally protected money
or property. That alone should foreclose the government’s theory.
A mere cause of action lacks the characteristics of
traditionally recognized money or property. This
Court has held that one hallmark of money or property is transferability, which is absent from an unvested cause of action. Thus, in Sekhar v. United
States, 570 U.S. 729, 737-38 (2013), this Court rejected the argument that under the Hobbs Act that it
would be a violation of the wire fraud statute to defraud a lawyer out of his “intangible property right to
give his disinterested legal opinion.” Id. Citing this
Court’s interpretation of the wire fraud statute in
Cleveland, 531 U.S. 12, this Court recognized that
obtaining property requires “not only the deprivation
but also the acquisition of property.” Sekhar, 570

28
U.S. at 729 (citing Schneidler v. Nat’l Org. for Women, Inc., 537 U.S. 393, 404 (2003) (citing United
States v. Enmons, 410 U.S. 396, 400 (1973))). In other words, obtaining property “requires that the victim part with his property and that the extortionist
gain possession of it.” Sekhar, 570 U.S. at 734 (citations omitted). In this case, a simple cause of action
cannot be transferred from person to person, i.e., Petitioner could not have “obtained” the Indiana plaintiff’s cause of action.
Relatedly, property must have some present value “in the hands of the victim.” Cleveland, 531 U.S.
at 15. Thus, in Cleveland, this Court rejected a reading of the wire fraud statute that would make it illegal to fraudulently obtain a gambling license. This
Court reasoned that in the hands of the state, the license had no present value. Id. at 26-27. The fact
that the license, once issued, would earn money for
the state did not change the calculus because it is the
present value, not the expected value, that would be
an indicia of property. Id. at 23-24. In Petitioner’s
case, a bald cause of action has no value – if anything
it has significant legal costs. The fact that a cause of
action could lead to the owner collecting money does
not change the calculus, just as the fact that the
gambling license could lead to the state collecting
money did not qualify it as property. Id. at 26-27; see
also McNally, 483 U.S. 350 (finding that the award
of a contract was not money or property despite a
possible future value).
Finally, in the context of the due process clause,
this Court has sometimes referred to a cause of action as a “species of property,” but it has consistently

29
held that the government only deprives someone of
“money or property” when the cause of action is fully
vested. Thus, in Logan, 455 U.S. 422, 430 (1928),
this Court found that:
The hallmark of property . . . is an individual entitlement grounded in state
law, which cannot be removed except for
cause. . . . A typical tort cause of action,
whether based in statute or in the
common law, does not provide a claimant with such an entitlement.
Id.; see also Duke Power Co. v. Carolina Envt’l Study
Grp., 438 U.S. 59, 88, n.32 (1978) (“[A] person has no
property, no vested interest, in any rule of the common law.”); Bd. Of Regents of State Colleges v. Roth,
408 U.S. 564, 577 (1972) (“To have a property interest in a benefit, a person must clearly have . . . a legitimate claim of entitlement to it.”); Bowers v.
Whitman, 671 F.3d 905, 914 (9th Cir. 2012) (“The
reason an accrued cause of action is not a vested
property interest for Takings Clause purposes until
it results in a ‘final unreviewable judgment,’ is that
it is inchoate and does not provide a certain expectation in that property interest.”); In re Kane, 628 F.3d
631, 641 (3d Cir. 2010) (holding that a spouse lacked
a property interest in the equitable division of assets
until there was a final judgment). The Indiana
plaintiffs brought a “typical tort cause of action . . .
based in statute,” whose “value [was] contingent”,
and did not provide them with “an individual entitlement.” Id. The Indiana plaintiffs did not have
property in their cause of action.

30
In sum, it is the right to collect on a final judgment that is money or property, not the cause of action itself. “Property consists in the free use, enjoyment, and disposal of all acquisitions.” 1 WILLIAM
BLACKSTONE, COMMENTARIES at *134 (1765). A
cause of action is not an “acquisition” and lacks any
hallmark of property. There is no entitlement to collect money in the midst of a cause of action whose
contours are still being formed and whose ultimate
resolution is inchoate and unpredictable.
B. This Court Should Grant the Petition
Because
the
Implications
of
the
Government’s Wire Fraud Theory are
Far-Reaching and Extremely Troubling.
The government’s wire fraud theory threatens to
convert court systems everywhere into a breeding
ground for wire fraud cases. If making a false
statement in any litigation were wire fraud because
it deprives the party out of their lawsuit, then there
is no delimiting principle.
Consider this example: an inmate submits a habeas petition arguing that the prosecutor failed to
produce certain discovery. The prosecutor misleadingly states that he or she did produce the discovery
and the habeas petition is denied. This course is unethical, but under the Government’s theory in this
case, the prosecutor would have committed wire
fraud assuming documents were filed electronically.
Or, consider the application of the Government’s theory in another example: a husband in a divorce testifies in a deposition that he did not have an affair
when he did. Because the husband “defrauded” the
wife out of what could have been a better division of

31
assets, the husband would be said to have committed
wire fraud.
Indeed, the massive amount of frivolous lawsuits
brought each year present concerning implications.
Whether it is someone suing Starbucks for using ice
in cold drinks, Pincus v. Starbucks Corp., 1:16-cv04705, 2016 WL 8202286 (N.D. Ill. 2016); or a plaintiff suing Anheuiser Busch for causing him emotional
distress because Bud Light did not bring him the
beautiful women and tropical locations present in its
ads, Overton v. Anheuser-Busch, 205 Mich.App. 259
(Mich. Ct. App. 1994); each of these lawsuits, although ultimately dismissed, could be the setting for
a wire fraud prosecution if any party makes a misstatement therein. The worthless value of the lawsuit would not matter if the cause of action itself
were property.
It is of course virtuous to promote honest dealings
in litigation, but the government’s theory has no limiting principle. Every deposition, every response to
an interrogatory, every statement made by counsel
could constitute a wire fraud prosecution. Moreover,
it raises the very serious concern as to what counsel
should do if they find that their client lied during a
deposition but wanted to settle the case. Professional canons of ethics may prevent a lawyer from revealing his client’s deception. See, e.g., California State
Bar Committee on Professional Responsibility and
Conduct, Formal Opinion No. 1983-74 (finding that a
lawyer is prevented from revealing a client’ perjurious testimony in a civil trial). However, under the
Government’s theory, the lawyer would be complicit

32
in a conspiracy to commit wire fraud if he does not
fully reveal his client’s lies and settles the case.
CONCLUSION
This case is a prime example of prosecutorial
overreach. As it now stands Petitioner will likely
spend the rest of his life in prison for one crime
where the jury never found scienter, and another
charge that is not a crime at all. If the Third Circuit’s
decision stands, many more will likely be prosecuted
for innocent conduct under theories that conflict with
the other Courts of Appeals and this Court’s precedents. For all the reasons stated above, the petition
for a writ of certiorari should be granted.
Respectfully submitted.
MICHAEL ROSENSAFT
Counsel of Record
KATTEN MUCHIN ROSENMAN LLP

575 Madison Avenue
New York, NY 10022
michael.rosensaft@kattenlaw.com
212-940-6631
ANDREW K. STUTZMAN
STRADLEY RONON STEVENS &
YOUNG LLP
2005 Market Street, Suite 2600
Philadelphia, PA 19103
EDWIN J. JACOBS JR.
JACOBS & BARBONE, P.A.
1125 Pacific Avenue
Atlantic City, NJ 08401
Counsel for Petitioner

33
ALAN M. DERSHOWITZ
1575 Massachusetts Avenue
Cambridge, MA 02138
March 4, 2020

Of Counsel

APPENDIX

1a
APPENDIX A
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
————
Nos. 18-2282 & 18-2539
————
UNITED STATES OF AMERICA,
v.
WHEELER K. NEFF,
Appellant in No. 18-2282
————
UNITED STATES OF AMERICA,
v.
CHARLES M. HALLINAN,
Appellant in No. 18-2539
————
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
D.C. Nos. 2-16-cr-00130-001 & 2-16-cr-00130-002
District Judge: Honorable Eduardo C. Robreno
Submitted Pursuant to Third Circuit L.A.R. 34.1(a)
June 27, 2019
Before: CHAGARES, GREENAWAY, JR., and
GREENBERG, Circuit Judges.
(Filed: September 6, 2019)
————

2a
OPINION*
CHAGARES, Circuit Judge.
Charles Hallinan and Wheeler Neff were convicted of
conspiring to collect unlawful debts in violation of the
Racketeer Influenced and Corrupt Organizations Act
(RICO), federal fraud, and other crimes. Their RICO
convictions are based on their efforts to skirt state
usury laws by partnering with American Indian tribes
to offer usurious payday loans. And their fraud convictions are based on their defrauding consumers who
sued one of Hallinan’s payday businesses into settling
their case for a fraction of its worth. They now appeal
their convictions and sentences on numerous grounds.
We will affirm.
I.
We write for the parties and so recount only the facts
necessary to our decision.
Payday loans are a form of short-term, high-interest
credit, commonly due to be repaid with the borrower’s
next paycheck. The loans are not termed in interest
rates, but rather in fixed dollar amounts. The borrower
is required to pay this amount — termed a fee — in
order to secure the loan and is charged this amount
each time the borrower misses the due date to pay off
the loan. As a result of this cycle, the annual percentage
rates (APR) on payday loans are exceedingly high:
400% for loans made through brick-and-mortar shops
on average, and 650% for those made through the
internet. Seventeen states outright prohibit these types
of loans by capping the allowable APR on consumer
loans at 36% or less. Twenty-seven regulate these loans
*

This disposition is not an opinion of the full court and,
pursuant to I.O.P. 5.7, does not constitute binding precedent.

3a
by imposing licensing requirements, limiting the size of
the loans or the number of renewals, or by structuring
APR limits to a cap that would not all but assure the
prohibition of these loans. And only six states permitted
unlicensed payday lending to their residents during the
indictment period.
Hallinan has been partnering with Indian tribes to
offer payday loans since 2003. In 2008, after a falling
out with his first tribal partner, Hallinan joined up with
Randall Ginger, a self-proclaimed “hereditary chief” of
a Canadian Indian tribe. They met through Neff, an
attorney who previously worked with Ginger and a
different payday lender. In late 2008, Neff drafted
contracts by which Hallinan sold one of his companies,
Apex 1 Processing, Inc., to a sole proprietorship owned
by Ginger — although none of Apex 1’s operations changed
and Ginger never actually became involved in them.
In March 2010, Apex 1 was sued in a class action in
Indiana for violating various state consumer-credit
laws. The plaintiffs sought over $13 million in statutory
damages ($2,000 for five violations apiece against over
1,300 class members). Through Neff, Hallinan hired an
attorney to defend Apex 1.
Hallinan and Neff replaced Ginger with the Guidiville
tribe, a federally recognized Indian tribe based in the
United States, in late 2010. In 2011, they also introduced
the tribe to Adrian Rubin, Hallinan’s former paydaylending business partner, and Neff drafted agreements
to facially transfer Rubin’s payday loan portfolio to the
tribe while Rubin continued to provide the money for
the loans and the employees to collect on them. From
2010 until 2013, Hallinan used new entities associated
with this tribe to issue and collect debt from payday
loans to borrowers across the county (including hundreds

4a
with Pennsylvania residents) all of which had threefigure interest rates.
In July 2013, soon after the class was certified in the
Indiana lawsuit, Neff sent Hallinan an email warning
him that he faced personal liability of up to $10 million
if the plaintiffs could prove that he did not really sell
Apex 1 to Ginger. Neff advised: “[T]o correct the record
as best we can at this stage, and present Apex 1 as
owned by Ginger as intended, it would be helpful if
[your accountant] could correct your tax returns and
remove the reference to [Apex 1] on the returns and
re-file those returns.” Joint Appendix (“JA”) 6890. He
continued:
Also, for settlement discussion purposes, it’s
important that Apex 1 not be doing any further
business other than maintaining a minimum
net worth. For that reason, if there is any business being done through Apex 1, it would be
very helpful to have all such activity discontinued and retroactively transferred to another
one of your many operating companies for the
entire 2013 year. All that will tend to confirm
that Ginger owned Apex 1 and there are only
a minimal amount of assets available for
settlement . . . .
Id. Hallinan forwarded this email to his accountant and
wrote: “Please see the seventh paragraph down re; my
tax returns. Then we can discuss this.” JA 6889.
So Hallinan called Ginger and said, “I’ll pay you ten
grand a month if you will step up to the plate and say
that you were the owner of Apex One Processing, and
upon the successful conclusion of the lawsuit, I’ll give
you fifty grand.” JA 6391. Hallinan also falsely testified
in a deposition that: Apex 1 went out of business around
2010, he sold Apex 1 to Ginger in November 2008, he

5a
became vice president after the sale and only made
$10,000 a month, he resigned from Apex 1 in 2009 and
stopped receiving payments, and he did not pay Apex
l’s legal fees. As Neff wrote in a later email, the goal
was “to avoid any potential questioning . . . as to
any deep pockets or responsible party associated with
Apex 1.” JA 7066. In April 2014, the plaintiffs settled
the Indiana lawsuit for $260,000, which Hallinan paid
through one of his payday-lending companies.
Later in 2014, the Government empaneled a grand
jury to investigate Hallinan and Neff’s payday-lending
scheme, as well as their conduct in the Indiana class
action (and Ginger’s as well). As part of the investigation, the Government served subpoenas for documents
on Apex l’s attorneys in the Indiana case. They produced
some documents but withheld or redacted others as
privileged communications with their client, Apex 1.
When the grand-jury judge held that any privilege was
held by Apex 1, not Ginger, Ginger and Hallinan hired
attorney Lisa A. Mathewson to represent Apex 1 and
assert its privilege. Ginger signed Mathewson’s engagement letter as Apex 1’s “authorized representative,”
while Hallinan signed an agreement to pay Mathewson
for her representation. Over the course of two years,
Hallinan paid Mathewson over $400,000 to represent
Apex 1 in the grand-jury investigation.
The Government also served document subpoenas on
Hallinan’s accountant. Among other documents, he
produced the July 2013 email from Neff that Hallinan
had forwarded to him. The Government moved to
present this email to the grand jury. The district court
concluded that the email was protected attorney work
product but allowed it to be presented to the grand jury
under the crime-fraud exception. Hallinan filed an
interlocutory appeal to this Court. We held that the

6a
crime-fraud exception did not apply since no actual act
to further the fraud had been performed. In re Grand
Jury Matter #3, 847 F.3d 157 (3d Cir. 2017).
The grand jury indicted Neff and Hallinan and later
returned a seventeen-count superseding indictment. The
first two counts charged them with RICO conspiracy to
collect unlawful debt in violation of 18 U.S.C. § 1962(d).
Counts three through eight charged them with defrauding and conspiring to defraud the Indiana plaintiffs, in
violation of 18 U.S.C. §§ 371, 1341, 1343. Counts nine
through seventeen charged Hallinan with money laundering in violation of 18 U.S.C. § 1956(a)(2)(A).
Before trial, the Government moved in limine to
admit the July 2013 email. The Government’s motion
was based on the argument that the July 2013 email
had furthered certain tax crimes, not the fraud that this
Court considered, and so it was admissible under the
crime-fraud exception despite this Court’s earlier
decision. After a hearing at which Hallinan’s accountant testified, the District Court agreed and granted the
motion.
Trial took place in the fall of 2017 over ten weeks.
Neff testified extensively over the course of four days,
including about the sources he consulted regarding the
legality of tribal payday lending. The District Court did
not permit him to testify about the details of those
sources or to introduce them into evidence, however.
Hallinan and Neff were convicted on all counts in
November 2017.
In 2018, after a bench trial, the District Court
ordered forfeiture of certain assets of both defendants.
Hallinan was ordered to forfeit over $64 million in
proceeds of the RICO enterprise as well as the funds in
eighteen bank accounts and three cars as a part of his
interest in the RICO enterprise. Neff was ordered to

7a
forfeit his legal fees obtained from his participation in
the RICO enterprise and a portion of his interest in his
residence that corresponded with the home office in
which he facilitated the conspiracies.
Then the District Court sentenced the defendants. As
to Hallinan, the court calculated his total offense level
to be 36, resulting in a Guidelines range of 188-235
months of imprisonment, which included a two-level
enhancement for obstruction of justice. That enhancement was due to Hallinan’s hiring of Mathewson to
make privilege assertions on behalf of Apex 1 in the
grand jury investigation. The court then granted a twolevel downward departure based on Hallinan’s age and
poor health, and varied down one more level under 18
U.S.C. § 3553(a), resulting in a final offense level of 33
and a Guidelines range of 135-168 months of imprisonment. The court sentenced Hallinan to 168 months of
imprisonment followed by three years of supervised
release.
As to Neff, the Presentence Report set his offense
level for the fraud charges at level 39, which included a
20-level upward adjustment for an intended loss amount
exceeding $9.5 million. See U.S.S.G. § 2B1.1(b)(1)(K).
That adjustment was based on his July 2013 email to
Hallinan that set the risk of the Indiana lawsuit at $10
million. But the court instead applied a loss amount of
$557,200, the amount of a settlement offer extended to
the Indiana plaintiffs in December 2013. The court then
varied downward from the Guidelines range of 121-151
and sentenced Neff to 96 months of imprisonment
followed by three years of supervised release.
This timely appeal followed.

8a
II.1
Hallinan and Neff challenge their convictions and
sentences on nine distinct grounds. Both defendants
challenge (A) the admission of the July 2013 email at
trial; (B) the mens rea jury instruction; (C) the limit on
Neff’s testimony; and (D) whether they defrauded the
Indiana plaintiffs of “property” under the mail and wire
fraud statutes. Neff alone challenges (E) the tribalimmunity jury instruction; (F) the sufficiency of the
evidence against him; and (G) the loss calculation at his
sentencing. Hallinan alone challenges (H) his obstructionof-justice enhancement and (I) his forfeiture and money
judgment. We address these issues in turn.
A.
We begin with the admission of the July 2013 email
at trial. The District Court admitted this email under
the crime-fraud exception to attorney work-product privilege. The crime-fraud exception applies when “there is
a reasonable basis to suspect (1) that the privilege
holder was committing or intending to commit a crime
or fraud, and (2) that the attorney-client communication
or attorney work product was used in furtherance of
that alleged crime or fraud.” In re Grand Jury, 705 F.3d
133, 155 (3d Cir. 2012). The District Court determined
that “there is a reasonable basis to suspect that (1) the
defendants were committing or intended to commit tax
crimes, and (2) the email was used in furtherance of
those crimes,” and that this Court’s earlier decision did
not “foreclose the possibility that the email was used in
furtherance of a different crime or fraud.” U.S. Supp.
App. 129. “We review the District Court’s determination
1

The District Court had jurisdiction under 18 U.S.C. § 3231, and
we have appellate jurisdiction under 28 U.S.C. § 1291 and 18
U.S.C. § 3742(a).

9a
that there is sufficient evidence for the crime-fraud
exception to apply for an abuse of discretion.” In re
Grand Jury Subpoena, 745 F.3d 681, 691 (3d Cir. 2014).
This determination was not an abuse of discretion.
The evidence suggested that Hallinan’s sale of Apex 1
to Ginger was a sham and that Hallinan continued to
own and operate the company. After the July 2013
email, however, Hallinan ceased declaring this ownership on his taxes and ceased having his accountant file
tax returns for Apex 1. This is the “actual act to further
the [crime]” that we found lacking before. In re Grand
Jury Matter #3, 847 F.3d at 160; see 26 U.S.C. § 7203
(prohibiting willfully failing to file a return); id.
§ 7206(1) (prohibiting willfully filing a return that the
taxpayer “does not believe to be true and correct as to
every material matter”). There is reason to suspect that
the July 2013 email precipitated those acts, since it
instructs Hallinan to “present Apex 1 as owned by
Ginger.” JA 6890. Although Hallinan took a different
tack than Neff recommended, he nonetheless “used
[this advice] to shape the contours of conduct intended
to escape the reaches of the law.” In re Grand Jury
Subpoena, 745 F.3d at 693; see also In re Grand Jury,
705 F.3d at 157 (“All that is necessary is that the client
misuse or intend to misuse the attorney’s advice in
furtherance of an improper purpose.”).
The law-of-the-case doctrine does not compel a
different result. Even if we conclude that the doctrine
applies — that is, that this issue was either expressly
or by implication decided in a prior appeal, In re City
of Phila. Litig., 158 F.3d 711, 718 (3d Cir. 1998) —
any error is harmless. Far from the “lynchpin” of the
Government’s case, all this email showed was that
Hallinan and Neff acknowledged the risk the Indiana
lawsuit posed and were motivated to mitigate it. The

10a
substantial sums that Hallinan paid to carry out the
mitigation effort alone suffice as other evidence from
which this fact could be gleaned.
B.
We turn next to the District Court’s mens rea jury
instruction. Both Neff and Hallinan argue that the
District Court should have instructed the jury that their
conduct must have been willful, not merely knowing.
The difference is that the term “knowing” requires “only
that the act be voluntary and intentional and not that
a person knows that he is breaking the law,” United
States v. Zehrbach, 47 F.3d 1252, 1261 (3d Cir. 1995),
while “willful” requires that the defendant knew that
his conduct was unlawful, see, e.g., United States v.
Starnes, 583 F.3d 196, 210-11 (3d Cir. 2009). Since the
defendants raised this objection at trial, our review is
plenary. United States v. Waller, 654 F.3d 430, 434 (3d
Cir. 2011).
“The RICO statute itself is silent on the issue of mens
rea . . . .” Genty v. Resolution Tr. Corp., 937 F.2d 899,
908 (3d Cir. 1991). “When interpreting federal criminal
statutes that are silent on the required mental state,
we read into the statute only that mens rea which is
necessary to separate wrongful conduct from otherwise
innocent conduct.” Elonis v. United States, 135 S. Ct.
2001, 2010 (2015) (quotation marks omitted). Some
statutes require a mens rea of willfulness to separate
wrongful from innocent conduct, but for others, “a general requirement that a defendant act knowingly is
itself an adequate safeguard.” Id. Compare, e.g., Liporata
v. United States, 471 U.S. 419, 425 (1985) (holding that
a statute prohibiting the unauthorized possession or
use of food stamps required the defendant to know that
his conduct was unauthorized), with Carter v. United
States, 530 U.S. 255, 269 (2000) (holding that a statute

11a
prohibiting taking items from a bank “by force and
violence” does not require willfulness because “the concerns underlying the presumption in favor of scienter
are fully satisfied” by proof of a taking at least by force),
and United States v. Int’l Minerals & Chem. Corp., 402
U.S. 558, 564-65 (1971) (concluding that a statute that
criminalized the violation of a regulation regarding
transportation of corrosive liquids only required a showing of knowledge and not willfulness in part because a
company that is engaged in business involving significant risks to the public should know of the regulations
applying to its business).
A conviction for conspiring to collect unlawful debt
does not require willfulness to distinguish innocent
from guilty conduct. Collecting an unlawful debt, like
“a forceful taking,” necessarily “falls outside the realm
of the ‘otherwise innocent.’ Id. at 270. Reasonable people
would know that collecting unlawful debt is unlawful.
Moreover, those engaged in the business of debt collection, whose risks to the public are all too familiar,
should be aware of the laws that apply to them,
particularly laws determining an aspect as essential as
how much interest they can charge. The Government
therefore need prove only that a defendant knew that
the debt collected “had the characteristics that brought
it within the statutory definition of an unlawful debt.
Staples v. United States, 511 U.S. 600, 602 (1994).
The District Court did not err by declining to give a
willfulness instruction.
C.
Next we consider the defendants’ challenge to the
limit that the District Court imposed on Neff’s testimony. The District Court permitted Neff to testify
about the legal sources he consulted concerning the
legality of tribal lending, but not to testify about the

12a
details of those sources or to introduce them into
evidence. “We review the District Court’s decisions as
to the admissibility of evidence for abuse of discretion.”
United States v. Serafini, 233 F.3d 758, 768 n.14 (3d
Cir. 2000).
This limitation was not an abuse of discretion.
Testimony about what Neff reviewed goes to his goodfaith defense — whether he honestly believed that the
debt was lawful because of tribal sovereign immunity.
But Neff wanted to prove more — that tribal immunity
did make the debts lawful — and thus to refute the
District Court’s instruction to the contrary. Such efforts
to convince the jury that the court had the law wrong
“would usurp the District Court’s pivotal role in
explaining the law to the jury.” Berckeley Inv. Grp., Ltd.
v. Colkitt, 455 F.3d 195, 217 (3d Cir. 2006). The District
Court rightly limited Neff s efforts to contest its legal
explanations before the factfinder.
Basically conceding that the District Court’s ruling
was not an abuse of discretion, Neff and Hallinan claim
instead that their constitutional right to “a meaningful
opportunity to present a complete defense . . . must take
precedence over an otherwise applicable evidentiary
rule.” Neff Br. 37; see Hallinan Br. 44-52. The Constitution
guarantees criminal defendants “a meaningful opportunity
to present a complete defense.” California v. Trombetta,
467 U.S. 479, 485 (1984). “This right is abridged by
evidence rules that infringe upon a weighty interest of
the accused and are arbitrary or disproportionate to the
purposes they are designed to serve.” Holmes v. South
Carolina, 547 U.S. 319, 324 (2006) (quotation marks
and brackets omitted). But the Constitution permits
courts “to exclude evidence that . . . poses an undue risk
of ‘harassment, prejudice, [or] confusion of the issues.’
Crane v. Kentucky, 476 U.S. 683, 689-90 (1986) (quoting

13a
Delaware v. Van Arsdall, 475 U.S. 673, 679 (1986)); see
also Holmes, 547 U.S. at 314 (“[W]ell-established rules
of evidence permit trial judges to exclude evidence if its
probative value is outweighed by certain other factors
such as unfair prejudice, confusion of the issues, or
potential to mislead the jury.”). The District Court’s
limitation was not irrational or arbitrary, but was
justified by the risk that Neff s testimony would confuse
or mislead the jury about the law, which the District
Court is tasked with explaining.
D.
We turn to Neff and Hallinan’s last joint argument:
that an unvested cause of action is not a property right
protected by the federal fraud statutes. Since they
failed to raise this point before the District Court, we
review it only for plain error. See United States v.
Gonzalez, 905 F.3d 165, 182 (3d Cir. 2018). “Under
plain error review, we require the defendants to show
that there is: (1) an error; (2) that is ‘clear or obvious’;
and (3) that ‘affected the appellants’ substantial rights.’
Id. at 182-83 (quoting United States v. Stinson, 734
F.3d 180, 184 (3d Cir. 2013)). “If those three prongs are
satisfied, we have ‘the discretion to remedy the error —
discretion which ought to be exercised only if the error
seriously affect[s] the fairness, integrity, or public
reputation of judicial proceedings.’” Stinson, 734 F.3d
at 184 (quoting Puckett v. United States, 556 U.S. 129,
135 (2009)).
The federal mail and wire fraud statutes require that
an individual intended to defraud someone of “money or
property.” 18 U.S.C. §§ 1341, 1343. The Supreme Court
has held that these statutes are “limited in scope to the
protection of property rights.” McNally v. United States,
483 U.S. 350, 360 (1987). “[T]o determine whether a
particular interest is property for purposes of the fraud

14a
statutes, we look to whether the law traditionally has
recognized and enforced it as a property right.” United
States v. Henry, 29 F.3d 112, 115 (3d Cir. 1994).
We do not see a plain error with applying the fraud
statutes here. The Supreme Court has upheld fraud
convictions based on schemes to defraud victims of
“[t]he right to be paid money,” which “has long been
thought to be a species of property.” Pasquantino v.
United States, 544 U.S. 349, 356 (2005). In Pasquantino,
the Court held that a country’s “right to uncollected
excise taxes” is “an entitlement to collect money,” the
possession of which is “property” within the meaning
of the wire fraud statute. Id. at 355-56. Along those
lines, we recently held that the right to the uncollected
fines and costs associated with unadjudicated traffic
tickets — claims that a motor-vehicle-code violation has
taken place — constituted “a property interest.” United
States v. Hird, 913 F.3d 332, 339-45 (3d Cir. 2019). An
unadjudicated civil cause of action is sufficiently similar
under plain-error review. Black’s Law Dictionary defines
“cause of action” as “a factual situation that entitles one
person to obtain a remedy in court from another person.”
Black’s Law Dictionary (11th ed. 2019). An entitlement
to a remedy is like an entitlement to money (the most
common remedy). In addition, the Supreme Court has
held that “a cause of action is a species of property
protected by the Fourteenth Amendment’s Due Process
Clause.” Logan v. Zimmerman Brush Co., 455 U.S. 422,
428 (1982); see also Mullane v. Cent. Hanover Bank &
Tr. Co., 339 U.S. 306, 313 (1950). While Neff argues
that “[t]hese cases speak of ‘property’ in the unique context of the 14th Amendment,” Neff Reply 22-23, he
never explains why they do not still illuminate “whether
the law traditionally has recognized and enforced [a
cause of action] as a property right,” Henry, 29 F.3d at
115. This caselaw suggests that it was not an error —

15a
at a minimum, not a clear and obvious plain error — to
consider a cause of action to be property protected by
the fraud statutes.
Neff and Hallinan’s other responses are similarly
unpersuasive. They cite cases “in other contexts [that
have] concluded that there are no vested property
interests in a cause of action before final judgment,”
Hallinan Br. 41, but they cite no authority suggesting
that property rights must be vested for the fraud
statutes to protect them. They also make a policy
argument: that this theory transfigures “misstatements during civil litigation into a felony,” Hallinan Br.
40, which “would have enormous ramifications in both
the civil and criminal contexts,” Neff Reply 24 n.9. But
the fraud statutes are concerned with fraud — “false
representations, suppression of the truth, or deliberate
disregard for the truth.” Third Circuit Model Jury
Instructions § 6.18.1341-1. We reject the suggestion
that “every civil litigant” commits fraud in the regular
course of litigation. Hallinan Reply 16. Finally, the rule
of lenity does not require a different conclusion: it
controls “only if, after seizing everything from which
aid can be derived, we can make no more than a guess
as to what Congress intended.” Muscarello v. United
States, 524 U.S. 125, 138 (1998) (alterations and quotation marks omitted). There is no such “grievous ambiguity
or uncertainty” here. Huddleston v. United States, 415
U.S. 814, 831 (1974). Instead, “[v]aluable entitlements
like these are ‘property’ as that term ordinarily is
employed.” Pasquantino, 544 U.S. at 356 (citing Leocal
v. Ashcroft, 543 U.S. 1, 9 (2004) (“When interpreting a
statute, we must give words their ordinary or natural
meaning.”), and Black’s Law Dictionary 1382 (4th ed.
1951) (defining “property” as “extend[ing] to every species
of valuable right and interest”)). So, it was not a plain

16a
error to consider a cause of action to be “property”
protected by the fraud statutes.
E.
Turning now to the defendants’ individual arguments, Neff alone challenges the court’s tribal-immunity
instruction. The District Court told the jury that tribal
sovereign immunity “protects federally recognized Indian
tribes from being sued” such that “individual states do
not have the authority to apply their laws to Indian
tribes,” but that it “does not provide a tribe or its
members with any rights to violate the laws of any
states” or “with any immunity from criminal prosecution.” JA 5985-86. Neff argues that this instruction
foreclosed a debatable question: whether an Indian
tribe that lends money at usurious rates has engaged
in the “collection of an unlawful debt” under RICO.
Since he did not object on this basis in the trial court,
we review only for plain error.
We see no plain error with respect to this instruction.
RICO defines an unlawful debt as an unenforceable
usurious one, and it looks to state or federal law to
distinguish between enforceable and unenforceable interest rates. See 18 U.S.C. § 1961(6). Sovereign immunity,
on the other hand, is simply a “common-law immunity
from suit traditionally enjoyed by sovereign powers.”
Santa Clara Pueblo v. Martinez, 436 U.S. 49, 58 (1978).
Tribal sovereign immunity thus limits how states can
enforce their laws against tribes or arms of tribes, but,
contrary to Neff s understanding, it does not transfigure debts that are otherwise unlawful under RICO into
lawful ones. See, e.g., Neff Br. 16 (“Tribal Sovereign
immunity made those loans lawful.”). A debt can be
“unlawful” for RICO purposes even if tribal sovereign
immunity might stymie a state civil enforcement action
or consumer suit (or even a state usury prosecution,

17a
although tribal sovereign immunity does not impede a
state from “resort[ing] to its criminal law” and “prosecuting” offenders, Michigan v. Bay Mills Indian Cmty.,
572 U.S. 782, 796 (2014)). The possibility of a successful
state lawsuit is not an element of a RICO offense. And
so the tribal-immunity instruction was not plain error.
F.
Neff also challenges the sufficiency of the Government’s evidence against him. When assessing challenges
to the sufficiency of the evidence, we ask only whether
some rational trier of fact could have found the essential elements of the crime beyond a reasonable doubt
when viewing the evidence in the light most favorable
to the prosecution. See, e.g., United States v. Shaw, 891
F.3d 441, 452 (3d Cir. 2018). The answer here is yes.
For example, when Hallinan partnered with a new tribe
in 2010, it was Neff who emailed the tribe to advise
them that their payday-lending ordinance’s cap on
interest at a legally enforceable rate “would render the
loan program unfeasible from the outset,” U.S. Supp.
App. 775, and would be “a deal killer, which would
require us to immediately move on to another tribe,” JA
2979. And it was Neff who suggested rewriting the faux
contracts to nominally grant the tribe the majority of
payday-lending revenues to make the “optics” of them
“much better” without changing the actual negligible
percentage the tribe received, but warned that assigning the tribe the lion’s share of the revenue “would seem
bogus on its face,” would “invite a further inquiry into
the details,” and “would be very suspicious to people.”
JA 3091, 3094-95. A rational factfinder could have
concluded that Neff knowingly conspired to collect
unlawful debts.

18a
G.
Neff’s final challenge is to the District Court’s loss
calculation at his sentencing. The District Court found
that the intended loss of Neff’s fraud on the Indiana
class-action plaintiffs was $10 million — but, finding
this amount overstated the offense’s seriousness, keyed
the loss for purposes of the Guidelines to the $557,200
settlement offer instead. Neff argues that the Indiana
plaintiffs did not actually lose $10 million, but that
argument ignores that the District Court concluded
“that the intended loss” — not the actual loss — “was
$10 million,” JA 7898, and that under the Guidelines
the relevant “loss is the greater of actual loss or
intended loss,” U.S.S.G. § 2B1.1 note 3(A). And we see
no clear error with the District Court’s factual finding
about the amount of loss Neff intended, which finds
support in the record based on Neff s assertion in the
June 2013 email about a possible $10 million award to
the Indiana plaintiffs. See United States v. Napier, 273
F.3d 276, 278 (3d Cir. 2001). An error would have been
harmless anyway, since the District Court used the
settlement offer despite its intended-loss finding. See
e.g., United States v. Jimenez, 513 F.3d 62, 87 (3d Cir.
2008).
We also reject Neff’s contention that he intended no
“loss” at all as that term is used in the Guidelines. He
relies on our decision in United States v. Free, 839 F.3d
308, 323 (3d Cir. 2016), but there we merely rejected
the “view that the concept of ‘loss’ under the Guidelines
is broad enough to cover injuries like abstract harm to
the judiciary.” The “narrower meaning” of loss that
we endorsed — “i.e., pecuniary harm suffered by or
intended to be suffered by victims,” id. — encompasses
the loss in this case. So we will affirm the District
Court’s loss calculation.

19a
H.
We now turn to Hallinan’s individual challenges. He
first contests the obstruction-of-justice enhancement
applied at sentencing. See U.S.S.G. § 3C1.1. The
District Court found that this enhancement applied to
Hallinan due to the hiring of Mathewson (whom
Hallinan paid) to assert privilege on behalf of Apex 1 —
in the court’s view, a defunct company that Hallinan
claimed not to own, which would not have asserted
privilege but for Hallinan’s machinations — and his
attempts to influence Mathewson after hiring her. This
arrangement, the court concluded, amounted to “a
sham organized to protect Hallinan, and to prevent the
effective prosecution of this case.” JA 8163. We review
the factual finding that Hallinan willfully obstructed or
attempted to obstruct justice for clear error. Napier,
273 F.3d at 278.
We are not left with the definite and firm conviction
that a mistake has been made based on the facts and
the reasonable inferences from them. See, e.g., United
States v. Grier, 475 F.3d 556, 570 (3d Cir. 2007). The
trial evidence laid bare Hallinan’s relationship with
Apex 1. His own testimony in the Indiana case was that
he sold the company to Ginger in 2008, he stopped being
involved with it in 2009, and the company ceased doing
business in 2010. Yet he funded and orchestrated its
litigation defense in that case for years afterward,
before eventually paying Ginger $10,000 a month to
“step up to the plate” and assert ownership. JA 6391. It
is a reasonable inference that Hallinan controlled Apex
1 through Ginger and that it was his decision to hire
Mathewson to assert Apex 1’s privilege in an attempt to
impede the grand jury investigation. Or, as the District
Court put it at the August 2017 motions hearing, it was
“abundantly clear that Apex’s reason for its existence is

20a
only to assert this privilege.” JA 326. Regardless of the
validity of Apex l’s privilege assertions, the evidence is
sufficient to conclude that the District Court’s factual
finding that Hallinan willfully obstructed or attempted
to obstruct justice was not clearly erroneous.
I.
Finally, we turn to Hallinan’s challenges to the District
Court’s forfeiture order and calculation of the money
judgment against him. Under 18 U.S.C. § 1963, RICO
convictions carry mandatory forfeiture. The Government
must prove the relationship between the property interest to be forfeited and the RICO violations beyond a
reasonable doubt. United States v. Pelullo, 14 F.3d 881,
906 (3d Cir. 1994). Since the District Court conducted a
bench trial on forfeiture after Hallinan waived his right
to a jury trial, “we review [its] findings of facts for clear
error and exercise plenary review over conclusions of
law.” Norfolk S. Ry. Co. v. Pittsburgh & W. Va. R.R.,
870 F.3d 244, 253 (3d Cir. 2017). Hallinan contests the
forfeiture order and money judgment on three grounds.
None is persuasive.
1.
First, Hallinan challenges the forfeiture of the funds
in five bank accounts in his own name (identified as
Properties 14-18 in the forfeiture order). The District
Court found that “[t]he evidence at trial and at the
forfeiture hearing establishes that the specific property
listed as Properties 14 through 18 are funds received in
bank accounts from Hallinan Capital Corp., which is
part of the [RICO enterprise],” and so the properties
“are forfeitable pursuant to 18 U.S.C. § 1963(a)(2)(A).”
U.S. Supp. App. 622. Section 1963(a)(2)(A) provides:
“Whoever violates any provision of section 1962 of
this chapter . . . shall forfeit to the United States . . .
any . . . interest in . . . any enterprise which the person

21a
has established, operated, controlled, conducted, or participated in the conduct of, in violation of section 1962.”
We see no clear error with the District Court’s finding
that the money in these accounts was a part of Hallinan’s
interest in the RICO enterprise. The Government offered
the affidavit and testimony of a financial analyst to support this finding. That evidence showed deposits from
accounts owned by Hallinan Capital Corporation (HCC)
into each of these accounts. The court found the lowest
balance in each account after the HCC deposits to be
forfeitable enterprise funds. This finding is therefore
supported by the record.
Hallinan does not dispute this evidence, but argues
only that identifying his interest in the enterprise in
this way contravenes our decision in United States v.
Voigt, 89 F.3d 1050 (3d Cir. 1996). He is incorrect. In
Voigt, we considered how to identify “property traceable
to [tainted] property” under 18 U.S.C. § 982, not the
“interest in . . . any enterprise” under § 1963(a)(2)(A) or
the meaning of “cannot be divided without difficulty” as
used in substitute-asset provisions more broadly. While
the RICO statute also requires that the Government
proceed by way of the substitute-asset provision where
property “has been commingled with other property
which cannot be divided without difficulty,” 18 U.S.C.
§ 1963(m)(5), the term “traceable to” appears nowhere
in the statute. Rather, as we acknowledged in Voigt,
“[t]he RICO forfeiture provision is by far the most far
reaching” of the criminal-forfeiture provisions because
it “is extremely broad and sweeping,” encompassing
forfeiture of “any interest the person has acquired or
maintained in violation of [§] 1962, . . . any interest in,
security of, claim against, or property or contractual
right of any kind affording a source of influence over . . .
any enterprise which the person has established,

22a
operated, controlled, conducted, or participated in the
conduct of in violation of [§] 1962[,] . . . [and] any
property constituting, or derived from, any proceeds
which the person obtained, directly or indirectly, from
racketeering activity . . . in violation of section 1962.”
Voigt, 89 F.3d at 1083-84 (quotation marks omitted)
(quoting 18 U.S.C. § 1963(a)(1)—(3)). The District
Court’s determination of Hallinan’s interest in the
RICO enterprise under § 1963 therefore did not run
afoul of our decision in Voigt.2
2.
Hallinan next argues that the District Court did not
sufficiently exclude proceeds from the six states where
payday lending is legal. This too is a factual finding that
we review only for clear error. See Norfolk S. Ry. Co.,
870 F.3d at 253.
To account for those states, the District Court
excluded 4.79% of Hallinan’s gross proceeds, which was
the percentage of “leads” (or payday-loan candidates
identified with online data) that came from those
states. Hallinan concedes that “the government can use
reasonable extrapolations to calculate illegal proceeds.”
Hallinan Br. 60. And he gives no reason to think
that the percentage of legal leads is not a reasonable
2

We acknowledge that the case on which the District Court
relied also dealt with a different forfeiture provision with a different standard of proof See United States v. Banco Cafetero Panama,
797 F.2d 1154 (2d Cir. 1986). But even if we were to conclude that
the District Court erred, the error would probably be harmless,
since the Government had the authority to seek forfeiture under
the substitute-asset provision and provided Hallinan ample notice
it would do so, and the District Court had already found that
substitute assets would be proper. See United States v. Hallinan,
No. 16-130-01, 2018 WL 3141533, at *5, *12-13 (E.D. Pa. June 27,
2018).

23a
approximation of the percentage of legal loans. He does
not show, for example, that a lead from Delaware was
meaningfully more likely to become a loan than a lead
from California. With no evidence disrupting the reasonable inference that lead states correlate to loan states,
we cannot conclude that the District Court’s factual
finding was clearly erroneous.
Hallinan’s counterarguments rest on the fact that
very few leads became loans — only .15%. From this, he
asserts that “it was over 99% certain that there was no
correlation between leads and loans.” Hallinan Br. 61.
But the fact that few leads became loans says nothing
about whether the distribution of leads among the
states correlates with that of the loans. Hallinan also
contends that “the small sample size of the leads also
make[s] any correlation statistically insignificant.” Id.
But the Government analyzed all the leads and then
offered the reasonable inference that the distribution
among states would be the same for the loans, which
Hallinan has not rebutted. It did not rely on a sample
of leads at all. So there was no clear error.
3.
Third, and finally, Hallinan contests the District Court’s
interpretation of what constitutes forfeitable RICO
“proceeds” under 18 U.S.C. § 1963(a)(3). When determining Hallinan’s RICO “proceeds,” the District Court
excluded “the costs the unlawful enterprise incurs as
a result of performing the contracts” — that is, “the
principal extended to borrowers” — but not the enterprise’s “regular business expenses.” U.S. Supp. App.
616-17 (emphasis omitted). Hallinan concedes that his
“overhead such as office space, supplies, or taxes” is not
deductible. Hallinan Br. 63. And the Government does
not challenge on appeal the deduction of the principal
of the loans (although it did before the District Court).

24a
See Gov. Br. 150 & n.53. The issue on appeal is a narrow
one: whether the District Court was wrong not to deduct
certain operational expenses — for example, “marketing,
credit fees, and salaries,” Hallinan Br. 63 — when
determining the RICO “proceeds” to be forfeited under
§ 1963(a)(3). Whether the term “proceeds” in § 1963(a)(3)
excludes these expenses is a question of law over which
we exercise plenary review. See Norfolk S. Ry. Co., 870
F.3d at 253.
The District Court relied on the reasoning of the
Court of Appeals for the Second Circuit in United States
v. Lizza Industries, Inc., 775 F.2d 492 (2d Cir. 1985).
There, the court endorsed “deducting from the money
received on the illegal contracts only the direct costs
incurred in performing those contracts.” Id. at 498. It
explained:
Forfeiture under RICO is a punitive, not
restitutive, measure. Often proof of overhead
expenses and the like is subject to bookkeeping
conjecture and is therefore speculative. RICO
does not require the prosecution to prove or the
trial court to resolve complex computations, so
as to ensure that a convicted racketeer is not
deprived of a single farthing more than his
criminal acts produced. RICO’s object is to
prevent the practice of racketeering, not to
make the punishment so slight that the economic risk of being caught is worth the
potential gain. Using net profits as the measure for forfeiture could tip such business
decisions in favor of illegal conduct.
Id. at 498-99. In other words, the court interpreted
“proceeds” in the RICO statute to mean gross profits —
total revenues minus marginal costs, but not fixed costs.

25a
The District Court did not err by adopting this
reasoning to refuse to deduct the operational expenses
such as marketing, credit processing, and collection fees
from Hallinan’s forfeitable RICO “proceeds.” Our Court
has not interpreted the meaning of “proceeds” in
§ 1963(a)(3), but many other Courts of Appeals have
interpreted it to mean gross receipts — a broader
definition than that adopted by the court in Lizza
Industries and the District Court here. See, e.g., United
States v. Christensen, 828 F.3d 763, 822 (9th Cir. 2015)
(“We agree with the view that ‘proceeds’ in the RICO
forfeiture statute refers to gross receipts rather than
net profits.”); United States v. Simmons, 154 F.3d 765,
770-71 (8th Cir. 1998); United States v. McHan, 101
F.3d 1027, 1041-43 (4th Cir. 1996); United States v.
Hurley, 63 F.3d 1, 21 (1st Cir. 1995); cf. United States
v. DeFries, 129 F.3d 1293, 1315 (D.C. Cir. 1997)
(concluding that taxes paid on illegal profits should not
be deducted from the calculation of RICO “proceeds”).
Only the Court of Appeals for the Seventh Circuit has
interpreted “proceeds” in § 1963(a)(3) more narrowly
than the District Court to mean net profits. See United
States v. Genova, 333 F.3d 750, 761 (7th Cir. 2003)
(explaining that proceeds in § 1963(a)(3) means “profits
net of the costs of the criminal business”); United States
v. Masters, 924 F.2d 1362, 1369-70 (7th Cir. 1991). The
District Court did not err by taking a more conservative
view than that adopted by the majority of the Courts of
Appeals. Since the District Court excluded the principal
of the loans and Hallinan does not contest the inclusion
of his overhead and taxes, we need not and do not decide
whether “proceeds” means, more broadly, gross receipts.
III.
For these reasons, we will affirm Neff’s and Hallinan’s
judgments of conviction and sentence.

26a
APPENDIX B
UNITED STATES DISTRICT COURT
Eastern District of Pennsylvania
————
Case Number: DPAE2: 16CR000130-001
USM Number:
Edwin Jacobs, Esq.
Defendant’s Attorney
————
UNITED STATES OF AMERICA
v.
CHARLES HALLINAN
————
Filed July 06 2018
————
THE DEFENDANT:
 pleaded guilty to count(s)
 pleaded nolo contendere to count(s)
which was accepted by the court.
X was found guilty 1s,2s,3s,4s,5s,6s,7s,8s,9s,10s,11
on count(s) after s,12s,13s,14s,15s,16s & 17s
a plea of not
guilty.

27a
The defendant is adjudicated guilty of these offenses:
Title &
Section

Nature of
Offense
RICO
18: 1962(d)
Conspiracy.
RICO
18: 1962(d)
Conspiracy.
18: 371
Conspiracy.
18: 1341 & 2 Mail fraud.
18: 1341 & 2 Mail fraud.
18: 1343 & 2 Wire fraud.

Offense Ended

Count

December 2013 1s
December2013

2s

December 2013
December 2013
December 2013
December 2013

3s
4s
5s
6s

The defendant is sentenced as provided in pages 2
through
8
of this judgment. The sentence is
imposed pursuant to the Sentencing Reform Act of
1984.
 The defendant has been found not guilty on
count(s)
 Count(s)
 is  are dismissed on the motion of the United
States.
It is ordered that the defendant must notify the
United States attorney for this district within 30 days
of any change of name, residence, or mailing address
until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify
the court and United States attorney of material
changes in economic circumstances.

28a
July 6, 2018
Date of Imposition of Judgment
/s/ Eduardo C. Robreno
Signature of Judge
Hon. Eduardo C. Robreno, U.S. District Judge
Name and Title of Judge
Date signed: 7/6/18
—————
ADDITIONAL COUNTS OF CONVICTION

29a
IMPRISONMENT
The defendant is hereby committed to the custody of
the Federal Bureau of Prisons to be imprisoned for a
total term of:
168 MONTHS, This term consists of 168 months on
counts 1, 2, and 4 through 17, and a term of 60 on
counts 3, all such terms to run concurrently, to produce a total term of 168 months.
X The court makes the following recommendations to
the Bureau of Prisons:
It is recommended that the Defendant be designated to FMC Butner.
The defendant is remanded to the custody of the
United States Marshal.
The defendant shall surrender to the United States
Marshal for this district:
 at

 a.m.  p.m. on

 as notified by the United States Marshal.
X The defendant shall surrender for service of sentence at the institution designated by the Bureau
of Prisons:
X before 2 p.m. on

July 17, 2018

 as notified by the United States Marshal.
 as notified by the Probation or Pretrial Services
Office.

30a
RETURN
I have executed this judgment as follows;
Defendant delivered on
to
at
, with a certified copy of this judgment.
UNITED STATES MARSHAL
By
DEPUTY UNITED STATES MARSHAL
————
SUPERVISED RELEASE
Upon release from imprisonment, you will be on
supervised release for a term of:
3 YEARS.
————

31a
MANDATORY CONDITIONS
1. You must not commit another federal, state or local
crime.
2. You must not unlawfully possess a controlled substance.
3. You must refrain from any unlawful use of a controlled substance. You must submit to one drug test
within 15 days of release from imprisonment and
at least two periodic drug tests thereafter, as determined by the court.
 The above drug testing condition is suspended, based on the court’s determination
that you pose a low risk of future substance
abuse. (check if applicable)
4.  You must make restitution in accordance with
18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of restitution. (check
if applicable)
5. X You must cooperate in the collection of DNA as
directed by the probation officer. (check if applicable)
6.  You must comply with the requirements of the
Sex Offender Registration and Notification Act
(34 U.S.C. § 20901, et seq.) as directed by the
probation officer, the Bureau of Prisons, or any
state sex offender registration agency in the
location where you reside, work, are a student,
or were convicted of a qualifying offense. (check
if applicable)
7.  You must participate in an approved program
for domestic violence. (check if applicable)

32a
You must comply with the standard conditions that
have been adopted by this court as well as with any
other conditions on the attached page.
————
STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply
with the following standard conditions of supervision.
These conditions are imposed because they establish
the basic expectations for your behavior while on
supervision and identify the minimum tools needed by
probation officers to keep informed, report to the court
about, and bring about improvements in your conduct
and condition.
1. You must report to the probation office in the
federal judicial district where you are authorized to
reside within 72 hours of your release from imprisonment, unless the probation officer instructs you
to report to a different probation office or within a
different time frame.
2. After initially reporting to the probation office, you
will receive instructions from the court or the probation officer about how and when you must report
to the probation officer, and you must report to the
probation officer as instructed.
3. You must not knowingly leave the federal judicial
district where you are authorized to reside without
first getting permission from the court or the probation officer.
4. You must answer truthfully the questions asked by
your probation officer.
5. You must live at a place approved by the probation
officer. If you plan to change where you live or
anything about your living arrangements (such as

33a
the people you live with), you must notify the probation officer at least 10 days before the change. If
notifying the probation officer in advance is not
possible due to unanticipated circumstances, you
must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
6. You must allow the probation officer to visit you at
any time at your home or elsewhere, and you must
permit the probation officer to take any items
prohibited by the conditions of your supervision
that he or she observes in plain view.
7. You must work full time (at least 30 hours per
week) at a lawful type of employment, unless the
probation officer excuses you from doing so. If you
do not have full-time employment you must try to
find full-time employment, unless the probation
officer excuses you from doing so. If you plan to
change where you work or anything about your
work (such as your position or your job responsibilities), you must notify the probation officer at least
10 days before the change. If notifying the probation officer at least 10 days in advance is not possible due to unanticipated circumstances, you must
notify the probation officer within 72 hours of
becoming aware of a change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. If you
know someone has been convicted of a felony, you
must not knowingly communicate or interact with
that person without first getting the permission of
the probation officer.
9. If you are arrested or questioned by a law enforcement officer, you must notify the probation officer
within 72 hours.

34a
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous
weapon (i.e., anything that was designed, or was
modified for, the specific purpose of causing bodily
injury or death to another person such as nunchakus or tasers).
11. You must not act or make any agreement with a
law enforcement agency to act as a confidential
human source or informant without first getting
the permission of the court.
12. If the probation officer determines that you pose a
risk to another person (including an organization),
the probation officer may require you to notify the
person about the risk and you must comply with
that instruction. The probation officer may contact
the person and confirm that you have notified the
person about the risk.
13. You must follow the instructions of the probation
officer related to the conditions of supervision.
U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the
conditions specified by the court and has provided me
with a written copy of this judgment containing these
conditions. For further information regarding these
conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant’s Signature

Date

35a
ADDITIONAL SUPERVISED RELEASE TERMS
The defendant shall provide the U.S. Probation
Office with full disclosure of his financial records to
include yearly income tax returns upon the request of
the U.S. Probation Office. The defendant shall cooperate with the probation officer in the investigation of
his financial dealings and shall provide truthful
monthly statements of his income, if so requested.
The defendant is prohibited from incurring any new
credit charges or opening additional lines of credit
without the approval of the probation officer, unless
the defendant is in compliance with a payment schedule for any fine or restitution obligation. The defendant shall not encumber or liquidate interest in any
assets unless it is direct service of the fine or restitution obligation or otherwise has the express approval
of the Court.
————
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary
penalties under the schedule of payments on Sheet 6.

X The determination of restitution is deferred.
An Amended Judgment in a Criminal Case (AO
245C) will be entered until after such determination.
 The defendant must make restitution (including
community restitution) to the following payees in
the amount listed below.

36a
If the defendant makes a partial payment, each
payee shall receive an approximately proportioned
payment, unless specified otherwise in the priority
order or percentage payment column below. However,
pursuant to 18 U.S.C. § 3664(i), all nonfederal victims
must be paid before the United States is paid.
Name of
Total
Restitution
Priority or
Payee
Loss**
Ordered
Percentage
TOTALS

$

$

 Restitution amount ordered pursuant to plea
agreement
$
 The defendant must pay interest on restitution and
a fine of more than $2,500, unless the restitution or
fine is paid in full before the fifteenth day after the
date of the judgment, pursuant to 18 U.S.C.
§ 3612(f). All of the payment options on Sheet 6
may be subject to penalties for delinquency and
default, pursuant to 18 U.S.C. § 3612(g).
 The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:
 the interest requirement is waived for
 fine
 restitution
 the interest requirement for
 fine
 restitution
is modified as follows:
* Justice for Victims of Trafficking Act of 2015, Pub.
L. No. 114-22.
** Findings for the total amount of losses are required
under Chapters 109A, 110, 110A, and 113A of Title
18 for offenses committed on or after September 13,
1994, but before April 23, 1996.

37a
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due
as follows:
A X Lump sum payment of $ 2,501,700.00
due immediately, balance due
 not later than
X in accordance with
B

 Payment to begin
immediately (may be
combined with

, or
 C  D,  E, or
X F below; or
 C  D, or  F
below; or

C  Payment in equal (e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of
this judgment; or
D  Payment in equal (e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) ) after release
from imprisonment to a term of supervision; or
E  Payment during the term of supervised release
will commence within
(e.g., 30 or 60 days) after release from imprisonment. The court will set the payment plan based
on an assessment of the defendant’s ability to
pay at that time; or
F X Special instructions regarding the payment of
criminal monetary penalties:

38a
The fine and special assessment are due immediately and shall be paid in full within 90 days
of the date of this judgment.
Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of
criminal monetary penalties is due during the period
of imprisonment. All criminal monetary penalties,
except those payments made through the Federal
Bureau of Prisons’ Inmate Financial Responsibility
Program, are made to the clerk of the court.
The defendant shall receive credit for all payments
previously made toward any criminal monetary penalties imposed.
 Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount,
Joint and Several Amount, and corresponding
payee, if appropriate.
 The defendant shall pay the cost of prosecution.
 The defendant shall pay the following court cost(s):
X The defendant shall forfeit the defendant’s interest
in the following property to the United States: See
exhibit A to this judgment and commitment order
for the Court’s ruling on forfeiture.
Payments shall be applied in the following order: (1)
assessment, (2) restitution principal, (3) restitution
interest, (4) fine principal, (5) fine interest, (6) community restitution, (7) JVTA assessment, (8) penalties,
and (9) costs, including cost of prosecution and court
costs.

39a
FORFEITURE
1. As a result of the offenses charged in Counts
One and Two of the Superseding Indictment, as to
which the jury found Defendant Charles M. Hallinan
guilty, and pursuant to 18 U.S.C. § 1963(a), Hallinan
shall forfeit to the United States (1) any interest in, or
property or contractual right of any kind affording a
source of influence over any enterprise which Hallinan
has established, controlled, conducted, or participated
in the conduct of, in violation of 18 U.S.C. § 1962, see
18 U.S.C. § 1963(a)(2)(D); and (2) any property constituting, or derived from, any proceeds which Hallinan
obtained, directly or indirectly, from unlawful debt collection, in violation of 18 U.S.C. § 1962, see 18 U.S.C.
§ 1963(a)(3).
2. Based on the record, the Court finds, beyond a
reasonable doubt, that the value of any property constituting, or derived from, any proceeds which
Hallinan obtained, directly or indirectly, from unlawful debt collection, in violation of 18 U.S.C. § 1962, as
a result of the offenses charged in Counts One and Two
of the Superseding Indictment, is $64,300,829.90.
3. Based on the record, the Court finds, beyond a
reasonable doubt, that the Hallinan Payday Lending
Enterprise (“HDPLE”), as described in Paragraph 8 of
the Court’s findings of fact, is an enterprise that
Hallinan has established, controlled, conducted, or
participated in the conduct of, in violation of 18 U.S.C.
§ 1962. Therefore, Hallinan shall forfeit to the United
States any interest in, security of, claim against, or
property or contractual right of any kind affording a
source of influence over the HPDLE, pursuant to 18
U.S.C. § 1963(a)(2).

40a
4. This sum is subject to forfeiture pursuant to 18
U.S.C. § 1963(a)(3).
5. Therefore, a money judgment in the amount of
$64,300,829.90 is hereby entered and ordered against
Hallinan.
6. As a result of the offenses charged in Counts
Nine through Seventeen of the Superseding Indictment, as to which the jury found Hallinan guilty, and
pursuant to 18 U.S.C. § 982(a)(1), Hallinan shall forfeit to the United States any property, real or personal,
involved in the commission of the offenses charged in
Counts Nine through Seventeen of the Superseding
Indictment, or any property traceable to such property.
7. Based on the record, the Court finds, by a preponderance of the evidence, that the value of any property, real or personal, involved in the commission of
the offenses charged in Counts Nine through Seventeen of the Superseding Indictment, or any property
traceable to such property, is $90,000.
8. This sum is subject to forfeiture pursuant to 18
U.S.C. § 982(a) (1).
9. Therefore, a money judgment in the amount of
$90,000 is hereby entered and ordered against
Hallinan.
10. The money judgments ordered in Paragraphs 5
and 9 of this Order shall run concurrently.
11. The Court finds, by a preponderance of the
evidence, that the Government has established that,
as a result of Hallinan’s acts and omissions, the proceeds that Hallinan obtained from the commission of
the offenses charged in Counts One and Seventeen of
the Superseding Indictment, that is, $64,300,829.90 in

41a
proceeds, and the property involved in the money
laundering offenses charged in Counts Nine through
Seventeen, that is $90,000, cannot be located upon the
exercise of due diligence, and have been commingled
with other property that cannot be subdivided without
difficulty.
12. Therefore, pursuant to 18 U.S.C. § 1963(m) and
21 U.S.C. § 853(p), the Government is entitled to forfeit substitute assets equal to the value of the proceeds
that Defendant Neff obtained as a result of his commission of the offense charged in Counts One and Two
of the Superseding Indictment, that is, $64,300,829.90,
and the property involved in money laundering
charged in Counts Nine through Seventeen of the
Superseding Indictment, that is, $90,000.
13. The United States has identified the following
specific substitute assets in which Hallinan has a
right, title or interest which the Government seeks to
forfeit pursuant to 18 U.S.C. § 1963(m), 21 U.S.C.
§ 853(p), and Federal Rule of Criminal Procedure
32.2(b)(2)(A):
a. All right, title and interest in real property
located at 641 N. Spring Mill Road, Villanova,
Pennsylvania, with all improvements, appurtenances and attachments thereon.
14. Pursuant to 18 U.S.C. § 1963(m) and 21 U.S.C.
§ 853(p)(2), Hallinan’s right, title and interest in the
property identified in Paragraph 13(a) of this Order is
hereby forfeited to the United States.
15. Upon entry of this Order, the United States is
authorized to seize the property identified in Paragraph 12(a) of this Order.

42a
16. The net proceeds from the forfeiture and sale of
the property identified in Paragraph 13(a) of this
Order shall be applied against the $64,300,829.90 and
$90,000 forfeiture money judgments ordered in Paragraphs 5 and 8 of this Order, in partial satisfaction
thereof.
17. Based on the record, the Court finds, beyond a
reasonable doubt, that the following specific property
is property that is an interest in the RICO enterprise,
which Hallinan established, controlled, conducted, or
participated in the conduct of, in violation of 18 U.S.C.
§ 1962, as charged in Counts One and Two of the
Superseding Indictment:
a. All funds in account number 009418321146
in the name of Hallinan Capital Corp., at Bank of
America;
b. All funds in account number 6236347844 in
the name of Hallinan Capital Corp., at Citizens
Bank;
c. All funds in account number 9943232101 in
the name of Hallinan Capital Corp., at Vanguard;
d. All funds in account number 6236347690 in
the name of Apex 1 Lead Generators, at Citizens
Bank;
e. All funds in account number 6236347771 in
the name of Blue Water Funding Group, LLC, at
Citizens Bank;
f. All funds in account number 6236347879 in
the name of Mill Realty Management, LLC, at
Citizens Bank;
g. All funds in account number 88044257268 in
the name of Apex 1 Processing, at Vanguard;

43a
h. All funds in account number 271501789868
in the name of Apex 1 Processing, Inc., d/b/a Cash
Advance Network, at Power Pay, EVO Payments
International;
i. All funds in account number 271501796475
in the name of Apex 1 Processing, Inc., d/b/a
Instant Cash USA, at Power Pay, EVO Payments
International;
j. All funds in account number 271501796327
in the name of Apex 1 Processing, Inc., d/b/a
Paycheck Today, at Power Pay, EVO Payments
International;
k. All funds in account number 27150179590 in
the name of Fifth Avenue Financial, Inc., d/b/a My
Next Paycheck, at Power Pay, EVO Payments
International;
l. All funds in account number 271501796665
in the name of Palmetto Financial, Inc., d/b/a My
Payday Advance, at Power Pay, EVO Payments
International;
m. All funds in account number 271501796707
in the name of Sabal Financial, Inc., d/b/a Your
Fast Payday, at Power Pay, EVO Payments
International;
n. Funds in the amount of $92,587.23 in
account number 623021206, in the name of Charles
Hallinan, at Morgan Stanley;
o. Funds in the amount of $58,461.62 in
account number 009466692476, in the name of
Charles Hallinan, at Bank of America;
p. Funds in the amount of $20,665.75 in
account number 009001408711, in the name of
Charles Hallinan, at Bank of America;

44a
q. Funds in the amount of $100,930.00 in
account number 7101622806, in the name of
Charles M. Hallinan, at Bank of Leumi;
r. Funds in the amount of $211,648.99 in
account number 4300263160, in the name of
Charles Hallinan, at TD Bank;
s. One (1) 2014 Bentley Flying Spur bearing
Vehicle Identification Number SCBEC9ZA7EC092
360;
t. One (1) 2015 Mercedes Benz S550 bearing
Vehicle Identification Number WDDUG8FB3FA1
23337; and
u. One (1) 2015 Mercedes Benz S550V4,
bearing Vehicle Identification Number WDDUG
8FB3FA123322.
18. Therefore, Hallinan’s right, title, and interest in
the property identified in Paragraph 17(a)-(u) of this
Order is hereby forfeited to the United States.
19. Upon entry of this Order, the United States is
authorized to conduct any discovery necessary to identify, locate or dispose of property subject to forfeiture,
in accordance with Federal Rule of Criminal Procedure 32.2(b)(3).
20. The net proceeds from the forfeiture and sale of
the property identified in Paragraphs 13(a) and 17(a)(u) shall be applied against the $64,300,829.90 and
$90,000 forfeiture money judgments, in partial satisfaction thereof.
21. Pursuant to 18 U.S.C. § 1963(1), the United
States shall, upon entry of this Order, post on an
official internet government forfeiture site (http://
www.forfeiture.gov) for at least thirty consecutive
days, notice of the Government’s intent to dispose of

45a
the property identified above in Paragraphs 13(a) and
17(a)-(u) of this Order in such manner as the Attorney
General may direct. This notice shall state that any
person, other than Hallinan, having or claiming a
legal interest in any of the property subject to this
Order must file a petition with the Court within sixty
days after the first day of publication on the official
internet government forfeiture site. This notice shall
state that the petition shall be for a hearing to adjudicate the validity of the petitioner’s alleged interest in
the property, shall be signed by the petitioner under
penalty of perjury, and shall set forth the nature and
extent of the petitioner’s right, title or interest in each
of the forfeited properties and any additional facts
supporting the petitioner’s claim, and the relief
sought.
22. The United States shall also, to the extent
practicable, provide direct written notice to any person
known to have alleged an interest in the property
identified above in Paragraphs 13(a) and 17(a)-(u) of
this Order, or to his or her attorney, if he or she is
represented, as a substitute for published notice as to
those persons so notified. If direct written notice is
provided, any person having or claiming a legal
interest in any of the property subject to this Order
must file a petition with the Court within thirty (30)
days after the notice is received.
23. Any person, other than Hallinan, asserting a
legal interest in the property identified above in Paragraphs 13(a) and 17(a)-(u) of this Order may, within
the time periods described above for notice by publication and for direct written notice, petition the court for
a hearing, without a jury, to adjudicate the validity of
his or her alleged interest in the subject property, and

46a
for an amendment of the order of forfeiture, pursuant
to 18 U.S.C. § 1963(1) and 21 U.S.C. § 853(n).
24. After disposition of any motion filed under
Federal Rule of Criminal Procedure 32.2(c)(1)(A) and
before a hearing on a petition filed under 18 U.S.C.
§ 1963(1) or 21 U.S.C. § 853(n)(2), discovery may be
conducted in accordance with the Federal Rules of
Civil Procedure upon a showing that such discovery is
necessary or desirable to resolve factual issues pursuant to Federal Rule of Criminal Procedure 32.2(c)(1)(B).
25. The Court shall retain jurisdiction to enforce
this Order, and to amend it as necessary, pursuant to
Federal Rule of Criminal Procedure 32.2(b)(2)(C).
26. The Clerk of Court shall deliver a copy of this
Judgment and Final Order of Forfeiture to the Federal
Bureau of Investigation, the United States Marshal,
and counsel for the parties.

47a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
————
CRIMINAL NO. 16-130
————
UNITED STATES OF AMERICA
v.
CHARLES M. HALLINAN
WHEELER K. NEFF
RANDALL P. GINGER
————
DATE FILED:
VIOLATIONS:
18 U.S.C. § 1962(d) (RICO conspiracy – 2 counts)
18 U.S.C. § 371 (conspiracy -1 count)
18 U.S.C. § 1341 (mail fraud – 2 counts)
18 U.S.C. § 1343 (wire fraud – 3 counts)
18 U.S.C. § 1956(a)(2) (money laundering – 9 counts)
18 U.S.C. § 2 (aiding and abetting)
Notices of Forfeiture
————

48a
SUPERSEDING INDICTMENT
COUNT ONE
THE GRAND JURY CHARGES THAT:
At all times relevant to the indictment:
1. Defendant CHARLES M. HALLINAN was a
part-time resident of Villanova, in the Eastern District
of Pennsylvania.
2. Defendant WHEELER K. NEFF was a Delawarelicensed attorney who lived and worked in Wilmington,
Delaware, and whose clients included defendant
CHARLES M. HALLINAN.
3. Co-Conspirator No. 1, a person known to the
grand jury, worked for defendant CHARLES M.
HALLINAN until July 2011.
The Hallinan Payday Loan Companies
4. From at least 1997 until at least 2013, defendant
CHARLES M. HALLINAN owned, operated, controlled,
and financed numerous business entities based in
Bala Cynwyd, in the Eastern District of Pennsylvania,
which issued, serviced, funded, and collected debt
from small, short-term, high-interest loans, commonly
referred to as “payday loans” because they were
supposed to be repaid when the borrower received his
or her next paycheck or regular income payment, such
as a social security check (the “Hallinan Payday Loan
Companies”).
5. Defendant CHARLES M. HALLINAN directed
some of the Hallinan Payday Loan Companies to charge
fees of approximately $30 for every $100 borrowed,
which translated to annual percentage rates of interest of approximately 780 percent, given the short-term
nature of the loans. Defendant HALLINAN also

49a
directed these businesses to roll over any loans that
were not repaid on time and charge additional fees,
which resulted in many borrowers ultimately paying
more money in fees than the entire amounts of their
loans.
6. Among the Hallinan Payday Loan Companies
were the following entities, each of which issued, serviced, and/or collected debt from payday loans:
a. TC Services Corp., d/b/a “Telecash” and “TeleCa$h” and formerly known as “Tele-Ca$h” and
“RAC” (“TC Services”);
b. CRA Services, d/b/a “Cashnet” (“CRA Services”);
c. Main Street Services Corp. d/b/a “Easy Cash”
(“Main Street”);
d. Tahoe Financial Advisors, d/b/a “Axcess Cash”
(“Tahoe”);
e. National Money Service, Inc., a/k/a “NMS, Inc.,”
which did business under multiple trade names
(“NMS”);
f. First East, Inc., d/b/a “Xtra Cash,” d/b/a “Fast
Funding First East,” d/b/a “Payday Loan
Direct” (“First East”);
g. Cheyenne Servicing Corp. (“Cheyenne”);
h. CR Services Corp. (“CR Services”);
i. Apex 1 Processing, Inc., d/b/a “Paycheck Today,”
“Cash Advance Network,” and “Instant Cash
USA” (“Apex 1 Processing”);
j. Cash Advance Network, Inc. (“CANI”);
k. Instant Cash, USA, Inc. (“ICU”);

50a
l. Fifth Avenue Financial, Inc., d/b/a “My Next
Paycheck” (“Fifth Avenue”);
m. Palmetto Financial, Inc., d/b/a “My Payday
Advance” (“Palmetto”);
n. Sabal Financial, Inc., d/b/a “Your Fast Payday”
(“Sabal”);
o. Tribal Lending Enterprises, Division A (“TLEA”);
p. Micro Loan Management, Division A (“MLMA”);
q. Sequoia Tribal Enterprises (“STE”); and
r. Sequoia Tribal Management Services (“STMS”).
7. Also among the Hallinan Payday Loan Companies
were the following entities that provided money for
payday loans and received proceeds from the collection
of debt arising from payday loans:
a. HL Funding, Inc. (“HL Funding”);
b. HL Services, Inc. (“HL Services”);
c. Blue Water Management Services, LLC (“Blue
Water Management”);
d. Blue Water Funding Group (“Blue Water
Funding”);
e. Hallinan Capital Corp. (“HCC”); and
f. Mill Realty Management, LLC (“Mill Realty”).
8. Another Hallinan Payday Loan Company was
Apex 1 Lead Generators, Inc., (“Apex 1 LG”), which
was a lead generation company. Historically, there
have been two types of payday loan businesses:
storefronts and internet companies. With the former,
a customer could walk into a payday loan store, meet

51a
with a sales representative, sign a contract, and walk
out with cash. Many states, however, prohibited storefront payday lending. A person living in such a state
could apply for a payday loan over the internet by
visiting a website operated by a “lead generator,” such
as Apex 1 LG, and providing personal information,
such as his or her name, date of birth, and social
security number. The website operator would then
auction that “lead” to multiple internet payday lenders,
and the highest bidder would win the right to contact
the consumer and enter into a payday loan contract.
The deals would then be finalized over the internet,
and the lender would wire the requested funds into the
borrower’s bank account. From that time on, all the
money would flow in the reverse direction, that is,
from the borrower to the payday lender.
9. Another Hallinan Payday Loan Company was
Clarity Services, Inc. (“Clarity”), which operated as a
credit bureau for customers of the Hallinan Payday
Loan Companies. On many occasions, employees of the
Hallinan Payday Loan Companies would send Clarity
information about a potential customer in order to
determine whether the person was creditworthy enough
to be trusted to pay back the payday loan. Defendant
CHARLES M. HALLINAN owned approximately onethird of the equity of Clarity.
10. Defendant CHARLES M. HALLINAN identified
his Florida residential address as the business address
for many of the Hallinan Payday Loan Companies on
numerous documents filed with federal and state governmental agencies.
11. Defendant WHEELER K. NEFF identified himself as an agent for many of the Hallinan Payday Loan
Companies and identified his business and residential
address as the address for service of process on

52a
numerous documents filed with federal and state
governmental agencies.
Usury Laws and Interest Rate Caps
12. More than a dozen states, including Pennsylvania,
as well as the District of Columbia, effectively prohibited most forms of payday lending (the “Prohibited
Payday Loan States”), as defendants CHARLES
M. HALLINAN and WHEELER K. NEFF knew. For
example, in Pennsylvania, the maximum interest
rate permissible on most personal loans of less than
$50,000 was 6 percent per year. An exception existed
for lenders licensed with the Pennsylvania Department
of Banking, as those lenders could charge up to
approximately 24 percent annual interest on loans of
up to $25,000. On or about October 19, 2010, the
Pennsylvania Supreme Court ruled that those interest
rate limits could be applied against out-of-state lenders,
which made loans over the Internet to borrowers residing in Pennsylvania, even if the lender had no offices
or employees located in Pennsylvania. Pennsylvania
law also defined “criminal usury” as the collection of
interest, fees, and other charges associated with a loan
at a rate in excess of 36 percent per year.
13. Many states permitted some payday lending if
the lenders obtained licenses from the states and complied with regulations that often limited the number
of payday loans that could be made to particular
borrowers and the terms of those payday loans (the
“Regulated Payday Loan States”).
14. Over a time period that exceeded 15 years, the
Hallinan Payday Loan Companies extended payday
loans to hundreds of thousands of customers across
the country, often in violation of the laws of the
Prohibited Payday Loan States and the Regulated

53a
Payday Loan States, and these loans generated
hundreds of millions of dollars in revenues for the
Hallinan Payday Loan Companies.
The “Renting” of County Bank
15. In or around 1997 and 1998, defendant CHARLES
M. HALLINAN and various business partners founded
several of the Hallinan Payday Loan Companies,
including TC Services, NMS, Main Street, Tahoe, CR
Services, and CRA Services. Defendant HALLINAN
and his partners knew that the Hallinan Payday Loan
Companies could not lawfully make payday loans to
customers in all 50 states because of some states’ antiusury laws and other restrictions on payday lending.
However, defendant HALLINAN and his partners also
discussed the notion that federally-insured banks
could “export” the interest rates of the states in which
they were incorporated.
16. Defendant CHARLES M. HALLINAN and his
business partners met with L.S.G., an attorney for
County Bank of Rehoboth, Delaware (“County Bank”),
which was federally insured and licensed in Delaware,
a state which did not restrict payday loans. L.S.G. set
up sham arrangements between County Bank and the
Hallinan Payday Loan Companies, pursuant to which
the bank would act as a front for the payday lender,
and the Hallinan Payday Loan Companies would
claim to only “service” the loans. In actually, the
Hallinan Payday Loan Companies provided nearly all
of the funds for the payday loans, oversaw debt
collection efforts, and received nearly all of the
revenues from the loans.
17. The practice of a payday lender paying a bank
to act as a front for the payday lending enterprise in
order to evade state anti-usury laws was referred to by

54a
payday lending industry insiders as “rent-a-bank.”
From approximately 1997 until approximately 2003,
the Hallinan Payday Loan Companies effectively
“rented” County Bank.
18. In or about September 2003, the Attorney
General for the State of New York filed a lawsuit in
New York state court against County Bank and two of
the Hallinan Payday Loan Companies, TC Services
and CRA Services, which accused them of violating
New York anti-usury laws. The defendants wound up
paying millions of dollars to settle the lawsuit.
19. In or about 2005, federal regulators ordered
County Bank to end all dealings with payday lenders,
including the Hallinan Payday Loan Companies. The
“Renting” of Indian Tribes
20. Starting in or around 2003, defendant CHARLES
M. HALLINAN and other payday lenders devised new
methods to issue payday loans to customers across the
country, including in the Prohibited Payday Lending
States and the Regulated Payday Lending States. One
method was to enter into sham business agreements
with federally-recognized Indian tribes that were
designed to make it appear that the tribes owned the
payday lending entities. That way, whenever a state
tried to enforce its laws against a payday lending
company, the tribe would claim that it owned the
entity and did not have to comply with such laws
because it had “sovereign immunity.”
21. In reality, the Indian tribes had very little
connection to the day-to-day operations of the payday
lending operations. Typically, the tribes did not provide the money advanced for the payday loans, service
the loans, collect on the loans, or incur any losses if the
borrowers defaulted. Those functions were conducted

55a
solely by non-tribal payday lenders, such as defendant
CHARLES M. HALLINAN and the Hallinan Payday
Loan Companies. The tribes’ sole function was to act
as false fronts for the Hallinan Payday Loan Companies
and assert “sovereign immunity” whenever necessary
to evade the laws of the Prohibited Payday Lending
States and the Regulated Payday Lending States.
22. This model was widely characterized throughout the payday lending industry as “rent-a-tribe,”
and it closely resembled the previous “rent-a-bank”
model that the Hallinan Payday Loan Companies had
employed with County Bank. Defendant CHARLES
M. HALLINAN boasted to at least one other person
that the rent-a-tribe model was his idea.
23. Defendant CHARLES M. HALLINAN, aided and
abetted by defendant WHEELER K. NEFF, entered
into multiple partnerships with Indian tribes, pursuant
to which defendant HALLINAN paid the tribes at
least $10,000 a month in return for the tribes’ agreement to claim ownership of various Hallinan Payday
Loan Companies and assert “sovereign immunity”
whenever one of the Prohibited Payday Loan States
or Regulated Payday Loan States, or residents of
those states tried to enforce state laws against those
companies.
24. In or around 2003 and 2004, defendant CHARLES
M. HALLINAN, on behalf of various Hallinan Payday
Loan Companies, executed contracts with representatives of a federally-recognized Indian tribe in Oklahoma
that were designed to enable defendant HALLINAN
and the Hallinan Payday Loan Companies to evade
state anti-usury laws and other restrictions on payday
lending. From approximately 2004 until at least late
2008, defendant HALLINAN paid this Oklahomabased tribe to pretend that it issued payday loans,

56a
which were actually funded, serviced, and collected
upon by various Hallinan Payday Loan Companies.
25. In or around 2008, defendant CHARLES M.
HALLINAN, counseled by defendant WHEELER K.
NEFF, purported to transfer his payday lending operations from the Oklahoma-based tribe to a Canadabased tribe. Defendant HALLINAN executed a series
of sham contracts, which had been drafted by defendant NEFF, with defendant RANDALL P. GINGER,
charged in Counts Three through Seventeen, that
were designed to enable defendant HALLINAN and
the Hallinan Payday Loan Companies to evade state
laws against usury and other restrictions on payday
lending. From approximately 2009 until at least
2013, defendant HALLINAN paid defendant GINGER
thousands of dollars every month to pretend that his
Canada-based tribe issued payday loans, which were
actually funded, serviced, and collected upon by
various Hallinan Payday Loan Companies.
26. In or around 2011, defendant CHARLES M.
HALLINAN, counseled by defendant WHEELER K.
NEFF, purported to transfer most of his payday lending
operations from the Canada-based tribe to a federallyrecognized Indian tribe based in California. Defendant
HALLINAN and representatives of the California
tribe executed a series of sham contracts drafted by
defendant NEFF, which were designed to enable
defendant HALLINAN and the Hallinan Payday Loan
Companies to evade state laws against usury and other
restrictions on payday lending. From approximately
2011 until approximately 2013, Hallinan paid this
California-based tribe to pretend that it issued payday
loans, which were actually funded, serviced, and collected upon by various Hallinan Payday Loan Companies.

57a
27. The Hallinan Payday Loan Companies generated enormous revenues and profits, many of which
came from customers living in the Prohibited Payday
Loan States such as Pennsylvania and the Regulated
Payday Loan States, in violation of the laws of those
states. In particular, from approximately 2007 through
2013, the Hallinan Payday Loan Companies issued
payday loans to hundreds of thousands of customers
across the country, including many who lived in
Prohibited Payday Lending States and the Regulated
Payday Lending States, and collected or authorized
the collection of more than $688 million arising
from those payday loans. Defendant CHARLES M.
HALLINAN netted tens of millions of dollars in profits
from these illegal loans and funneled much of this
money into his personal bank accounts, the bank
accounts of family members, and bank accounts for
other businesses that defendant HALLINAN owned,
operated, and controlled.
THE ENTERPRISE
28. In the Eastern District of Pennsylvania and
elsewhere, defendants
CHARLES M. HALLINAN
and
WHEELER K. NEFF
and other persons and entities known and unknown
by the Grand Jury, including Co-Conspirator No. 1,
and the Hallinan Payday Loan Companies, including
but not limited to TC Services, Main Street, Tahoe,
NMS, First East, Cheyenne, CR Services, CRA Services,
Apex 1 Processing, CANI, ICU, Fifth Avenue, Palmetto,
Sabal, TLE-A, MLM-A, STE, STMS, HL Funding,
HL Services, Blue Water Management, Blue Water
Funding, HCC, Mill Realty, Apex 1 LG, and Clarity,

58a
were members of the Hallinan Payday Lending
Organization, which was an organization engaged in,
and the activities of which affected, interstate and
foreign commerce.
29. The Hallinan Payday Lending Organization
was an “enterprise” as defined in Title 18, United
States Code, Section 1961(4), that is, a group of
individuals and entities associated in fact.
30. The Hallinan Payday Lending Organization
was an organization whose members and associates
derived income through the “collection of unlawful
debt,” as defined in Title 18, United States Code,
Section 1961(6), that is, “a debt (A) . . . which is
unenforceable under State . . . law in whole or in part
as to the principal or interest because of the laws
relating to usury, and (B) which was incurred in
connection with . . . the business of lending money or
a thing of value at a rate usurious under State . . .
law, where the usurious rate is at least twice the
enforceable rate.”
31. The Hallinan Payday Lending Organization
constituted an ongoing organization whose members
and associates functioned as a continuing unit for a
common purpose of achieving the objectives of the
enterprise.
THE PURPOSE OF THE ENTERPRISE
32. It was the purpose of the enterprise to obtain
money for its members and associates through the
collection of unlawful debt, that is, debt which was
unenforceable in many of the states where the
enterprise operated because the debts had arisen from
payday loans that violated usury laws and other
consumer protection statutes and regulations that had

59a
been enacted and promulgated in the states where the
borrowers lived.
33. It was also a purpose of the enterprise to
maintain and expand the profits of the enterprise
through the reinvestment of moneys received from the
collection of unlawful payday loans into the enterprise.
THE RACKETEERING CONSPIRACY
34. From at least 2007 until at least early 2013, in
the Eastern District of Pennsylvania and elsewhere,
defendants
CHARLES M. HALLINAN
and
WHEELER K. NEFF
and other persons known and unknown to the Grand
Jury, including Co-Conspirator No. 1, being persons
employed by and associated with the Hallinan Payday
Lending Organization, an enterprise, which engaged
in, and the activities of which affected, interstate and
foreign commerce, knowingly and intentionally conspired
to violate 18 U.S.C. § 1962(c), that is, to conduct and
participate, directly and indirectly, in the conduct of
the affairs of the Hallinan Payday Lending Organization through the collection of unlawful debt, as that
term is defined by 18 U.S.C. § 1961(6). The collection
of unlawful debt through which the defendants agreed
to conduct and participate, directly and indirectly, in
the conduct of the affairs of the enterprise, consisted
of the collection of debts which were unenforceable
under the laws of the Commonwealth of Pennsylvania
and other States in whole and in part as to principal
and interest and which were incurred in connection
with the business of lending money at a rate usurious
under the laws of the United States, the Commonwealth
of Pennsylvania and other States where the usurious

60a
rate is at least twice the enforceable rate. It was part
of the conspiracy that the defendants agreed that a
conspirator would commit at least one collection of
unlawful debt in the conduct of the affairs of the
enterprise.
MANNER AND MEANS
Apex 1 Processing
It was part of the racketeering conspiracy that:
35. In or around July 2008, defendant CHARLES
M. HALLINAN and Co-Conspirator No. 1 founded
Apex 1 Processing in Florida and registered the
company to do business in Pennsylvania. Defendant
HALLINAN and Co-Conspirator No. 1 intended Apex
1 Processing to issue payday loans to customers
residing in locations throughout the United States of
America, including in states which, as defendant
HALLINAN and Co-Conspirator No. 1 knew, were
Prohibited Payday Loan States and Regulated Payday
Loan States.
36. Defendant CHARLES M. HALLINAN, represented by defendant WHEELER K. NEFF, reached
an agreement with defendant RANDALL P. GINGER,
a person who claimed to be a “hereditary chief’ of
a Canadian tribe, pursuant to which defendant
HALLINAN would pretend to sell Apex 1 Processing
to a company owned by defendant GINGER so that if
any of the Prohibited Payday Lending States or the
Regulated Payday Lending States tried to enforce its
laws against Apex 1 Processing, defendant GINGER
would claim that his tribe owned Apex 1 Processing
and had tribal sovereign immunity. Under their
agreement, defendant HALLINAN promised to pay
approximately $10,000 each month to defendant
GINGER, and defendant GINGER promised to claim

61a
that his tribe owned Apex 1 Processing whenever
necessary to evade state laws and regulations that
applied to payday lending.
37. Defendant WHEELER K. NEFF drafted a series
of contracts purporting to memorialize the sham agreement between defendants CHARLES M. HALLINAN
and RANDALL P. GINGER. One contract was a
Common Stock Purchase Agreement, dated November
2008, which purported to memorialize defendant
HALLINAN’s sale of Apex 1 Processing to an entity
called Aboriginal GR Financial, for $10,000. Defendant
GINGER claimed to be the sole owner of Aboriginal
GR Financial.
38. In or about February 2009, defendant CHARLES
M. HALLINAN caused HL Funding, one of the Hallinan
Payday Loan Companies, to send $10,000 by international wire transfer to a bank account for Aboriginal
GR Financial. Then, in or about March 2009, defendant RANDALL P. GINGER caused Aboriginal GR
Financial to send $10,000 by international wire transfer to a bank account for Apex 1 Processing, which was
controlled by defendant HALLINAN. The effect of
these two payments was that defendant HALLINAN
provided defendant GINGER with the $10,000 that
defendant GINGER supposedly used to buy Apex 1
from defendant HALLINAN.
39. From approximately December 2008 until at
least May 2011, Apex 1 Processing, doing business
under its own name and as “Paycheck Today,” “Instant
Cash USA,” and “Cash Advance Network,” issued,
serviced, and collected debt from payday loans that
were extended to customers living in Pennsylvania
and other jurisdictions where, as defendants CHARLES
M. HALLINAN and WHEELER K. NEFF knew, the
collection of debt from such loans was unlawful.

62a
40. Throughout this time period, Apex 1 Processing
operated out of offices rented by defendant CHARLES
M. HALLINAN in Bala Cynwyd, Pennsylvania.
Defendant HALLINAN also controlled all of the
finances for Apex 1 Processing and oversaw all of the
company’s operations. Defendant HALLINAN also
repeatedly represented to the United States Internal
Revenue Service (“IRS”), other governmental
agencies, and third-party vendors that he was the sole
owner of Apex 1 Processing.
Fifth Avenue, Sabal, and Palmetto
It was further part of the racketeering conspiracy
that:
41. On or about October 26, 2009, defendant
WHEELER K. NEFF incorporated Fifth Avenue,
Sabal, and Palmetto in Delaware. Later in 2009, defendants NEFF and RANDALL P. GINGER represented to
the IRS that defendant GINGER was the sole shareholder of all three companies.
42. In order to gain access to the United States
banking system, however, defendant CHARLES M.
HALLINAN and Co-Conspirator No. 1 repeatedly represented to third parties that defendant HALLINAN
was the president and sole shareholder of Fifth
Avenue, Sabal, and Palmetto, and that the companies
were based in the United States.
43. From at least 2010 until at least 2012, Fifth
Avenue, Sabal, and Palmetto issued, serviced, and
collected debt from payday loans that were extended
to customers living in Pennsylvania and other jurisdictions where, as defendants CHARLES M. HALLINAN
and WHEELER K. NEFF knew, the collection of debt
from such loans was unlawful.

63a
44. Throughout this time period, Fifth Avenue,
Sabal, and Palmetto operated out of offices rented by
defendant CHARLES M. HALLINAN in Bala Cynwyd,
Pennsylvania. Defendant HALLINAN also controlled
all of the finances for Fifth Avenue, Sabal, and Palmetto,
and he oversaw all of the companies’ operations.
TLE, MLM, STE, and STMS
It was further part of the racketeering conspiracy
that:
45. In late 2010 and early 2011, defendant WHEELER
K. NEFF, representing defendant CHARLES M.
HALLINAN, entered into negotiations with representatives of a California-based Indian tribe to establish
new payday lending companies that would appear to
be owned by the tribe but would be financed and
operated almost exclusively by defendant HALLINAN.
46. The California-based tribe passed tribal ordinances creating Tribal Lending Enterprises, Division
A (“TLE-A”), to act as a new payday lending company,
and Micro Loan Management, Division A (“MLM-A”),
to act as a “servicing” company for TLE-A.
47. On or about May 11, 2011, defendant CHARLES
M. HALLINAN and representatives of the Californiabased tribe executed contracts drafted by defendant
WHEELER K. NEFF, which purported to transfer
defendant HALLINAN’s payday lending operations
from defendant RANDALL P. GINGER’s Canadabased tribe to the California-based tribe. Under these
contracts, defendant HALLINAN promised to pay the
California-based tribe at least $20,000 every month
to act as the new front for Hallinan’s Payday Loan
Companies and assert “sovereign immunity” whenever
necessary to evade the laws of the Prohibited Payday

64a
Lending States and the Regulated Payday Lending
States.
48. As part of their sham arrangement with the
California-based tribe, defendants CHARLES M.
HALLINAN and WHEELER K. NEFF sent a computer server to the tribe for installation on tribal lands
but prohibited the tribe from accessing any of the
information on the server about the payday loan
customers or the companies’ operations.
49. From at least July 2011 until at least June 2012,
TLE-A, doing business as “Your Fast Payday,” “My
Payday Advance,” and “My Next Paycheck,” and
MLM-A issued, serviced, and collected debt from
payday loans that were extended to customers living
in Pennsylvania and other jurisdictions where, as
defendants CHARLES M. HALLINAN and WHEELER
K. NEFF knew, the collection of debt from such loans
was unlawful.
50. Throughout this time period, the operations
for TLE-A and MLM-A were conducted out of offices
rented by defendant CHARLES M. HALLINAN
and entities controlled by him in Bala Cynwyd,
Pennsylvania. Defendant HALLINAN also controlled
all of the finances for and operations of TLE-A
and MLM-A, and he oversaw all of the companies’
operations.
51. At some point in 2011, defendant CHARLES M.
HALLINAN and representatives of the Californiabased tribe agreed to change the names of TLE-A
and MLM-A to Sequoia Tribal Enterprises (“STE”)
and Sequoia Tribal Management Services (“STMS”),
respectively.
52. From at least July 2012 until approximately
February 2013, STE, d/b/a “Your Fast Payday,” “My

65a
Payday Advance,” and “My Next Paycheck,” and STMS
issued, serviced, and collected debt from payday loans
that were extended to customers living in Pennsylvania
and other jurisdictions where, as defendants CHARLES
M. HALLINAN and WHEELER K. NEFF knew, the
collection of debt from such loans was unlawful.
53. Throughout this time period, the operations of
STE and STMS were conducted out of offices rented by
defendant CHARLES M. HALLINAN and entities
controlled by him in Bala Cynwyd, Pennsylvania.
Defendant HALLINAN also controlled all of the
finances for STE and STMS, and he oversaw all of the
companies’ operations.
54. In sum, the Hallinan Payday Lending Organization, pretending to act as entities affiliated with
Indian tribes, made payday loans and attempted to
make payday loans to more than a quarter-million
customers located across the country, including in
Prohibited Payday Lending States and Regulated
Payday Lending States, where, as defendants CHARLES
M. HALLINAN and WHEELER K. NEFF knew, the
collection of debt from such loans was unlawful, from
at least 2008 until at least February 2013.
55. The Hallinan Payday Lending Organization
continued to receive residual payments on outstanding
payday loans until at least September 2013.
56. In total, the Hallinan Payday Lending Organization generated more than $490 million in revenues,
from which defendant CHARLES M. HALLINAN
received tens of millions of dollars in profits.
All in violation of Title 18, United States Code,
Section 1962(d).

66a
COUNT TWO
THE GRAND JURY FURTHER CHARGES THAT:
1. Paragraphs 1, 2, 4, 5, 6a, 6b, and 12-14 of Count
One of this indictment are incorporated here.
2. At all times relevant to this indictment, Adrian
Rubin, charged elsewhere, was a resident of Montgomery
County, in the Eastern District of Pennsylvania. In
1997, Rubin pleaded guilty to federal charges of
conspiracy to defraud the United States, tax evasion,
and failing to file currency transfer reports, and was
sentenced to a prison term of one year and one day.
3. Adrian Rubin had two sons, Blake Rubin and
Chase Rubin, both of whom lived in the Eastern
District of Pennsylvania and have been charged
elsewhere with multiple federal crimes.
The “Renting of County Bank”
4. In or about 1998, defendant CHARLES M.
HALLINAN entered into a partnership with Adrian
Rubin and R.M., a person known to the grand jury,
to form a new payday lending company called CRA
Services.
5. Shortly after forming CRA Services, defendant
CHARLES M. HALLINAN and Adrian Rubin bought
out R.M.’s interest in CRA Services.
6. Defendant CHARLES M. HALLINAN knew that
CRA Services could not lawfully make payday loans to
customers in all 50 states because of some states’ antiusury laws and other restrictions on payday lending.
However, defendant HALLINAN also understood that
federally-insured banks could “export” the interest
rates of the states in which they were incorporated.

67a
7. Defendant CHARLES M. HALLINAN and
Adrian Rubin met with L.S.G., an attorney for County
Bank of Rehoboth, Delaware (“County Bank”), which
was federally insured and licensed in Delaware, a
state which did not restrict payday loans. L.S.G. set up
sham arrangements between County Bank and CRA
Services, pursuant to which the bank would act as a
front for CRA Services, and CRA Services would claim
to only “service” the loans. In actually, defendant
HALLINAN and his partners at CRA Services provided nearly all of the funds for the payday loans,
oversaw debt collection efforts, and received nearly all
of the revenues from the loans.
8. The practice of a payday lender paying a bank to
act as a front for the payday lending enterprise in
order to evade state anti-usury laws was referred to by
payday lending industry insiders as “rent-a-bank.”
From approximately 1998 until approximately 2003,
CRA Services effectively “rented” County Bank to
act as a front as CRA Services issued, serviced, and
collected debt from customers across the country,
including in Prohibited Payday Loan States and
Regulated Payday Loan States.
9. In or around early 2000, officials at County Bank
learned of Adrian Rubin’s criminal record and sought
to terminate the bank’s contract with CRA Services
as a result. With the knowledge and approval of
defendant CHARLES M. HALLINAN, Rubin then
pretended to transfer his interest in CRA Services to
J.S., a man known to the grand jury. Once this
cosmetic change occurred, County Bank resumed its
business dealings with CRA Services, even though
bank officials knew that Rubin was still running and
helping to run CRA Services.

68a
10. In or about September 2003, the Attorney General
for the State of New York filed a lawsuit in New York
state court against County Bank, CRA Services and
another Hallinan Payday Loan Company called TC
Services. The lawsuit accused the defendants of
violating New York anti-usury laws. The defendants
wound up paying millions of dollars to settle the
lawsuit.
11. In or about 2005, federal regulators ordered
County Bank to end all dealings with payday lenders,
including the Hallinan Payday Loan Companies.
Defendant Neff Advises Rubin to Relocate to a
“Usury Friendly” State
12. In or around late 2002, defendant CHARLES M.
HALLINAN introduced Adrian Rubin to defendant
WHEELER K. NEFF.
13. Defendant WHEELER K. NEFF advised Adrian
Rubin to relocate his payday lending operations
overseas or to one of three states that defendant
NEFF described as “usury friendly,” which meant that
they permitted payday lenders registered in those
states to issue loans to customers across the county.
Defendant NEFF identified the “usury friendly” states
as Delaware, Utah, and New Mexico. On or about
January 29, 2003, Rubin incorporated a payday lending company in Utah, which he called Global Pay Day
Loan (“Global”), and opened offices in Salt Lake City,
Utah, and Philadelphia, Pennsylvania. To hide his
criminal record, Rubin falsely represented that J.S.
owned Global.
14. From approximately 2004 until approximately
December 2006, Adrian Rubin caused Global to issue,
service, and collect debt from payday loans issued to
customers across the country, including in the Prohibited

69a
Payday Loan States and the Regulated Payday Loan
States.
15. In or around 2006, the Utah Banking Commission investigated Global after receiving numerous
complaints about the company from customers and
from agencies of other states, complaining that Utah
was allowing a business to extend usurious loans to its
residents. As a result, Global went out of business in
or around December 2006.
Rubin’s Payday Lending Without Any Licenses
16. In or around November 2006, Adrian Rubin
incorporated First National Services, LLC (“FNS”) in
Delaware. To avoid problems stemming from his
criminal record, Rubin hid his identity as the owner
and principal of FNS and registered the company
under the name of a close family friend, “V.V.,” a
person known to the grand jury.
17. Beginning in or around 2007, FNS, doing
business as “Payday Loan Yes” and “Fast-Cash.com,”
issued, serviced, and collected debt from payday loans
that had been issued to customers across the country,
including people who lived in the Prohibited Payday
Loan States and the Regulated Payday Loan States.
18. From about 2007 until on or about December 31,
2011, Adrian Rubin operated FNS without any state
or federal license and without any attempt to comply
with the laws of any state where FNS did business.
The “Renting” of Indian Tribes
19. Paragraphs 20 through 22 of Count One of the
Indictment are incorporated here.
20. At some point in the mid-2000s, Adrian Rubin
learned of the “rent-a-tribe” model that defendant
CHARLES M. HALLINAN and other payday lenders

70a
were using to make payday loans to customers in the
Prohibited Payday Loan States and the Regulated
Payday Loan States. Rubin wanted to enter into a
similar arrangement with an Indian tribe, but he did
not have any contacts at any tribes.
21. Adrian Rubin repeatedly asked defendant
CHARLES M. HALLINAN to introduce him to one of
defendant HALLINAN’s tribal contacts, but defendant
HALLINAN repeatedly refused to do so.
22. However, in late 2010 or early 2011, defendant
WHEELER K. NEFF told Adrian Rubin that defendant CHARLES M. HALLINAN was transitioning
from a Canadian tribe to a California tribe and would
introduce Rubin to defendant HALLINAN’s contact at
the California tribe in return for a fee. Defendant
NEFF brokered a deal between Rubin and defendant
HALLINAN, pursuant to which Rubin and his
sons agreed to pay $100,000 in return for defendant
HALLINAN’s agreement to let them “rent” the California
tribe for its “sovereign immunity” defense.
23. Defendant WHEELER K. NEFF then drafted a
series of sham contracts between and among FNS
and two “wholly-owned, unincorporated entities of the
Tribe,” which were called Tribal Business Ventures
(“TBV”) and Tribal Business Management (“TBM”).
From approximately January 1, 2012, through March
31, 2012, TBV pretended to issue payday loans that
were actually funded, serviced, and collected upon by
Adrian Rubin and his two sons, Blake Rubin and
Chase Rubin. Many of the loan customers lived in
Prohibited Payday Loan States and Regulated Payday
Loan States.

71a
THE ENTERPRISE
24. In the Eastern District of Pennsylvania and
elsewhere, defendants
CHARLES M. HALLINAN
and
WHEELER K. NEFF
and other persons known and unknown by the grand
jury, including Adrian Rubin, were members of the
Rubin Payday Lending Organization, which was an
organization engaged in, and the activities of which
affected interstate and foreign commerce.
25. The Rubin Payday Lending Organization was
an “enterprise” as defined in Title 18, United States
Code, Section 1961(4), that is, “a group of individuals
associated in fact.”
26. The Rubin Payday Lending Organization was
an organization whose members and associates derived
income through the “collection of unlawful debt,” as
defined in Title 18, United States Code, Section 1961(6),
that is, “a debt (A) . . . which is unenforceable under
State . . . law in whole or in part as to the principal or
interest because of the laws relating to usury, and (B)
which was incurred in connection with . . . the business
of lending money or a thing of value at a rate usurious
under State . . . law, where the usurious rate is at least
twice the enforceable rate.”
27. The Rubin Payday Lending Organization constituted an ongoing organization whose members and
associates functioned as a continuing unit for a common
purpose of achieving the objectives of the enterprise.
THE PURPOSE OF THE ENTERPRISE
28. It was the purpose of the enterprise to obtain
money for its members and associates through the

72a
collection of unlawful debt, that is, debt which was
unenforceable in many of the states where the enterprise operated because the debts had arisen from
payday loans that violated usury laws and other consumer protection statutes and regulations that had
been enacted and promulgated in the states where the
borrowers lived.
29. It was also a purpose of the enterprise to maintain and expand the profits of the enterprise through
the reinvestment of moneys received from the collection
of unlawful payday loans into the enterprise.
THE RACKETEERING CONSPIRACY
30. From at least November 2011 until at least
March 2012, in the Eastern District of Pennsylvania
and elsewhere, defendants
CHARLES M. HALLINAN
and
WHEELER K. NEFF
and other persons known and unknown by the grand
jury, including Adrian Rubin, being persons employed
by and associated with the Rubin Payday Lending
Organization, an enterprise, which engaged in, and
the activities of which affected, interstate and foreign
commerce, knowingly and intentionally conspired to
violate 18 U.S.C. § 1962(c), that is, to conduct and
participate, directly and indirectly, in the conduct of
the affairs of the Rubin Payday Lending Organization
through the collection of unlawful debt, as that term is
defined by 18 U.S.C. § 1961(6). The collection of
unlawful debt through which the defendants agreed to
conduct and participate, directly and indirectly, in the
conduct of the affairs of the enterprise, consisted of the
collection of unlawful debt, that is, debts which were
unenforceable under the laws of the Commonwealth of

73a
Pennsylvania and other States in whole and in part as
to principal and interest and which were incurred in
connection with the business of lending money at a
rate usurious under the laws of the United States, the
Commonwealth of Pennsylvania and other States
where the usurious rate is at least twice the
enforceable rate. It was part of the conspiracy that the
defendant agreed that a conspirator would commit at
least one collection of unlawful debt in the conduct of
the affairs of the enterprise.
MANNER AND MEANS
It was part of the racketeering conspiracy that:
31. In late 2010 or early 2011, defendant WHEELER
K. NEFF brokered a deal between Adrian Rubin
and defendant CHARLES M. HALLINAN pursuant
to which Rubin would pay $100,000 to defendant
HALLINAN for permission to “rent” the same
California-based tribe that defendant HALLINAN
was “renting” to cloak the Hallinan Payday Loan
Companies with a sham sovereign immunity defense
to state lawsuits.
32. Defendant WHEELER K. NEFF drafted a series
of contracts between and among FNS, TBV, and
TBM. Some of the contracts purported to effectuate a
transfer of FNS’s entire loan portfolio and lending
infrastructure to the California tribe and its affiliated
entities. Other contracts, however, undermined that
supposed transfer, and collectively, the agreements,
most of which were dated November 10, 2011, had the
effect of nullifying each other. While some documents
gave the appearance that FNS was selling its entire
payday lending operation to the Tribe, others made it
clear that FNS was providing all the funds for the
loans, providing all the employees to service the loans,

74a
and incurring all of the risks of defaulting on the loans.
The only role of the Tribe, through TBV and TBM, was
to give the appearance that it owned and operated the
payday lending organization and assert “sovereign
immunity” if anyone complained that the loans
violated state laws.
33. In return for this service, FNS agreed to pay the
Tribe, through its affiliates, a monthly commission
equal to $20,000 or 1 percent of gross revenues minus
bad debt, whichever was greater. FNS also agreed to
indemnify the Tribe for any legal expenses it incurred
in connection with the business.
34. Adrian Rubin’s name did not appear on any of
these documents. Instead, to hide Rubin’s involvement
in the transactions, defendant WHEELER K. NEFF
listed V.V. as the principal of FNS.
35. Adrian Rubin signed V.V.’s name on behalf of
FNS on many of the contracts.
36. M.D., the Chief Executive Officer of an affiliate
of the California tribe, signed most of the contracts on
behalf of TBV and TBM. M.D. knew or was willfully
blind to the fact that V.V. was not really the principal
of FNS.
37. On or about January 3, 2012, the Rubin Payday
Lending Organization began making payday loans as
TBV. In fact, the Rubin Payday Lending Organization
actually set up three different divisions of TBV:
one run by Adrian Rubin and others run by his two
sons, Blake Rubin and Chase Rubin, both charged
elsewhere.
38. Between December 30, 2011, and January 10,
2012, Adrian Rubin paid and caused others to pay
three checks with a total value of $100,000 to

75a
defendant CHARLES M. HALLINAN, as payment
for defendant HALLINAN’s arrangement of the
deal between the Rubin Payday Lending Organization
and the Tribe. Rubin fraudulently signed one of the
checks, for $70,000, as “V.V.” on behalf of FNS. Blake
Rubin and Chase Rubin made out separate checks, for
$15,000 each, to a company controlled by defendant
HALLINAN.
39. The Rubin Payday Lending Organization, purporting to act as TBV, made payday loans and
attempted to make payday loans to customers located
across the country, including in Prohibited Payday
Loan States and Regulated Payday Loan States until
about March 2012, when Adrian Rubin learned he was
under a federal criminal investigation.
40. The Rubin Payday Lending Organization continued to receive residual payments on outstanding
payday loans for several additional months after
March 2012.
41. In total, the Rubin Payday Lending Organization,
purporting to act as TBV, collected more than $2
million in unlawful debt in 2012. All in violation of
Title 18, United States Code, Section 1962(d).

76a
COUNT THREE
THE GRAND JURY FURTHER CHARGES THAT:
1. Paragraphs 1, 2, and 4 through 27 of Count One
of this indictment are incorporated here.
2. Defendant RANDALL P. GINGER identified
himself as a “hereditary chief” of an Indian tribe based
in British Columbia, Canada.
3. On or about July 15, 2008, defendant CHARLES
M. HALLINAN incorporated Apex 1 Processing, Inc.
(“Apex 1 Processing”) in Florida. From the beginning,
defendant HALLINAN held himself out as the owner
and principal of Apex 1 Processing. For example:
a. The articles of incorporation for Apex 1
Processing listed defendant HALLINAN’s residential address in Florida as the company’s principal
office and mailing address;
b. On July 24, 2008, defendant HALLINAN’s
chief financial officer, G.G., directed an accountant
to add Apex 1 Processing to the list of companies
owned by defendant HALLINAN for which it should
prepare annual tax returns to be sent to the IRS;
c. On July 29, 2008, when Apex 1 applied to the
City of Philadelphia for a Philadelphia Business Tax
Account Number, defendant HALLINAN was identified as the “sole proprietor” of Apex 1 Processing,
and his Florida residence was listed as Apex 1
Processing’s business address;
d. On December 2, 2008, when Apex 1 Processing
applied to do business with Intercept EFT, a payment processing company, defendant HALLINAN
signed multiple application forms as the president
and 100% owner of Apex 1 Processing, and he gave

77a
his Florida address as the business address for Apex
1 Processing;
e. On January 19, 2009, and January 11, 2010,
when annual reports for Apex 1 Processing were
filed with the Florida Secretary of State’s Office,
Hallinan’s Florida residence was again listed as
the company’s business address, and defendant
HALLINAN was the only director identified for
Apex 1;
f. On May 21, 2012, Apex 1 Processing, represented by defendant WHEELER K. NEFF, filed a
“2012 For Profit Corporation Reinstatement” form
with the Florida Secretary of State’s Office, and the
form indicated that the company’s business address
had changed from defendant HALLINAN’s Florida
residence to defendant HALLINAN’s offices in Bala
Cynwyd; and
g. Defendant HALLINAN repeatedly represented
to the IRS that he was the sole owner of Apex 1
Processing on both his personal tax returns and the
corporate tax returns for Apex 1 Processing, which
he filed and directed his accountants to file for tax
years 2008 through 2012.
4. In or about November 2008, defendant CHARLES
M. HALLINAN, with the help of defendant WHEELER
K. NEFF, pretended to sell Apex 1 Processing to an
entity owned by defendant RANDALL P. GINGER, so
that if any state tried to enforce its laws against Apex
1 Processing, all the defendants could claim that Apex
1 Processing was a tribal-owned entity that had
sovereign immunity to those state laws.
5. As part of their agreement, defendant CHARLES
M. HALLINAN promised to pay approximately $10,000
each month to defendant RANDALL P. GINGER, and

78a
defendant GINGER promised to claim that his tribe
owned Apex 1 Processing whenever necessary to evade
state laws and regulations that applied to payday lending.
6. Defendant WHEELER K. NEFF drafted a series
of contracts executed by defendants CHARLES M.
HALLINAN and RANDALL P. GINGER. One contract
was a Common Stock Purchase Agreement, dated
November 2008, which purported to memorialize
defendant HALLINAN’s sale of Apex 1 Processing to
an entity called Aboriginal GR Financial, which
defendant GINGER claimed to own, for $10,000.
7. A few months after signing this Common
Stock Purchase Agreement, defendant CHARLES M.
HALLINAN caused one of the Hallinan Payday Loan
Companies to send $10,000 by international wire
transfer to a bank account for Aboriginal GR Financial,
which defendant RANDALL P. GINGER then caused
to be wired into a bank account for Apex 1 Processing,
which was controlled by defendant HALLINAN. In
other words, defendant HALLINAN provided the
$10,000 that defendant GINGER supposedly paid to
defendant HALLINAN as the purchase price for
Aboriginal GR Financial.
8. From approximately December 2008 until at
least May 2011, Apex 1 Processing, doing business as
“Paycheck Today,” “Instant Cash USA,” and “Cash
Advance Network,” issued, serviced, and collected debt
from payday loans that were extended to customers
living in Pennsylvania and other jurisdictions
where, as defendants CHARLES M. HALLINAN and
WHEELER K. NEFF knew, the collection of debt from
such loans was unlawful.
9. Throughout this time period, Apex 1 Processing
operated out of offices rented by defendant CHARLES

79a
M. HALLINAN in Bala Cynwyd, Pennsylvania. Defendant HALLINAN also controlled all of the finances for
Apex 1 Processing and oversaw all of the company’s
operations.
10. Consistent with their agreement, defendant
CHARLES M. HALLINAN caused at least $10,000 to
be sent by international wire transfer each month
from a bank account for one of the Hallinan Payday
Loan Companies to a bank account controlled by
defendant RANDALL P. GINGER. These $10,000
monthly payments began in or about November 2008
and continued until in or about February 2013.
11. In or about March 2013, the size of the monthly
payments from defendant CHARLES M. HALLINAN
to defendant RANDALL P. GINGER shrank from
$10,000 to $5,000. By March 2013, defendant HALLINAN
had transferred most of his payday lending activity
from defendant GINGER’s tribe to a California-based
tribe. Defendant HALLINAN made $5,000 payments
to defendant GINGER every month from March 2013
through August 2013.
12. On March 23, 2010, a class action lawsuit was
filed in Indiana state court against Apex 1 Processing,
Inc., d/b/a Paycheck Today a/k/a Paychecktoday.com
(the “Indiana Lawsuit”). The Indiana Lawsuit alleged
that Apex 1 Processing had violated the Indiana
Consumer Credit Code’s Small Loans Act and the
Indiana Deceptive Consumer Sales Act by issuing
payday loans with outrageous finance charges to
Indiana residents.
13. For approximately the next three years,
defendant CHARLES M. HALLINAN paid and caused
the Hallinan Payday Loan Companies to pay a

80a
Pennsylvania law firm, “W&P,” to defend Apex 1
Processing in the Indiana Lawsuit.
14. During that time, Apex 1 Processing informed
the plaintiffs’ lawyers, through a sworn statement by
G.G., that approximately 1,393 Indiana residents had
obtained payday loans from Apex 1 Processing, d/b/a
Paycheck Today.
15. On or about May 8, 2013, the Indiana trial court
certified a class of 1,393 plaintiffs in the Indiana
Lawsuit (the “Indiana Plaintiffs”). Shortly thereafter,
an attorney from W&P, known to the grand jury,
informed defendants CHARLES M. HALLINAN and
WHEELER K. NEFF that she would have to start
providing civil discovery to the attorneys for the
Indiana Plaintiffs. Defendants HALLINAN and NEFF
told this attorney not to provide any discovery and
instead to let the Indiana Plaintiffs obtain a default
judgment against Apex 1 Processing and then try to
collect on that judgment against defendant RANDALL
P. GINGER. The attorney told defendants HALLINAN
and NEFF that she would not follow that instruction
because it would violate her professional obligations as
an attorney. Defendants HALLINAN and NEFF
decided to terminate this attorney’s employment as
counsel for Apex 1 Processing.
16. In or about July 2013, defendant WHEELER K.
NEFF warned defendant CHARLES M. HALLINAN
that the Indiana Lawsuit was “potentially dangerous”
to him, and that if the Indiana Plaintiffs prevailed,
defendant HALLINAN could face personal exposure of
up to $10 million, especially if the Indiana Plaintiffs
could establish that defendant HALLINAN had not
actually sold Apex 1 Processing to defendant RANDALL
P. GINGER.

81a
17. From at least May 2013 until at least April
2014, defendants
CHARLES M. HALLINAN,
WHEELER K. NEFF, and
RANDALL P. GINGER
conspired and agreed with each other and other
persons, known and unknown to the grand jury, to
commit offenses against the United States, that is:
(a) the intentional devising and executing of a scheme
to defraud the Indiana Plaintiffs out of money
and property, involving the United States mails, in
violation of Title 18, United States Code, Section 1341;
(b) the intentional devising and executing of a scheme
to defraud the Indiana Plaintiffs out of money and
property, involving interstate wires, in violation of
Title 18, United States Code, Section 1343; and (c) the
international transportation, transmittal, and transfer
of monetary instruments and funds with the intent to
promote mail fraud and wire fraud, in violation of Title
18, United States Code, Section 1956(a)(2)(A).
MANNER AND MEANS
It was part of the conspiracy that:
18. In or about July 2013, defendants CHARLES M.
HALLINAN and WHEELER K. NEFF, and RANDALL
P. GINGER conspired and agreed to deceive the
Indiana Plaintiffs into believing that Apex 1 Processing
was effectively judgment proof so they should accept
a discounted settlement offer on their claims in
the Indiana Lawsuit. More specifically, defendants
HALLINAN and NEFF conspired and agreed to
defraud the Indiana Plaintiffs into believing that
defendant GINGER was the sole owner of Apex 1
Processing; that defendant GINGER was a Canadian
Indian chief who lived on tribal lands in Canada; and

82a
that Apex 1 Processing had few if any assets that could
be recovered if the Indiana Plaintiffs prevailed in their
lawsuit. The defendants also conspired and agreed to
hide the fact that defendant HALLINAN exercised
managerial control over Apex 1 Processing after
being advised by an attorney from W&P, known to the
grand jury, that if the plaintiffs knew of defendant
HALLINAN’s control over Apex 1 Processing, they
might want to add him as a defendant in the Indiana
Lawsuit and try to collect a judgment directly from
defendant HALLINAN.
19. In or about July 2013, defendant CHARLES M.
HALLINAN offered to pay defendant RANDALL P.
GINGER approximately $10,000 a month if defendant
GINGER would claim that he was the sole owner of
Apex 1 Processing and hire a Canadian lawyer to
terminate W&P’s employment as counsel for Apex 1
Processing in the Indiana Lawsuit and to inform the
Indiana Plaintiffs’ lawyers that defendant GINGER
was the 100 percent owner of Apex 1 Processing,
through Aboriginal GR Financial. Defendant GINGER
accepted defendant HALLINAN’s offer.
20. In or about July 2013, defendant RANDALL P.
GINGER purported to hire R.B., a Canadian attorney
known to the grand jury, on behalf of Apex 1
Processing. R.B. then purported to fire W&P as
counsel for Apex 1 Processing in the Indiana lawsuit.
W&P then withdrew as counsel for Apex 1 Processing
in the Indiana Lawsuit.
21. On or about September 24, 2013, R.B. contacted
the attorneys for the Indiana Plaintiffs and stated:
that he represented defendant RANDALL P. GINGER,
whom R.B. identified as a hereditary chief of a
Canadian Indian tribe; that defendant GINGER was
the owner and principal of Aboriginal GR Financial,

83a
which in turn owned Apex 1 Processing; that Apex 1
Processing was not operational and had not done
business for several years; and that Apex 1 Processing
had few, if any, assets.
22. Additionally, on or about August 2, 2013, acting
on the advice of defendant WHEELER K. NEFF,
defendant RANDALL P. GINGER sent emails to
W&P, defendant CHARLES M. HALLINAN, and M.K.,
a top employee of Apex 1 Processing known to the
grand jury, purporting to terminate their employment
at Apex 1 Processing.
23. In return for defendant RANDALL P. GINGER’s
actions, defendant CHARLES M. HALLINAN caused
one of the Hallinan Payday Loan Companies to pay
$10,000 by international wire transfer to a bank
account in Canada controlled by defendant RANDALL
P. GINGER in August 2013. This $10,000 payment
was in addition to the $5,000 payment that defendant
HALLINAN already had paid to defendant GINGER
in August 2013.
24. Additionally, in each month from September 2013
through at least April 2014, defendant CHARLES M.
HALLINAN caused $15,000 to be sent each month by
international wire transfer to a bank account in Canada
controlled by defendant RANDALL P. GINGER or a
woman that defendant GINGER identified as his wife.
25. Throughout this time period, defendant CHARLES
M. HALLINAN continued to pay or caused one of the
Hallinan Payday Loan Companies to pay all of the
legal bills for Apex 1 Processing in its defense of the
Indiana Lawsuit. Some of those legal bills had been
generated by K.D., an attorney known to the grand
jury who worked for “TCLO” in Philadelphia. K.D. sent
some of the invoices for his legal services to defendant

84a
HALLINAN and other invoices to the offices of R.B. in
Canada, but defendant HALLINAN paid all the bills.
26. In or about February 2014, defendant CHARLES
M. HALLINAN knowingly and intentionally gave
false sworn testimony at a deposition in the Indiana
Lawsuit in order to further convince the Indiana
Plaintiffs that Apex 1 Processing was effectively
judgment proof and to hide his personal involvement
in Apex 1 Processing.
27. In or about April 2014, lawyers for the Indiana
Plaintiffs agreed to settle their claims against Apex 1
Processing in the Indiana Lawsuit for approximately
$260,000. The lawyers for the Indiana Plaintiffs had
valued their clients’ cause of action at greater than
$2.6 million, but they agreed to accept a discounted
settlement offer because they had been convinced by
defendants CHARLES M. HALLINAN, WHEELER K.
NEFF, and RANDALL P. GINGER, and other persons
known to the grand jury that it would be nearly
impossible to collect on a full judgment against Apex 1
Processing.
28. Although defendant RANDALL P. GINGER
claimed to be the owner of Apex 1 Processing,
defendant CHARLES M. HALLINAN caused one of
the Hallinan Payday Loan Companies, which he had
funded, to pay the entirety of the $260,000 settlement
payment to the Indiana Plaintiffs.
OVERT ACTS
In furtherance of the conspiracy and to accomplish
its objects, defendants CHARLES M. HALLINAN,
WHEELER K. NEFF, and RANDALL P. GINGER,
and others, known and unknown to the grand jury,
committed the following overt acts, among others, in
the Eastern District of Pennsylvania and elsewhere.

85a
1 . On or about July 12, 2013, defendant WHEELER
K. NEFF sent an email from Delaware to defendant
CHARLES M. HALLINAN in Pennsylvania, in which
defendant NEFF advised defendant HALLINAN to:
(a) contact his accountant for the purpose of submitting “corrected” tax returns to the IRS, which would
indicate that Apex 1 Processing was owned by defendant RANDALL P. GINGER instead of defendant
HALLINAN; and (b) “retroactively” transfer all business activity from Apex 1 Processing to one of the other
Hallinan Payday Loan Companies in order to make it
appear like Apex 1 Processing had very few assets
with which it would be able to pay a settlement or
judgment in the Indiana Lawsuit.
2. On or about July 16, 2013, defendant CHARLES
M. HALLINAN forwarded the email he had received
from defendant WHEELER K. NEFF on July 12, 2013,
from Pennsylvania to defendant HALLINAN’s accountant in Colorado and directed the accountant’s attention
to defendant NEFF’s advice about submitting amended
tax returns to the IRS.
3. On or about July 22, 2013, defendant RANDALL
P. GINGER caused R.B. to transmit a letter through
the United States mails to an attorney at W&P, in
which R.B. stated that he represented defendant
GINGER; that defendant GINGER indirectly owned
Apex 1 Processing; and that Apex 1 Processing was
terminating W&P’s representation of the company in
the Indiana Lawsuit.
4. On or about August 2, 2013, defendant WHEELER
K. NEFF transmitted an email from Delaware to
defendant RANDALL P. GINGER in Canada in which
defendant NEFF advised defendant GINGER to send
emails to an attorney at W&P, defendant HALLINAN,

86a
and M.K., purporting to terminate each person’s
employment by Apex 1 Processing.
5. On or about August 9, 2013, defendant CHARLES
M. HALLINAN caused $10,000 to be transmitted by
international wire from a bank account for a Hallinan
Payday Loan Company in the United States to a bank
account for Aboriginal GR Financial in Canada, which
was controlled by defendant RANDALL P. GINGER.
6. On or about September 11, 2013, defendant
CHARLES M. HALLINAN caused $15,000 to be
transmitted by international wire from a bank account
for a Hallinan Payday Loan Company in the United
States to a bank account for Aboriginal GR Financial
in Canada, which was controlled by defendant
RANDALL P. GINGER. This wire transfer included
approximately $10,000 that defendant HALLINAN
had promised to pay to defendant GINGER in return
for defendant GINGER’S agreement to claim ownership of Apex 1 Processing in the Indiana Lawsuit.
7. On or about September 24, 2013, defendant
RANDALL P. GINGER caused R.B. to transmit a
letter through the United States mails to an attorney
for the Indiana Plaintiffs, in which R.B. stated that
he represented defendant GINGER; that defendant
GINGER was the owner and principal of Aboriginal
GR Financial, which in turn owned Apex 1 Processing;
that Apex 1 Processing was not operational and had
not done business for several years; and that Apex 1
Processing had few, if any, assets.
8. On or about October 1, 2013, defendant CHARLES
M. HALLINAN caused $15,000 to be transmitted by
international wire from a bank account for a Hallinan
Payday Loan Company in the United States to a bank
account for Aboriginal GR Financial in Canada, which

87a
was controlled by defendant RANDALL P. GINGER.
This wire transfer included approximately $10,000
that defendant HALLINAN had promised to pay to
defendant GINGER in return for defendant GINGER’s
agreement to claim ownership of Apex 1 Processing in
the Indiana Lawsuit.
9. On or about November 1, 2013, defendant
CHARLES M. HALLINAN caused $15,000 to be
transmitted by international wire from a bank account
for a Hallinan Payday Loan Company in the United
States to a bank account in Canada, which was
controlled by the wife of defendant RANDALL P.
GINGER. This wire transfer included approximately
$10,000 that defendant HALLINAN had promised to
pay to defendant GINGER in return for defendant
GINGER’s agreement to claim ownership of Apex 1
Processing in the Indiana Lawsuit.
10. On or about December 2, 2013, defendant
CHARLES M. HALLINAN caused $15,000 to be
transmitted by international wire from a bank account
in the United States to a bank account in Canada,
which was controlled by the wife of defendant
RANDALL P. GINGER. This wire transfer included
approximately $10,000 that defendant HALLINAN
had promised to pay to defendant GINGER in return
for defendant GINGER’s agreement to claim ownership of Apex 1 Processing in the Indiana Lawsuit.
11. On or about January 2, 2014, defendant CHARLES
M. HALLINAN caused $15,000 to be transmitted by
international wire from a bank account in the United
States to a bank account in Canada, which was
controlled by the wife of defendant RANDALL P.
GINGER. This wire transfer included approximately
$10,000 that defendant HALLINAN had promised to
pay to defendant GINGER in return for defendant

88a
GINGER’s agreement to claim ownership of Apex 1
Processing in the Indiana Lawsuit.
12. On or about February 3, 2014, defendant
CHARLES M. HALLINAN caused $15,000 to be
transmitted by international wire from a bank account
in the United States to a bank account in Canada,
which was controlled by the wife of defendant RANDALL
P. GINGER. This wire transfer included approximately $10,000 that defendant HALLINAN had
promised to pay to defendant GINGER in return for
defendant GINGER’s agreement to claim ownership of
Apex 1 Processing in the Indiana Lawsuit.
13. On or about March 3, 2014, defendant CHARLES
M. HALLINAN caused $15,000 to be transmitted by
international wire from a bank account in the United
States to a bank account in Canada, which was controlled by the wife of defendant RANDALL P.
GINGER. This wire transfer included approximately
$10,000 that defendant HALLINAN had promised to
pay to defendant GINGER in return for defendant
GINGER’s agreement to claim ownership of Apex 1
Processing in the Indiana Lawsuit.
14. On or about April 2, 2014, defendant CHARLES
M. HALLINAN caused $15,000 to be transmitted by
international wire from a bank account in the United
States to a bank account in Canada, which was
controlled by the wife of defendant RANDALL P.
GINGER. This wire transfer included approximately
$10,000 that defendant HALLINAN had promised to
pay to defendant GINGER in return for defendant
GINGER’s agreement to claim ownership of Apex 1
Processing in the Indiana Lawsuit.
All in violation of Title 18, United States Code,
Section 371.

89a
COUNTS FOUR AND FIVE
THE GRAND JURY FURTHER CHARGES THAT
1. Paragraphs 1-16 of Count
Indictment are re-alleged here.

Three

of

this

2. From at least July 2013 until at least April 2014,
in the Eastern District of Pennsylvania and elsewhere,
defendants
CHARLES M. HALLINAN,
WHEELER K. NEFF, and
RANDALL P. GINGER
devised and intended to devise and aided and abetted
the devising of a scheme to defraud the Indiana
Plaintiffs out of a cause of action that the defendants
believed could be worth as much as $10 million, and to
obtain money and property by means of false and
fraudulent pretenses, representations and promises.
MANNER AND MEANS
It was part of the scheme that:
3. Defendants
CHARLES
M.
HALLINAN,
WHEELER K. NEFF, and RANDALL P. GINGER
engaged in the manner and means described in paragraphs 18 through 28 of Count Three of this Indictment.
4. On or about each of the dates set forth below, in
the Eastern District of Pennsylvania and elsewhere,
defendants
CHARLES M. HALLINAN,
WHEELER K. NEFF, and
RANDALL P. GINGER
for the purpose of executing the scheme described
above, and aiding and abetting its execution, knowingly
caused to be transmitted by United States mail and

90a
private and commercial carriers the following documents, each mailing constituting a separate count:
COUNT

DATE

DESCRIPTION

4

July 22, 2013

A letter from R.B., an attorney in
Canada, to an attorney for W&P in
Philadelphia, Pennsylvania.

5

September 24,
2013

A letter from R.B., an attorney in
Canada, to an attorney for the
Indiana Plaintiffs in Indiana.

All in violation of Title 18, United States Code,
Sections 1341 and 2.

91a
COUNTS SIX, SEVEN, AND EIGHT
THE GRAND JURY FURTHER CHARGES THAT
1. Paragraphs 1-16 of Count Three of this Indictment
are re-alleged here.
2. From at least July 2013 until at least April 2014,
in the Eastern District of Pennsylvania and elsewhere,
defendants
CHARLES M. HALLINAN,
WHEELER K. NEFF, and
RANDALL P. GINGER
devised and intended to devise and aided and abetted
the devising of a scheme to defraud the Indiana
Plaintiffs out of a cause of action that the defendants
believed could be worth as much as $10 million, and to
obtain money and property by means of false and
fraudulent pretenses, representations and promises.
MANNER AND MEANS
It was part of the scheme that:
3. Defendants
CHARLES
M.
HALLINAN,
WHEELER K. NEFF, and RANDALL P. GINGER
engaged in the manner and means described in paragraphs 18 through 28 of Count Three of this Indictment.
4. On or about each of the dates set forth below, in
the Eastern District of Pennsylvania and elsewhere,
defendants
CHARLES M. HALLINAN,
WHEELER K. NEFF, and
RANDALL P. GINGER
for the purpose of executing the scheme described
above, and aiding and abetting its execution, knowingly caused to be transmitted by means of wire

92a
communication in interstate commerce the signals
and sounds described below for each count, each
transmission constituting a separate count:
COUNT DATE

DESCRIPTION

6

July 12, 2013

An email from defendant WHEELER
K. NEFF in Delaware to defendant
CHARLES M. HALLINAN in
Pennsylvania

7

July 16, 2013

An email from defendant CHARLES
M. HALLINAN in Pennsylvania to
an accountant in Colorado.

8

August 2, 2013

An email from defendant WHEELER
K. NEFF in Delaware to defendant
RANDALL P. GINGER in Canada.

All in violation of Title 18, United States Code,
Sections 1343 and 2.

93a
COUNTS NINE THROUGH SEVENTEEN THE
GRAND JURY FURTHER CHARGES THAT:
1. Paragraphs 1 through 16 and 18 through 28 of
Count Three of this indictment are incorporated here.
2. On or about the dates set forth in the chart below,
in Bala Cynwyd, in the Eastern District of Pennsylvania,
Wilmington, Delaware, Canada, and elsewhere,
defendants
CHARLES M. HALLINAN
and
RANDALL P. GINGER
knowingly transmitted and transferred, and aided and
abetted and willfully caused, the transmission and
transferring of, a monetary instrument and funds,
from a place in the United States to a place outside
the United States, that is, Canada, with the intent to
promote the carrying on of a specified unlawful
activity, that is, the intentional devising and executing
of a scheme to defraud the Indiana Plaintiffs out of
money and property, involving the United States
mails, in violation of Title 18, United States Code,
Section 1341, and the intentional devising and executing of a scheme to defraud the Indiana Plaintiffs out of
money and property, involving interstate wires, in
violation of Title 18, United States Code, Section 1343:
COUNT DATE

DESCRIPTION
TRANSFER

OF

WIRE

9

August 9, 2013

$10,000 from Pennsylvania to
Canada

10

September 11, 2013

$10,000 from Pennsylvania to
Canada

11

October 1, 2013

$10,000 from Pennsylvania to
Canada

94a
12

November 1, 2013

$10,000 from Pennsylvania to
Canada

13

December 2, 2013

$10,000 from Pennsylvania to
Canada, via Delaware

14

January 2, 2014

$10,000 from Pennsylvania to
Canada, via Delaware

15

February 3, 2014

$10,000 from Pennsylvania to
Canada, via Delaware

16

March 3, 2014

$10,000 from Pennsylvania to
Canada, via Delaware

17

April 2, 2014

$10,000 from Pennsylvania to
Canada, via Delaware

All in violation of Title 18, United States Code,
Sections 1956(a)(2)(A) and 2.

95a
NOTICE OF FORFEITURE NO. 1
(RACKETEERING FORFEITURE, COUNT ONE)
1. The allegations contained in Count One of this
Indictment are hereby repeated, realleged, and incorporated by reference herein as though fully set forth
at length for the purpose of alleging forfeiture pursuant to the provisions of Title 18, United States Code,
Section 1963 and Title 28, United States Code, Section
2461(c). Pursuant to Rule 32.2, Fed. R. Crim. P., notice
is hereby given to the defendants that the United
States will seek forfeiture as part of any sentence in
accordance with Title 18, United States Code, Section
1963 in the event of any defendant’s conviction under
Count One of this Indictment.
2. The defendants,
CHARLES M. HALLINAN
And
WHEELER K. NEFF
i. have acquired and maintained interests in
violation of Title 18, United States Code, Section
1962, which interests are subject to forfeiture to the
United States pursuant to Title 18, United States
Code, Section 1963(a)(1);
ii. have an interest in, security of claims against,
and property and contractual rights which afford a
source of influence over, the enterprise named and
described herein which the defendants established,
operated, controlled, conducted, and participated in
the conduct of, in violation of Title 18, United States
Code, Section 1962, which interests, securities,
claims, and rights are subject to forfeiture to the
United States pursuant to Title 18, United States
Code, Section 1963 (a)(2);

96a
iii. have property constituting and derived from
proceeds obtained, directly and indirectly, from
racketeering activity, in violation of Title 18, United
States Code, Section 1962, which property is subject
to forfeiture to the United States pursuant to Title
18, United States Code, Section 1963(a)(3).
3. The interest of the defendants subject to forfeiture to the United States pursuant to Title 18, United
States Code, Section 1963(a)(1), (a)(2), and (a)(3), include
but are not limited to at least $490,000,000 and all
interests and proceeds traceable thereto, including but
not limited to the following assets:
a. Any and all funds in account number
009419321146, in the name of Hallinan Capital
Corp., at Bank of America, and any and all
funds traceable thereto;
b. Any and all funds in account number 6236347844,
in the name of Hallinan Capital Corp., at
Citizens Bank, and any and all funds traceable
thereto;
c. Any and all funds in account number 9943232101,
in the name of Hallinan Capital Corp., at
Vanguard, and any and all funds traceable
thereto;
d. Any and all funds in account number 6236347690,
in the name of Apex 1 Lead Generators, at
Citizens Bank, and any and all funds traceable
thereto;
e. Any and all funds in account number 6236347771,
in the name of Blue Water Funding Group LLC,
at Citizens Bank, and any and all funds
traceable thereto;

97a
f. Any and all funds in account number 6236347879,
in the name of Mill Realty Management, LLC,
at Citizens Bank, and any and all funds
traceable thereto;
g. Any and all funds in account number
88044257268, in the name of Apex 1 Processing,
at Vanguard, and any and all funds traceable
thereto;
h. Any and all funds in account number
271501789869, in the name of Apex 1 Processing Inc., d/b/a Cash Advance Network, at
Power Pay, EVO Payments International, and
any and all funds traceable thereto;
i. Any and all funds in account number
271501796475, in the name of Apex 1 Processing Inc., d/b/a Instant Cash USA, at Power
Pay, EVO Payments International, and any and
all funds traceable thereto;
j. Any and all funds in account number
271501796327, in the name of Apex 1 Processing Inc., d/b/a Paycheck Today, at Power
Pay, EVO Payments International, and any and
all funds traceable thereto;
k. Any and all funds in account number
271501796590, in the name of Fifth Avenue
Financial, Inc., d/b/a My Next Paycheck, at
Power Pay, EVO Payments International, and
any and all funds traceable thereto;
l.

Any and all funds in account number
271501796665, in the name of Palmetto Financial, Inc., d/b/a My Payday Advance, at Power
Pay, EVO Payments International, and any and
all funds traceable thereto;

98a
m. Any and all funds in account number
271501796707, in the name of Sabal Financial,
Inc., d/b/a Your Fast Payday, at Power Pay,
EVO Payments International, and any and all
funds traceable thereto;
n. Any and all funds in account number 623-021206,
in the name of Charles Hallinan, at Morgan
Stanley, and any and all funds traceable thereto;
o. Any and all funds in account number 7101622806,
in the name of Charles M. Hallinan, at Bank of
Leumi, and any and all funds traceable thereto;
p. Any and all funds in account number
009001408711, in the name of Charles Hallinan,
at Bank of America, and any and all funds
traceable thereto;
q. Any and all funds in account number
009466692476, in the name of Charles Hallinan,
at Bank of America, and any and all funds
traceable thereto;
r. Any and all funds in account number 4300263160, in the name of Charles Hallinan, at
TD Bank, and any and all funds traceable
thereto;
s. All right, title and interest in real property
located at 400 S. E. 5th Ave, Apt. 304N, Boca
Raton, FL, with all improvements, appurtenances, and attachments thereon;
t. All right, title and interest in real property
located at 118 School Road, Wilmington, DE,
with all improvements, appurtenances, and
attachments thereon;
u. All right, title and interest in real property
located at 641 N. Spring Mill Road, Villanova,

99a
PA, with all improvements, appurtenances, and
attachments thereon;
v. One 2014 Bentley Flying Spur bearing VIN:
SCBEC9ZA7EC092360 (the “2014 Bentley”);
and
w. One 2015 Mercedes S550 bearing VIN:
WDDUG8FB5FA123337 (the “2015 Mercedes”).
4. If any of the property described in paragraphs 2
and 3 above, as a result of any act or omission of a
defendant –
(1) cannot be located upon the exercise of due
diligence;
(2) has been transferred or sold to, or deposited
with, a third party;
(3) has been placed beyond the jurisdiction of the
court;
(4) has been substantially diminished in value; or
(5) has been commingled with other property which
cannot be divided without difficulty;
the court shall order the forfeiture of any other property of the defendants up to the value of any property
set forth in paragraphs 2 and 3 above.
5. As set forth in paragraph 4 above, the following
assets have been identified as substitute assets and
would be subject to forfeiture upon conviction and a
finding by the court that the defendants are liable for
a forfeiture money judgment representing the
proceeds of the charged conduct:
a. All right, title and interest in real property
located at 2704 W. 6th Street, Wilmington, DE,

100a
with all improvements, appurtenances, and
attachments thereon;
b. All right, title and interest in real property located
at assessor’s parcel number 075210000000500,
Walnut Creek, Glen Elder, KS, with all improvements, appurtenances, and attachments thereon.
6. The above-named defendants, and each of them,
are jointly and severally liable for the forfeiture
obligations as alleged above.
All pursuant to Title 18, United States Code, Section
1963.

101a
NOTICE OF FORFEITURE NO. 2
(RACKETEERING FORFEITURE, COUNT TWO)
1. The allegations contained in Count Two of this
Indictment are hereby repeated, realleged, and incorporated by reference herein as though fully set forth
at length for the purpose of alleging forfeiture pursuant to the provisions of Title 18, United States Code,
Section 1963 and Title 28, United States Code, Section
2461(c). Pursuant to Rule 32.2, Fed. R. Crim. P., notice
is hereby given to the defendants that the United
States will seek forfeiture as part of any sentence in
accordance with Title 18, United States Code, Section
1963 in the event of any defendant’s conviction under
Count One of this Indictment.
2. The defendants,
CHARLES M. HALLINAN
And
WHEELER K. NEFF
i. have acquired and maintained interests in
violation of Title 18, United States Code, Section
1962, which interests are subject to forfeiture to the
United States pursuant to Title 18, United States
Code, Section 1963(a)(1);
ii. have an interest in, security of, claims against,
and property and contractual rights which afford a
source of influence over, the enterprise named and
described herein which the defendants established,
operated, controlled, conducted, and participated in
the conduct of, in violation ofTitle 18, United States
Code, Section 1962, which interests, securities, claims,
and rights are subject to forfeiture to the United
States pursuant to Title 18, United States Code,
Section 1963 (a)(2);

102a
iii. have property constituting and derived from
proceeds obtained, directly and indirectly, from
racketeering activity, in violation of Title 18, United
States Code, Section 1962, which property is subject
to forfeiture to the United States pursuant to Title
18, United States Code, Section 1963(a)(3).
3. The interest of the defendants subject to forfeiture to the United States pursuant to Title 18, United
States Code, Section 1963(a)(1), (a)(2), and (a)(3),
include but are not limited to at least $100,000 and all
interests and proceeds traceable thereto.
4. If any of the property described in paragraphs 2
and 3 above, as a result of any act or omission of a
defendant –
(1) cannot be located upon the exercise of due
diligence;
(2) has been transferred or sold to, or deposited
with, a third party;
(3) has been placed beyond the jurisdiction of the
court;
(4) has been substantially diminished in value; or
(5) has been commingled with other property which
cannot be divided without difficulty; the court shall
order the forfeiture of any other property of the
defendants up to the value of any property set forth
in paragraphs 2 and 3 above.
5. The above-named defendants, and each of them,
are jointly and severally liable for the forfeiture
obligations as alleged above.
All pursuant to Title 18, United States Code, Section
1963.

103a
NOTICE OF FORFEITURE NO. 3
(CONSPIRACY TO COMMIT FRAUD AND
MONEY LAUNDERING FORFEITURE)
1. As a result of the violations of Title 18, United
States Code, Sections 371, 1341, 1343, and 1956(a)(2)(A),
described in Counts Three through Eight, and Counts
Nine through Seventeen, defendants
CHARLES M. HALLINAN,
WHEELER K. NEFF, and
RANDALL P. GINGER
shall forfeit to the United States of America, any
property, real or personal, which constitutes or is derived
from proceeds traceable to any offense constituting
“specified unlawful activity,” that is, mail fraud and
wire fraud, and any property, real or personal, involved
in and traceable to, violations of 1956(a)(2)(A), that is,
money laundering, including, but not limited to the
following:
(a) The sum of $90,000 in United States currency
(forfeiture money judgment).
2. If any of the property subject to forfeiture, as a
result of any act or
omission of the defendant:
(a) cannot be located upon the exercise of due
diligence;
(b) has been transferred or sold to, or deposited
with, a third party;
(c) has been placed beyond the jurisdiction of the
Court;
(d) has been substantially diminished in value; or

104a
(e) has been commingled with other property which
cannot be divided without difficulty; it is the
intent of the United States, pursuant to Title
28, United States Code, Section 2461(c), incorporating Title 21, United States Code, Section
853(p), to seek forfeiture of any other property
of the defendant up to the value of the property
subject to forfeiture.
All pursuant to Title 18, United States Code, Section
981(a)(1)(C), 982 and Title 28, United states Code,
Section 2461(c).
A TRUE BILL:
GRAND JURY FOREPERSON
ZANE DAVID MEMEGER
United States Attorney

105a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
————
Nos. 18-2282 &18-2539
————
UNITED STATES OF AMERICA
v.
WHEELER K. NEFF,
Appellant in No. 18-2282
————
UNITED STATES OF AMERICA
v.
CHARLES M. HALLINAN,
Appellant in No. 18-2539
————
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Nos. 2-16-cr-00130-001 & 2-16-cr-00130-002)
————
SUR PETITION FOR REHEARING
————

106a
Present: SMITH, Chief Judge, McKEE, AMBRO,
CHAGARES, JORDAN, HARDIMAN, GREENAWAY,
JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS and *GREENBERG,
Circuit Judges
The petition for rehearing filed by Appellants in the
above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the circuit in regular active service, and no judge who concurred in the decision having asked for rehearing, and
a majority of the judges of the circuit in regular service
not having voted for rehearing, the petition for rehearing by the panel and the Court en banc, is denied.
BY THE COURT,
s/Michael A. Chagares
Circuit Judge
Dated: November 5, 2019
Lmr/cc: All Counsel of Record

*

Hon. Morton I. Greenberg’s vote is limited to panel rehearing

107a
APPENDIX E
Section 1341 of Title 18 of the United States Code
Annotated provided in pertinent part:
§ 1341. Frauds and swindles
Whoever, having devised or intending to devise any
scheme or artifice to defraud, or for obtaining money or property by means of false or fraudulent pretenses, representations, or promises, or to sell,
dispose of, loan, exchange, alter, give away, distribute, supply, or furnish or procure for unlawful use
any counterfeit or spurious coin, obligation, security, or other article, or anything represented to be
or intimated or held out to be such counterfeit or
spurious article, for the purpose of executing such
scheme or artifice or attempting so to do, places in
any post office or authorized depository for mail
matter, any matter or thing whatever to be sent or
delivered by the Postal Service, or deposits or
causes to be deposited any matter or thing whatever to be sent or delivered by any private or commercial interstate carrier, or takes or receives
therefrom, any such matter or thing, or knowingly
causes to be delivered by mail or such carrier
according to the direction thereon, or at the place
at which it is directed to be delivered by the person
to whom it is addressed, any such matter or thing,
shall be fined under this title or imprisoned not
more than 20 years, or both. If the violation occurs
in relation to, or involving any benefit authorized,
transported, transmitted, transferred, disbursed,
or paid in connection with, a presidentially
declared major disaster or emergency (as those
terms are defined in section 102 of the Robert T.
Stafford Disaster Relief and Emergency Assistance
Act (42 U.S.C. 5122)), or affects a financial institu-

108a
tion, such person shall be fined not more than
$1,000,000 or imprisoned not more than 30 years,
or both.
18 U.S.C.A, § 1341 (Jan. 7, 2008).

109a
APPENDIX F
Section 1343 of Title 18 of the United States Code
Annotated provided in pertinent part:
§ 1343. Fraud by wire, radio, or television
Whoever, having devised or intending to devise any
scheme or artifice to defraud, or for obtaining
money or property by means of false or fraudulent
pretenses, representations, or promises, transmits
or causes to be transmitted by means of wire, radio,
or television communication in interstate or foreign
commerce, any writings, signs, signals, pictures, or
sounds for the purpose of executing such scheme or
artifice, shall be fined under this title or imprisoned not more than 20 years, or both. If the violation occurs in relation to, or involving any benefit
authorized, transported, transmitted, transferred,
disbursed, or paid in connection with, a presidentially declared major disaster or emergency (as
those terms are defined in section 102 of the Robert
T. Stafford Disaster Relief and Emergency Assistance Act (42 U.S.C. 5122)), or affects a financial
institution, such person shall be fined not more
than $1,000,000 or imprisoned not more than 30
years, or both.
18 U.S.C.A. § 1343 (Jan. 7, 2008).

110a
APPENDIX G
Section 1962 of Title 18 of the United States Code
Annotated provided in pertinent part:
§ 1962. Prohibited Activities
(a) It shall be unlawful for any person who has
received any income derived, directly or indirectly,
from a pattern of racketeering activity or through
collection of an unlawful debt in which such person
has participated as a principal within the meaning
of section 2, title 18, United States Code, to use or
invest, directly or indirectly, any part of such
income, or the proceeds of such income, in acquisition of any interest in, or the establishment or operation of, any enterprise which is engaged in, or the
activities of which affect, interstate or foreign commerce. A purchase of securities on the open market
for purposes of investment, and without the intention of controlling or participating in the control of
the issuer, or of assisting another to do so, shall not
be unlawful under this subsection if the securities
of the issuer held by the purchaser, the members of
his immediate family, and his or their accomplices
in any pattern or racketeering activity or the collection of an unlawful debt after such purchase do not
amount in the aggregate to one percent of the
outstanding securities of any one class, and do not
confer, either in law or in fact, the power to elect
one or more directors of the issuer.
(b) It shall be unlawful for any person through a
pattern of racketeering activity or through collection of an unlawful debt to acquire or control of any
enterprise which is engaged in, or the activities of
which affect, interstate or foreign commerce.

111a
(c) It shall be unlawful for any person employed by
or associated with any enterprise engaged in, or the
activities of which affect, interstate or foreign commerce, to conduct or participate, directly or indirectly, in the conduct of such enterprise’s affairs
through a pattern of racketeering activity or collection of unlawful debt.
(d) It shall be unlawful for any person to conspire
to violate any of the provisions of subsection (a), (b),
or (c) of this section.
18 U.S.C.A. § 1962 (Nov. 8, 1988).

112a
APPENDIX H
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
————
CRIMINAL NOS. 16-130-1, 2
————
UNITED STATES OF AMERICA
v.
CHARLES M. HALLINAN (1)
WHEELER K. NEFF (2)
————
Philadelphia, Pennsylvania
November 10, 2017
12:04 o’clock p.m.
————
EXCERPT OF JURY CHARGE CONFERENCE
BEFORE THE HONORABLE EDUARDO C.
ROBRENO UNITED STATES DISTRICT JUDGE
————
APPEARANCES:
For the Government: MARK B. DUBNOFF, ESQUIRE
JAMES A. PETKUN, ESQUIRE
U.S. ATTORNEY’S OFFICE
615 Chestnut Street
For the Defendant
EDWIN J. JACOBS, JR., ESQUIRE
Charles M. Hallinan: JACOBS AND BARBONE
1125 Pacific Avenue
Atlantic City, NJ 08401

113a
For the Defendant
Wheeler K. Neff:

CHRISTOPHER D. WARREN,
ESQUIRE
1730 North Fifth Street
Suite 604
Philadelphia, PA 19122
DENNIS J. COGAN, ESQUIRE
DENNIS J. COGAN &
ASSOCIATES
2000 Market Street
Suite 2925
Philadelphia, PA 19103

Laws Transcription Service
48 W. LaCrosse Avenue
Lansdowne, PA 19050
(610)623-4178
* * *
[19] THE COURT: Okay –
MR. DUBNOFF: – between mine –
THE COURT: – 189, “However”?
MR. DUBNOFF: The – I’m sorry, on page –
THE COURT: No, don’t give me the page, I need to
know the line in 189.
MR. DUBNOFF: Line 6 of 189, it starts, “Circumstances,” period. And then, “Thus, to determine a
defendant’s state of mind” –
THE COURT: Yes.
MR. DUBNOFF: – “as to” –
THE COURT: Okay. Yeah, I think you’re right
MR. DUBNOFF: And then we’re going to object to a
willful instruction. I have a sense where the Court’s

114a
going, but when we get to it, I’d like to be heard on
that.
THE COURT: Okay. 189 is fine with the edit. 190?
Okay. 191, 192, 193, 194. Okay. 195?
MR. DUBNOFF: Yes, your Honor.
THE COURT: Okay. Tell me.
MR. DUBNOFF: All right. So this – this is not – I
understand this was one of the two key requests the
defense made, we don’t think this is consistent with
the Third Circuit model instructions. The Third Circuit model instructions do not require willfulness, we
think it’s a little confusing here. We would ask the
Court simply to [20] follow what the Third – the Third
Circuit hasn’t written instructions for all of the crimes
that could be charged, this happens to be one they took
a fair amount of time, we respectfully would ask the
Court to follow it.
THE COURT: So you don’t want 195 and 196?
MR. DUBNOFF: Yes, your Honor.
THE COURT: Nothing, delete?
MR. DUBNOFF: Willfully is not the standard –
THE COURT: Okay.
MR. DUBNOFF: – under the Third Circuit’s model
instructions.
MR. JACOBS: Judge, I think you’re 100-percent
correct. If you look at the comment to – Mr. Dubnoff is
correct, it does say in the pattern point for charge for
RICO “knowing,” but it doesn’t define it in the RICO
charges itself. So you go to the pattern point for knowing and when you read that there, it specifically talks
about situations where you have to basically read a

115a
mental state into the statute. And when they talk
about the type of knowledge that’s required of this type
of case, they make a specific – they being the Third
Circuit make a specific cross-reference to willfully.
And I think you are – this is 100-percent correct. I
think it is almost based on that memo we submitted
back August 4th that willfulness does have to be
shown here and I [21] think it’s correct.
THE COURT: Okay. We’ll take it under advisement.
MR. DUBNOFF: All right. And if I could just direct
your attention to what I believe my colleague is suggesting. In the definition of knowing, it is within a
different chapter, it’s the mental state chapter. I know
my good friend Mr. Warren has cited the Liparota
case. There is a description in that paragraph, we
would ask your Honor just to take a look at the notations there and we trust your discretion.
THE COURT: Okay. 197?
MR. DUBNOFF: Uh – oh, no.
THE COURT: 198? 199? Okay. 200?
MR. DUBNOFF: So, obviously we object to the good
faith instruction. I think your Honor knows our position on this. Your Honor correctly noted, it was not
given in New York. It is in the Court’s discretion as to
how to give it, so the Government, for reasons stated
earlier, would like the Court to consider our objections
to a good faith instruction.
THE COURT: Now, take into account that I did
include a willful blindness, which you did not have,
because of course if you didn’t have good faith, you
didn’t need willful blindness. Do you agree that if good

116a
faith is given in some sort, willful blindness should
also be given?
MR. DUBNOFF: Yeah, they have to – it has to be,
[22] your Honor.
THE COURT: Okay –
MR. WARREN: And obviously –
THE COURT: – the big picture.
MR. WARREN: – obviously, I can’t have it – I can’t
have my cake and eat it too, if I get good faith, they get
willful blindness.
THE COURT: Okay.
MR. WARREN: I mean –
THE COURT: So let’s now with that in mind run
through the specific language. 200? 201? 202? 203?
204? 205? 206? 207? 208? 209? 210? 211? 212? 213?
214? 215? 216? 217? 218? 219? 220? 221? 222? 223?
(Pause.)
THE COURT: 224? 225? 226?
MR. DUBNOFF: Yes, your Honor.
THE COURT: Okay.
MR. DUBNOFF: All right. So there are a couple
places here. For the mail fraud and the wire fraud, it’s
“the defendant knowingly devised or willfully participated in a scheme.” And it will be here in paragraph 226, it’s – you have it correct a little later in the
charge and our position wold be to add those words
here, “or willfully participated in.”
MR. WARREN: I have no objection whatsoever –
[23] THE COURT: Okay.

117a
MR. WARREN: – Judge.
THE COURT: It’s added to it on 226.
MR. DUBNOFF: Yeah.
THE COURT: Point it out as we go through it if it
needs to be added somewhere else.
227? 228? 229? 230? 231?
MR. DUBNOFF: And here’s another one, your
Honor. That’s –
THE COURT: Okay, tell me how –
MR. DUBNOFF: After “devised,” the words, “or
willfully participated in.”
THE COURT: Okay.
MR. DUBNOFF: And our position is that obviously
there is a reference to willfully there and that is where
we believe the willfully charge should go. We don’t
believe willfully applies to the RICO conspiracy
charges in Counts 1 or 2, we do think that it applies –
THE COURT: Okay.
MR. DUBNOFF: – in the later charges and that’s
where we believe a willfully instruction should be
given.
MR. WARREN: You know what our position is –
THE COURT: Okay.
MR. WARREN: – it applies to RICO and mail fraud,
Judge.
[24] THE COURT: 232? Now, Mr. Dubnoff, why
would it apply to one and not to the other? What’s the
policy involved here?

118a
MR. DUBNOFF: Well, they’re different statutes.
The RICO conspiracy charge is not a specific-intent
statute, it’s a general-intent statute. There is the line
of cases that we cited, I know Mr. Warren cited contrary cases. This is what we litigated back in August
with the briefs that we submitted, your Honor.
On the other hand, we agree with Mr. Warren that
mail fraud and wire fraud are specific-intent statutes.
We have to prove an intent to defraud –
THE COURT: Okay –
MR. DUBNOFF: – and so it’s just –
THE COURT: – I get it.
MR. DUBNOFF: – it’s a different situation.
THE COURT: Thank you. 232? 233? 234? 235? 236?
237? 238? 239? 240? 241? 242? 243? 244? 245? 246?
247? 248? 249? 250? 251? 252? 253? 254?
MR. DUBNOFF: Your Honor, there’s a typo in this
one.
THE COURT: Okay.
MR. DUBNOFF: The third line it says, “whether
the he acted,” the word “the” should be stricken.
THE COURT: Very good. Thank you. It will be.

119a
APPENDIX I
[1] IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
————
CRIMINAL NOS. 16-130-1, 2
————
UNITED STATES OF AMERICA
v.
CHARLES M. HALLINAN (1)
WHEELER K. NEFF (2)
————
Philadelphia, Pennsylvania
November 20, 2017
9:54 o’clock a.m.
————
JURY TRIAL
BEFORE THE HONORABLE
EDUARDO C. ROBRENO
UNITED STATES DISTRICT JUDGE
APPEARANCES:
For the Government:
MARK B. DUBNOFF, ESQUIRE
JAMES A. PETKUN, ESQUIRE
U.S. Attorney’s Office
615 Chestnut Street
Suite 1250
Philadelphia, PA 19106

120a
For the Defendant Charles M. Hallinan:
EDWIN J. JACOBS, JR., ESQUIRE
Jacobs and Barbone
1125 Pacific Avenue
Atlantic City, NJ 08401
For the Defendant Wheeler K. Neff:
CHRISTOPHER D. WARREN, ESQUIRE
1730 North Fifth Street
Suite 604
Philadelphia, PA 19122
DENNIS J. COGAN, ESQUIRE
Dennis J. Cogan & Associates
2000 Market Street
Suite 2925
Philadelphia, PA 19103
Laws Transcription Service
48 W. LaCrosse Avenue
Lansdowne, PA 19050
(610)623-4178
* * *
[33] In order to convict a defendant on the racketeering conspiracy offense charged in Counts 1 and 2, the
Government must prove each defendant knowingly
agreed that a conspirator, which may include the
defendant himself, would commit a violation of Title
18 United States Code section 1962(c).
Section 1962(c) is commonly referred to as a RICO
statute, R-I-C-O, which stands for, is a short moniker
for Racketeering and Corrupt Organizations Act.
The relevant provision of the RICO statute provides
as follows, and I quote: “It shall be unlawful for any
person employed by or associated with any enterprise

121a
engaged in, or the activities of which affect, interstate
or foreign commerce, to conduct or participate, directly
or indirectly, in the conduct of such enterprise’s affairs
through,” in this case, “the collection of unlawful debt,”
close quote.
It is a Federal crime for two or more persons to agree
or to conspire to commit any offense against the
United States, even if they never actually achieve
their objective.
A conspiracy is kind of a criminal partnership. In
order for you to find a defendant guilty of conspiracy
to conduct or to participate in the conduct of an
enterprise’s affairs through the collection of unlawful
debt, you must find that the Government proved
beyond a reasonable doubt each of the following three
elements: first, that two or [34] more persons agreed
to conduct or to participate, directly or indirectly, in
the conduct of an enterprise’s affairs through the
collection of unlawful debt; second, that the defendant
was a party to or a member of that agreement; and,
third, that the defendant joined the agreement or
conspiracy knowing of its objectives to conduct or
participate, directly or indirectly, in the conduct of an
enterprise’s affairs through the collection of unlawful
debt, and intending to join with at least one other
alleged conspirator to achieve that objective. That is,
that the defendant and at least one other alleged
conspirator shared a unity of purpose and the intent
to achieve the objective of conducting or participating
in the conduct of an enterprise’s affairs through the
collection of unlawful debt.
Let me explain. The Government is not required to
prove that the alleged enterprise was actually established; that the defendant was actually employed by or
associated with the enterprise; that the enterprise was

122a
actually engaged in, or its activities actually affected,
interstate or foreign commerce; or that the defendant
actually collected an unlawful debt. Indeed, it is not
necessary for you to find that the objective or purpose
of the conspiracy was achieved at all. However, the
evidence must establish that a defendant knowingly
agreed to facilitate or further the scheme, which, if
completed, would include the collection of [35] an
unlawful debt committed by at least one other
conspirator.
In short, to find Charles M. Hallinan and Wheeler
K. Neff guilty of either RICO conspiracies, the
conspiracy charged in Counts 1 and 2 of the indictment, you must find that the Government proved
beyond a reasonable doubt that the Defendant joined
in an agreement or conspiracy with another person or
persons knowing that the objective or purpose was to
conduct or to participate, directly or indirectly, in the
conduct of the affairs of an enterprise through the
collection of unlawful debt, and intended to join with
other person or persons to achieve that objective.
Let’s break this down by elements now. I will now
instruct you to some of the general principles applicable to the law of conspiracy. These principles apply
to the RICO conspiracy charged in Counts 1 and 2, and
they also apply to the other conspiracies charged in the
indictment.
The first element of the crime of conspiracy is the
existence of an agreement. The Government must
prove beyond a reasonable doubt that two or more
persons knowingly and intentionally arrived at a
mutual understanding or agreement, either spoken or
unspoken, to work together to achieve the overall
objective of the conspiracy, which is to conduct or to
participate, directly or indirectly, in the conduct of the

123a
affairs of an enterprise through the collection of
unlawful debt.
[36] The Government does not have to prove the
existence of a formal or written agreement, or an
express oral agreement spelling out the details of the
understanding. The Government also does not have to
prove that all of the members of the conspiracy directly
met or discussed between themselves their unlawful
objective, or agreed to all of the details, or agreed to
what the means were by which the objective would be
accomplished. The Government is not even required to
prove that all of the people named in the indictment
were in fact parties to the agreement, or that all
members of the alleged conspiracy were named or that
all members of the conspiracy are even known.
What the Government must prove beyond a reasonable doubt is that two or more persons in some way or
manner arrived at some type of agreement, mutual
understanding or meeting of the minds to try to accomplish a common and unlawful objective.
You may consider both direct evidence and circumstantial evidence in deciding whether the Government
has proved beyond a reasonable doubt that an agreement or mutual understanding existed. You may find
the existence of a conspiracy based on reasonable
inferences drawn from the actions and statements of
the alleged members of the conspiracy, from the circumstances surrounding the scheme, and from evidence of
related facts and circumstances which
* * *
[51] You may find that the defendant participated,
indirectly or directly, in the conduct of the affairs of
the enterprise if you find that he was a lower-level
participant who acted under the direction of upper

124a
management, knowingly furthering the aims of the
enterprise by implementing a management decision or
carrying out the instruction of those in control, or that
the defendant knowingly performed acts, functions
or duties that were necessary to or helpful in the
operation of the enterprise.
In order to prove RICO conspiracy, the Government
must prove that the defendant agreed that a conspirator, which could be the defendant himself or any other
conspirator, would commit a collection of an unlawful
debt. The Government is not required that the defendant personally collected or agreed to personally collect
any unlawful debt. Indeed, it is not necessary for you
to find that the objective or purpose of the conspiracy
was achieved at all. However, the evidence must establish that the defendant knowingly agreed to facilitate
or further a scheme, which, if completed, would include
the collection of unlawful debt committed by at least
one other conspirator.
A collection of unlawful debt is defined as follows.
The term unlawful debt means that; one, the debt was
unenforceable in whole or in part under Federal or
state law because of the laws relating to usury; and,
two, was incurred [52] in connection with the business
of lending money or anything of value at a rate that
was usurious under Federal or state law where the
rate was at least twice the legally enforceable rate.
Usury is the lending of money at an illegally high
rate of interest. Pennsylvania has a legally enforceable
rate of interest; any higher rate of interest is illegal.
Specifically, in Pennsylvania the enforceable rate of
interest on consumer loans of up to $25,000 is six
percent for unlicensed lenders and approximately
24 percent for lenders who are licensed with the
Pennsylvania Department of Banking.

125a
Pennsylvania also has a law which makes it a crime
to charge a rate of interest higher than 25 percent per
year on most loans to individuals.
The term, quote, “rate of interest,” close quote, includes
fees, charges and any other costs associated with the
loan. These Pennsylvania laws on interest limits apply
to all loans made to Pennsylvania borrowers even if
the lenders are physically located outside of Pennsylvania
and have no offices in Pennsylvania, and even if the
borrower signs a contract agreeing that Pennsylvania
law does not apply and that the borrower is willing to
pay an interest rate higher than the enforceable rate
of interest.
Therefore, if you believe the Government has [53]
presented evidence demonstrating that the Defendants
agreed to collect debt from loans to borrowers living in
Pennsylvania with loans at interest rates that exceeded
twice the enforceable rate of interest, you may consider such evidence as evidence that the Defendant
agreed to collect unenforceable debt.
Some states other than Pennsylvania also has interest rate limits on consumer loans that are either 36
percent per year or less. These states include Connecticut,
Georgia, Maine, Maryland, Massachusetts, Montana,
New Hampshire, New Jersey, New York, North Carolina,
Ohio, Vermont, and West Virginia. Washington, DC
has an interest rate limit of 24 percent.
If you believe the Government has presented evidence demonstrating that the Defendant agreed to
collect debt from loans to borrowers living in these
states where the loan had interest rates that exceeded
twice the enforceable rate of interest in those states,
you may consider such evidence as evidence that the
Defendants agreed to collect unenforceable debt.

126a
Other states permitted some payday lending if the
lenders obtained licenses from the states and complied
with their regulations. If you believe the Government
has presented evidence demonstrating that the Defendants agreed to collect debt from loans to borrowers
living in any of [54] those states without complying
with the law of those states, you may consider such
evidence as evidence that the Defendants agreed to
collect unenforceable debt.
To convict a defendant of conspiracy to violate
RICO, the Government is not required to prove that a
defendant knew that his acts were against the law.
Instead, a defendant must generally know the facts
that make his conduct fit into the definition of the
charged offense, even if the defendant did not know
that those facts gave rise to a crime. Ignorance of the
law is no excuse.
To prove a defendant guilty of conspiracy to collect
unlawful debt, the Government is not required to
prove that a defendant knew that the usury rates were
in the states where the borrowers lived. For example,
in the case of a Pennsylvania, the Government does
not need to prove that the Defendant Charles M.
Hallinan or Wheeler K. Neff knew that the criminal
usury rate was 25 percent or that the enforceable
rate of interest was six percent for a licensed lender,
nor does the Government have to prove that the
Defendant knew the usury laws or the enforceable
rates of interest in any other state.
Now, throughout the trial you heard testimony and
evidence regarding the concept of, quote, “tribal sovereign immunity,” close quote. Tribal sovereign immunity
is a legal rule that protects federally recognized Indian
tribes from

127a
APPENDIX J
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
————
CRIMINAL NO. 16-130-01
————
UNITED STATES OF AMERICA
v.
CHARLES M. HALLINAN
————
AFFIDAVIT
I, Richard Batezel, being duly sworn, depose and
state as follows
1. I am a United States Postal Inspector assigned
to the Philadelphia Division of the United States
Postal Inspection Service, and have been so employed
since 2001. I am one of the case agents in the abovecaptioned case and was part of the investigative team.
I attended the jury trial in this case, which occurred
from September to November 2017.
2. During the investigation of this case, the government received a copy of a letter dated August 26,
2014, from defendant Wheeler K. Neff to Jason Hatch
as the Supervisor of Loss Prevention at PowerPay in
Portland, Maine, in which defendant Neff sought
reimbursement of money held in reserve accounts for
Apex 1 Processing, Inc. (“Apex 1”), Fifth Avenue
Financial, Inc. (“Fifth Avenue”), Palmetto Financial,
Inc., (“Palmetto”), and Sabal Financial, Inc. (“Sabal”).

128a
It is my understanding that this letter was admitted
into evidence at trial as Government Exhibit 671.
3. After receiving this letter, the investigative
team served grand jury subpoenas upon PowerPay,
which I understand has since changed its name to
EVO Payments International (“EVO”), for records
relating to the accounts of Apex 1, Fifth Avenue,
Palmetto, and Sabal. In response, EVO representatives provided the investigative team with documents
relating to accounts that had been held in the name of
six different entities: (1) Apex 1, d/b/a “Paycheck
Today,” (2) Apex 1 d/b/a “Cash Advance Network,” (3)
Apex 1, d/b/a “Instant Cash USA,” (4) Fifth Avenue,
d/b/a “My Next Paycheck,” (5) Palmetto, d/b/a My
Payday Advance, and (6) Sabal, d/b/a “Your Fast
Payday.”
4. Many of those documents were introduced as
exhibits during the trial and admitted into evidence.
It is my understanding that those exhibits include
Exhibits 651 – 656, 665 – 669, and 671 – 677.
5. Mr. Hatch also testified during the trial as did
former PowerPay employee Barbara Youngblood, and
they explained that PowerPay processed credit card
payments from customers of Apex 1, Fifth Avenue,
Palmetto, and Sabal into those six accounts.
6. Some of the documents the investigative team
received from EVO were not introduced as trial exhibits, although it is my understanding that they were
produced to the defense attorneys in 2016. These documents include monthly account statements for the six
different accounts. These account statements contain
information about the amount of money that PowerPay
deposited into each of the six accounts as credit card
payments from customers to the six aforementioned

129a
entities, and the amount of fees charged on the transactions.
7. My office has reviewed the statements, and
although most of the information contained on the
statements is self-explanatory, we also have received
clarification from an EVO representative that the
term “settled amount” refers to the amount collected
from the customers; that fees and charges were
assessed on the accounts; and that the remaining
amounts were forwarded to the merchant.
8. Attached as Exhibit 1 to this affidavit is a true
and accurate copy of a chart that summarizes the
information contained in these monthly account statements. It is my understanding that the chart has been
marked as Government Exhibit 2216 for the forfeiture
hearing.
9. As the chart indicates, the total amount
deposited into the six accounts was $2,336,857; the
total amount of fees and charges incurred by those six
accounts was $14,035.07; and the total amount of
money transmitted to the account holders (defendant
Hallinan and/or his employees) was $2,322,822.54.
10. Attached as Exhibit 2 to this affidavit is a true
and accurate copy of pages 30 through 35 of the trial
transcript of Michael Kevitch’s testimony on October
10, 2017.
11. In his testimony, Kevitch identified Government Exhibit 297-R as a ledger of 65,820 leads that
Apex 1 Lead Generators sold to Your Fast Payday
between June 16, 2010, and February 23, 2013. Tr.
30:2-31:25. Kevitch identified Exhibit 298-R as a ledger
of approximately 41,427 leads that were passed
through Apex 1 Lead Generators for scoring between
September 24, 2012, and August 9, 2013. Tr. 32:1-12.

130a
Kevitch identified Exhibit 299R as a list of 75,763
leads purchased by My Payday Advance between June
30, 2010, and February 23, 2013. Tr. 33:13-34:12.
Kevitch identified Exhibit 300-R as a list of 120,807
leads purchased by “Paycheck Today, which eventually became My Next Paycheck” between May 20, 2010
and February 22, 2013. Tr. 34:13-35:9. Kevitch then
added that Apex 1 Lead Generators “didn’t sell that
many leads,” and he didn’t know whether Apex 1
“underwrote them or scored them, but that’s a ton of
leads.” Tr. 35:11-22.
12. Attached as Exhibit 3 to this affidavit is a true
and accurate copy of the government’s letter to defense
counsel, dated June 15, 2016, in which the government
identified 17 states, including Pennsylvania, plus the
District of Columbia that effectively prohibited payday
lending (the “Prohibited Payday Loan States”), 27
states that permitted some payday lending if the lenders obtained licenses and complied with certain regulations (the “Regulated Payday Loan States”), and six
states that permitted payday lending (the “Permitted
Payday Loan States”).
13. My office has reviewed Exhibits 297-R, 298-R,
299-R, and 300-R. Each entry on each spreadsheet
contains a person’s name and address, among other
information for that “lead.” We have sorted the entries
on each document by the states identified for each
“lead.” We then determined how many of those “leads”
resided in Prohibited Payday Loan States, Regulated
Loan States, and Permitted Payday Loan States.
14. Of the 65,819 leads identified in Exhibit 297-R,
16,056 had an address in a Prohibited Payday Loan
State; 46,318 had an address in a Regulated Payday
Loan State; and 3,445 had an address in a Permitted
Payday Loan State.

131a
15. Of the 41,427 leads identified in Exhibit 298-R,
11,695 had an address in a Prohibited Payday Loan
State; 27,905 had an address in a Regulated Payday
Loan State; and 3,445 had an address in a Permitted
Payday Loan State.
16. Of the 75,763 leads identified in Exhibit 299-R,
19,914 had an address in a Prohibited Payday Loan
State; 52,455 had an address in a Regulated Payday
Loan State; and 3,394 had an address in a Permitted
Payday Loan State.
17. Of the 120,807 leads identified in Exhibit 300R, 29,791 had an address in a Prohibited Payday Loan
State; 85,126 had an address in a Regulated Payday
Loan State; and 5,890 had an address in a Permitted
Payday Loan State.
18. In total, there were 303,816 leads identified on
Exhibits 297-R, 298-R, 299-R, and 300-R. Of that total,
77,456 (approximately 25.49 percent) had an address
in a Prohibited Payday Loan State.; 211,804 (approximately 69.71 percent) had an address in a Regulated
Payday Loan State; and 14,556 (approximately 4.79
percent) had an address in a Permitted Payday Loan
State.
19. Pursuant to 28 U.S.C. § 1746, I verify under
penalty of perjury that the foregoing is true and correct to the best of my knowledge and belief.
Respectfully submitted,
/s/ Richard Batezel
RICHARD BATEZEL
Postal Inspector
United States Postal Inspection Service
April 2, 2018

132a
U.S. Department of Justice
United States Attorney
Eastern District of Pennsylvania
Mark B. Dubnoff
Direct Dial: (20) 861-8397
Facsimile: (215) 861- 8618
E-mail Address mark.dubnoff@usdoj.gov
615 Chestnut Street Suite 1250
Philadelphia, Pennsylvania 19106-4476
(215) 861-8200
June 15, 2016
Edwin J. Jacobs, Jr, Esq.
Jacobs and Barbone
1125 Pacific Avenue
Atlantic City, NJ 08401
Dennis J. Cogan, Esq.
2000 Market Street, Suite 2925
Philadelphia, PA 19103
Christopher D. Warren, Esq.
1500 Walnut Street, Suite 1900
Philadelphia, PA 19102
RE: United States v. Hallinan, et al., Criminal No.
16-130; Expert Witnesses
Dear Counsel:
I am writing to follow up on my prior communications to all of you regarding the possibility that the
government will present expert testimony in the
above-captioned trial. As I mentioned in my initial
discovery letter, dated May 5, 2016, and during our
May 25, 2016 telephone conference with the Court, it
is the government’s intention to present the jury with
information regarding certain laws and regulations
that were applicable to payday lending and the federal

133a
tax code at all times relevant to the indictment (i.e.,
1997-2013). As I further indicated, I do not believe we
need expert testimony to present these “legal facts”
to the jury and instead could present them either
through fact witness or by asking the Court either to
take judicial notice of them or to include them as
instructions on the law. However, in case you believe
we would need expert opinion testimony on such
matters, I am outlining the information we would seek
to present to the jury, with citations to the applicable
laws.
A. Pennsylvania Laws Applicable to Payday
Lending
It is our intention to present a witness from the
Pennsylvania Department of Banking, who would
testify to the following:
• Under the Pennsylvania Loan Interest and
Protection Law (“LIPL”), the maximum rate
of interest that could be charged on general
consumer loans (i.e., nonmortgage loans to individuals) of up to $50,000 was 6 percent per year,
41 P.S. § 201(a); Cash America Net of Nevada,
LLC v. Commonwealth Dep’t of Banking, 607
Pa. 432, 437 (Pa. 2010).
• Additionally, the Consumer Discount Company
Act (“CDCA”) prohibited lenders from charging,
collecting, or contracting to receive interest,
fees, commissions, charges, or other money in
excess of 6 percent on any loans of up to
$25,000, unless the lenders were licensed with
the Pennsylvania Department of Banking. 7
P.S. § 6203.A; Cash America Net of Nevada,
LLC, 607 Pa. at 437-38.

134a
• Licensed lenders could charge annual rates
of interest of up to approximately 24 percent
on loans of up to $25,000. 7 P.S. §§, 6213.E,
6217.1.A; Cash America Net of Nevada, LLC,
607 Pa. at 437-38.
• On May 29, 2008, the Pennsylvania Supreme
Court held that the CDCA’s interest rate cap
applied to interest and any other type of other
or additional charges associated with a loan.
Pennsylvania Dep’t of Banking v. NCAS of Del.,
LLC, 596 Pa. 638, 653 (2008).
• On July 26, 2008, the Pennsylvania Department
of Banking issued a public notice announcing
that beginning on February 1, 2009, it would
seek to enforce the CDCA against out-of-state
lenders who engaged in consumer lending to
Pennsylvania residents over the Internet or by
mail. 38 Pa. Bull. 3986 (July 26, 2008)(Notice).
• On October 29, 2010, the Pennsylvania Supreme
Court ruled that Pennsylvania could enforce the
CDCA’s interest rate caps on an out-of-state
company that made payday loans to Pennsylvania
residents over the internet, even where the company had no offices or employees in Pennsylvania.
Cash America Net of Nevada, LLC, 607 Pa. at
451.
• The Pennsylvania Criminal Code defined
“Criminal usury” as charging, taking or receiving any money, things in action or other
property as interest on the loan or forbearance
of any money, things in action or other property,
at a rate exceeding thirty-six per cent per
annum or the equivalent rate for a longer or

135a
shorter period, when not otherwise authorized
by law. 18 P.S. § 4806.1.
• The maximum penalty for criminal usury was
ten years’ imprisonment, and a fine of $5,000.
18 U.S.C. § 4806.3.
Please advise whether you think we need to tender
such a witness as an “expert” on Pennsylvania Banking
law in order to testify about such matters.
B. Prohibited and Regulated States
We also would seek to provide the jury with information to support the allegation in Paragraph 12 of
Count 1 of the Indictment that at least a dozen other
states and the District of Columbia “effectively prohibited most forms of payday lending by prohibiting
interest rates charged on such loans in excess of
36 percent (the “Prohibited Payday Loan States”). We
believe these states include Connecticut (capping APR
at 30.3%), Georgia (16%), Maine (30%), Maryland
(33%), Massachusetts (23% plus a fee), Montana
(36%), New Hampshire (36%), New Jersey (30%), New
York (25%), North Carolina (36%), Ohio (28%),
Vermont (18%), West Virginia (31%), and Washington,
D.C. (24%). Additionally, Arizona, Arkansas, and
Oregon had APR caps in place for at least part of the
relevant time period. See also Pew Charitable Trusts,
“State Payday Loan Regulation and Usage Rates,”
January 14, 2014, http://www.pewtrusts.org/en/multi
media/data-visualizations/2014/state-payday-loan-reg
ulation-and-usage-rates (identifying 15 “restrictive
states” including Colorado), United Slates v. Tucker,
Crim No. 16-091, (S.D.N.Y Feb. 11, 2016) (identifying
15 states other than Colorado that effectively prohibit
payday lending). Since there has been some change in

136a
state laws, we would use the compromise language of
“more than a dozen.”
Likewise, we would seek to provide the jury with
information to support the allegation in Paragraph 13
of Count 1 that “[m]any states permitted some payday
lending if the lenders obtained licenses from the states
and complied with regulations that often limited the
number of payday loans that could be made to particular borrowers and the terms of those payday loans (the
“Regulated Payday Loan States”). We believe the
precise number of these states is 27, and that the only
states that did not regulate payday loans to residents
of their states were Delaware, Idaho, Nevada, South
Dakota, Utah, and Wisconsin. However, we recognize
that some state laws might be open to interpretation,
so we would suggest the compromise language of
“many states” that fall into the category of “Regulated
Payday Loan States.”
We do not believe we would need an expert witness
to opine as to either of these legal facts: i.e., that from
at least 2008 until at least 2013: (a) “more than a
dozen” states effectively prohibited payday lending by
setting interest rate caps at 36 percent APR or lower;
and that (b) “many other states” permitted payday
loans as long as the lenders complied with certain
regulations and restrictions. Indeed, we ask you to
consider stipulating to this compromised language,
unless you believe the precise number of prohibited or
regulated payday loan states is material to any of the
charges. For present purposes, however, please advise
us whether you believe we would need to tender any
witness as an expert in order to present such information to the jury.
To help your analysis, I am providing you with
citations to the relevant state statutes, so you can

137a
conduct your own state-by-state review of the relevant
laws.
1. Prohibited States
• Arizona, see Ariz. Rev. Stat. Ann. § 6-1263
(until July 1, 2010);
• Arkansas, see Ark. Const. Art. 19, Section 13
(repealed in 2011);
• Connecticut, see Conn. Gen. Stat. Ann.
§ 36a-563(a);
• Georgia, see Ga. Code Ann. § 16-17-1 et seq.;
• Maine, see Me. Rev. Stat. Ann. tit. 9-A,
§§ 1-201, et al.;
• Maryland, see Md. Code Ann., Corn. Law
§ 12-306;
• Massachusetts, see Mass. Gen. Laws Ann.
ch. 140, § 96; 209 Mass. Code Regs. 26.01(1);
• Montana, see Mont. Code Ann. § 31-1-701 et
seq.;
• New Hampshire, see N.H. Rev. Stat. Ann.
§ 399-A:17(I);
• New Jersey, see N.J. Stat. Ann. 2c:21-19;
N.J. Admin Code 3:24-1.3;
• New York, see N.Y. Penal Law § 190.40;
• North Carolina, see N.C. Gen. Stat. Ann.
§ 53-176(a)
• Ohio, see Ohio Rev. Code Ann. § 1321.35 et
seq.;
• Oregon, see Or. Rev. Stat. ch. 725A (enacted
in 2010;

138a
• Vermont, see Vt. Stat. Ann. tit. 9, § 41a(b)(1);
• West Virginia, see W. Va. Code Ann. § 46A4-107(2).
• Washington, D.C., see 2007 District of
Columbia Laws 17-42 (Act 17-115).
2. Regulated States
• Alabama, see Ala. Stat. §§ 5-18A-1 el seq.
(setting up licensing scheme and limiting
total charges to 17.5 percent of amount
advanced);
• Alaska, see Alaska Stat. 06.50.010, el seq.
(setting up licensing scheme and limiting
fees on deferred deposit advances to approximately 15 percent of amount advanced);
• California, see Cal. Civ. Code §§ 1789.30 el
seq. (limiting fees for deferred deposit transactions to 15 percent of amount advanced);
• Colorado, see Colo. Stat. 5-3.101, el seq.
(limiting size of payday loans and interest
charged on them);
• Florida, see Fla. Stat. § 560.404(6) (limiting
fees charged by deferred presentment providers on currency or payment instrument);
• Hawaii, see Haw. Stat. 480E-1, et seq. (limiting fees that check cashers can charge on
deferred deposit checks);
• Illinois, see 815 ILCS §§ 122/1-1 et seq.
(setting up a regulatory scheme for payday
lending and limiting fees that can be
charged on such loans);

139a
• Indiana, see Ind. Stat. Ann. 24-4.5 — 7.101
(setting up licensing scheme limiting interest rate that can be charged on loans of up to
$500 );
• Iowa, see Iowa Stat. Ann. 533D.1, et seq.
(setting up licensing scheme and limiting
number of loans and fees that can be charged
by licensees to approximately $15 per $100
loaned);
• Kansas, see Kan. Stat. Ann. § 16a-2-404
(requiring licenses for payday lenders and
limiting rates they can charge to approximately $15 per $100 loaned);
• Kentucky, see Ky. Stat. Ann. §§ 286.9-010, et
seq. (setting up licensing scheme and limiting number of loans and fees that can be
charged by licensees to approximately $15
per $100 loaned);
• Louisiana, see La. Rev. Stat. §§ 9:3578:1, et
seq. (setting maximum loan amount, requiring licenses, and limiting fees that can be
charged on amount advanced);
• Michigan, see Mich. Stat. Ann. § 487.2121, et
seq. (setting up licensing scheme and limiting fees that can be charged by licensees to
no more than $15 per $100 loaned);
• Minnesota, see Minn. Stat. 47.60 (limiting
charges that can be assessed on consumer
small loans);
• Mississippi, see Miss Code. Ann. §§ 75-67501 et seq. (limiting amount of short-term
loans to $500 and limiting fees that can be
charged on a delayed deposit check to either

140a
20 percent or 21.95 percent, depending on
amount advanced);
• Missouri, see Mo. Rev. Stat. § 408.505
(limiting amount and duration of short-term
loans and interest rates and fees on such
loans);
• Nebraska, see Neb. Rev. Stat. §§ 45-901 et
seq. (limiting amount and duration of shortterm loans and limiting total service fees to
15 percent of initial loan amount);
• New Mexico, see N.M. Stat. Ann. §§58-15-3258-15-38 (limiting duration of short-term
loans and limiting fees to 15.5 percent of
initial loan amount, and linking amount of
permissible loan to borrower’s income);
• North Dakota, see N.D. Cent. Code §§ 13-080101 et seq. (limiting duration and amount
of permissible short-term consumer loans
and limiting fees to 20 percent of initial loan
amount);
• Oklahoma, see Okla. Stat. tit. §§ 3101 et seq.
(limiting amount and duration of deferred
deposit loans);
• Rhode Island, see 19 R.I. Gen. Laws §§ 1914.2-1 et seq. (limiting duration of shortterm loans and interest to approximately 36
percent per year);
• South Carolina, see S.C. Code Ann. § 34-39250 (limitation duration and amount of
short-term loans);
• Tennessee, see Tenn. Code Ann. §§ 45-17101 et seq. (limiting duration and amount of
short term loans and limiting service fees to

141a
approximately 15 percent of initial loan
amount);
• Texas, see Tex. Fin. Code Ann. §§ 342.251 et
seq., 342.601 et seq. (limiting amount and
duration of extensions of credit and total
charges, providing for maximum interest
rates);
• Virginia, see Va. Code Ann. §§ §§ 6.2-1800 et
seq. (limiting interest rate to 36 percent,
and total service fee to 20 percent of loan
proceeds);
• Washington, see Wash. Rev. Code § 31.45.010,
et seq. (setting up licensing scheme and
imposing limits on duration and amount of
consumer loans, number of loans that can be
made to any borrower, and fees relative to
amounts advanced); and
• Wyoming, see Wyo. Stat. Ann. § 40-14-363
(limiting finance charges that can be
charged on post-dated checks and duration
of loans).
C. Rules for S Corporation Tax Filings
I anticipate asking either an accountant, such as
Rod Ermel, and/or a representative from the IRS –
perhaps Special Agent Susan Roehre or a revenue
agent – to explain the general rules for corporate tax
filings and the differences between “C Corporations”
and “S Corporations.” Such a witness (or witnesses)
would likely testify to the following:
• The Internal Revenue Code distinguishes between
“S Corporations,” which are small business
corporations, and “C corporations,” which are
not. 26 U.S.C. § 1361(a).

142a
• The income of a C corporation is taxed to the
corporation itself, whereas most income of an S
corporation is taxed to the shareholders of the
corporation instead. Since individuals are
generally taxed at lower rates than corporations, there are potential tax advantages to
having the IRS categorize a corporation as an
“S” Corporation instead of as a “C” Corporation.
• Not all corporations are eligible to be treated as
S Corporations under the Internal Revenue
Code. Among the requirements that a corporation must meet to be eligible for S corporation
treatment are that: (1) it must be a domestic
corporation; (2) all shareholders must be individuals, estates, or exempt organizations, as
defined elsewhere in the Code; and (3) it cannot
have any nonresident alien shareholders. 26
U.S.C. § 1361(b)(1).
• Any corporation or other entity eligible to be
treated as a corporation must complete IRS
Form 2553 to make an election under 26 U.S.C.
§ 1362(a).
• An S Corporation must file IRS Form 1120S
to report its annual income to the IRS. The S
corporation provides the IRS with Schedule
K-1s that report each shareholder’s share of
income, losses, deductions and credits. The
shareholders use the information on the K-1 to
report the same thing on their separate tax
returns.
Please advise whether you believe we would need to
tender such a witness as an “expert” on federal corporate tax laws in order to testify about such matters.

143a
D. General Principles of law Relating to the
Indiana Lawsuit
I also anticipate that we would ask one of the
attorneys from the Indiana lawsuit (Edwards v. Apex
1, et al.) to explain basic legal principles relating to
lawsuits against corporate entities, including but not
limited to what a class action lawsuit is; what it means
to “certify” a class; how one might try to collect a judgment against a corporate defendant; what it means to
“pierce the corporate veil;” and what an Indiana state
court’s role is in approving a settlement of a class
action lawsuit.
Please advise whether you believe we would need to
tender such a witness as an “expert” on Indiana civil
procedure in order to testify about such matters,
E. General Principles on Tribal Sovereign Immunity
At present, we do not anticipate calling any expert
witnesses in our case in chief to explain the concept of
tribal sovereign immunity. We may, however, ask
witnesses to provide factual testimony about what the
defendants said about tribal sovereign immunity. We
also may ask the Court in a pretrial motion to instruct
the jury on basic legal principles relating to the
concept of tribal sovereign immunity. If so, you will
obviously have an opportunity to respond.
In sum, it is the government’s position that none of
the information described in this letter needs to be
presented to the jury through expert testimony, but
please advise me if you disagree, so we can streamline
any disputed issues for the Court. I look forward to
hearing from you.

144a
Sincerely yours,
ZANE DAVID MEMEGER
United States Attorney
/s/ Mark B. Dubnoff
Mark B. Dubnoff
Assistant United States Attorney
Cc: Chambers of the Honorable Eduardo C. Robreno

